<html>
<title> - THE GM IGNITION SWITCH RECALL: WHY DID IT TAKE SO LONG?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





        THE GM IGNITION SWITCH RECALL: WHY DID IT TAKE SO LONG?

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 1, 2014

                               __________

                           Serial No. 113-131

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

89-888                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     BRUCE L. BRALEY, Iowa
CORY GARDNER, Colorado               PETER WELCH, Vermont
MIKE POMPEO, Kansas                  BEN RAY LUJAN, New Mexico
ADAM KINZINGER, Illinois             PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia         JOHN A. YARMUTH, Kentucky
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

              Subcommittee on Oversight and Investigations

                        TIM MURPHY, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          BRUCE L. BRALEY, Iowa
PHIL GINGREY, Georgia                BEN RAY LUJAN, New Mexico
STEVE SCALISE, Louisiana             JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
PETE OLSON, Texas                    KATHY CASTOR, Florida
CORY GARDNER, Colorado               PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
BILL JOHNSON, Ohio                   JOHN A. YARMUTH, Kentucky
BILLY LONG, Missouri                 GENE GREEN, Texas
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)










  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Fred Upton, a Representative in Congress from the state of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     8
Hon. Henry A. Waxman, a Representative in Congress from the state 
  of California, opening statement...............................     9

                               Witnesses

Mary T. Barra, Chief Executive Officer, The General Motors 
  Company........................................................    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................   133
David Friedman, Acting Administrator, National Highway Traffic 
  Safety Administration..........................................    57
    Prepared statement...........................................    60
    Answers to submitted questions...............................   154

                           Submitted Material

Letter of March 31, 2014, from minority staff to Ms. Barra.......   103
Subcommittee minority memorandum.................................   110
Subcommittee majority memorandum.................................   118
Article entitled, ``An Engineer's Eureka Moment With a G.M. 
  Flaw,'' the New York Times, March 28, 2014.....................   130
Document binder \1\..............................................   101

----------
\1\ The information has been retained in committee files and is 
  available at http://docs.house.gov/Committee/Calendar/
  ByEvent.aspx?EventID=102033.

 
        THE GM IGNITION SWITCH RECALL: WHY DID IT TAKE SO LONG?

                              ----------                              


                         TUESDAY, APRIL 1, 2014

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2123, Rayburn House Office Building, Hon. Tim Murphy 
(chairman of the subcommittee) presiding.
    Present: Representatives Murphy, Burgess, Blackburn, 
Gingrey, Scalise, Harper, Olson, Griffith, Long, Barton, Upton 
(ex officio), Terry, DeGette, Braley, Schakowsky, Castor, 
Welch, Tonko, Yarmuth, Green, Dingell (ex officio-nonvoting), 
and Waxman (ex officio).
    Staff Present: Carl Anderson, Counsel, Oversight; Gary 
Andres, Staff Director, Charlotte Baker, Deputy Communications 
Director; Mike Bloomquist, General Counsel; Sean Bonyun, 
Communications Director; Matt Bravo, Professional Staff Member; 
Leighton Brown, Press Assistant; Karen Christian, Chief 
Counsel, Oversight; Brad Grantz, Policy Coordinator, O&I; 
Brittany Havens, Legislative Clerk; Sean Hayes, Deputy Chief 
Counsel, O&I; Kirby Howard, Legislative Clerk; Peter Kielty, 
Deputy General Counsel; Alexa Marrero, Deputy Staff Director; 
Brian McCullough, Senior Professional Staff Member, CMT; 
Brandon Mooney, Professional Staff Member; Paul Nagle, Chief 
Counsel, CMT; John Ohly, Professional Staff, O&I; Krista 
Rosenthall, Counsel to Chairman Emeritus; Peter Spencer, 
Professional Staff Member, Oversight; Shannon Weinberg Taylor, 
Counsel, CMT; Tom Wilbur, Digital Media Advisor; Jessica 
Wilkerson, Legislative Clerk; Michele Ash, Minority Chief 
Counsel, CMT; Phil Barnett, Minority Staff Director; Brian 
Cohen, Minority Staff Director, O&I, and Senior Policy Advisor; 
Elizabeth Ertel, Minority Deputy Clerk; Kiren Gopal, Minority 
Counsel; Hannah Green, Minority Staff Assistant; Elizabeth 
Letter, Minority Press Secretary; Karen Lightfoot, Minority 
Communications Director and Senior Policy Advisor; and Stephen 
Salsbury, Minority Investigator.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. I now convene this hearing of the Oversight and 
Investigations subcommittee, entitled the ``GM Ignition Switch 
Recall: Why Did It Take So Long?''
    Ms. Barra, if you would like to take a seat, please. Thank 
you.
    This question is the focus of our investigation. As soon as 
the Chevy Cobalt rolled off the production line in 2004, 
customers began filing complaints about the ignition switch. 
These customers told General Motors that just by bumping the 
key with their knee while driving the Cobalt, it would shut 
off. In 2004 and 2005, GM engineers twice considered the 
problem and even developed potential solutions to fix it, but 
GM decided the, quote, ``tooling cost and piece prices are too 
high,'' unquote, and that, quote, ``none of the solutions 
represent an acceptable business case,'' end quote.
    The solution GM ultimately settled for was to tell their 
dealers to ask Cobalt drivers to remove heavy objects from 
their key chains, and yet just a year later, GM decided to fix 
the ignition switch. In 2005, GM told their supplier, Delphi, 
to increase the torque in the ignition switch so the key 
wouldn't move out of the run position and into accessory mode.
    GM was not alone in examining problems with the Cobalt. The 
lead government safety regulator, the National Highway Traffic 
Safety Administration, known as NHTSA, was also evaluating 
concerns with the Cobalt. But NHTSA didn't look at the ignition 
switch problem, just air bag nondeployment. In 2007, 3 years 
after the Cobalt's release, the chief of NHTSA's Defects 
Assessment Division proposed that the agency investigate the 
Cobalt because he spotted a, quote, ``pattern of 
nondeployments,'' unquote, in Cobalt air bags that didn't exist 
with similar sedans.
    An internal NHTSA presentation noted a spike in warranty 
claims for Cobalt air bags, a total of 29 crashes causing 25 
injuries, 4 deaths, and 14 field reports. Yet NHTSA ultimately 
decided not to investigate. Even when the issue was again 
raised 3 years later in 2010, NHTSA again passed on 
investigating.
    GM was also looking into the air bag nondeployments. As 
early as 2007, GM started tracking incidents where Cobalt air 
bags did not deploy in car crashes.
    In 2011 and 2012, GM assigned at least two groups of 
engineers to examine the problem. According to GM's public 
statements, it wasn't until December 2013 the company finally 
put the pieces together and linked the problems with the air 
bags with the faulty ignition switch, almost 10 years after 
customers first told GM the Cobalt ignition switch didn't work.
    We know this. The red flags were there for GM and NHTSA to 
take action, but for some reason, it did not happen. Why didn't 
GM and NHTSA put the pieces together for 10 years? Why didn't 
anyone ask the critical important questions? Why did GM accept 
parts below their own company standards and specs? When GM 
decided to get a new ignition switch for the Cobalt in 2006, 
did GM do so because they recognized that the faulty switch 
posed a safety problem? Why did GM keep the old part number 
which led to confusion? When GM replaced the ignition switch, 
did engineers also consider how the faulty ignition impacted 
other systems in the car like air bags? Why did GM the replace 
the ignition switch in new cars but not the older models? Why 
did GM think a memo about the size of key chains was enough to 
solve the problems? Why did NHTSA twice decide not to 
investigate the Cobalt? And why didn't NHTSA make the link 
between the keys being in the accessory position and air bags 
not deploying? Did anyone ask why?
    And for both GM and NHTSA, are people talking to one 
another? Do GM and NHTSA have a culture where people don't pass 
information up and down the chain of command? To borrow a 
phrase, what we have here is a failure to communicate, and the 
results were deadly, a failure to communicate both between and 
within GM and NHTSA. Today we will ask GM and NHTSA what they 
are doing to not just fix the car but to fix the culture within 
a business and a government regulator that led to these 
problems. This is about restoring public trust and giving the 
families and crash victims the truth about whether this tragedy 
could have been prevented and if future ones will be prevented. 
It is my hope and expectation that today we will not hear a 
blame game or finger pointing. All the brilliant engineers and 
workers in the world won't matter if the people don't really 
care, and as the old saying goes, people don't care that you 
know until they know that you care.
    This investigation is only 3 weeks old, and we are 
determined to find the facts and identify the problem so a 
tragedy like this won't ever happen again. This investigation 
is bipartisan, it is a priority of all the members of this 
committee. I want to thank Mary Barra for being here and also 
the head of NHTSA, David Friedman, ranking members Waxman, 
DeGette, and Dingell for working with us, and I now yield the 
remaining amount of my time to Dr. Michael Burgess.
    [The prepared statement of Mr. Murphy follows:]

                 Prepared statement of Hon. Tim Murphy

    I now convene this hearing of the Oversight and 
Investigations Subcommittee, entitled ``The GM Ignition Switch 
Recall: Why Did It Take So Long?''
    This question is the focus of our investigation.
    As soon as the Chevy Cobalt rolled off the production line 
in 2004, customers began filing complaints about the ignition 
switch. These customers told GM that just by bumping the key 
with their knee while driving, the Cobalt would shut off. In 
2004 and 2005, GM engineers twice considered the problem and 
even developed potential solutions to fix it. But GM decided 
the ``tooling cost and piece price are too high'' and that 
``none of the solutions represents an acceptable business 
case.'' The solution GM ultimately settled for was to tell 
their dealers to ask Cobalt drivers to remove heavy objects 
from their key chains.
    And yet, just a year later, GM decided to fix the ignition 
switch. In 2005, GM told their supplier, Delphi, to increase 
the torque in the ignition switch so the key wouldn't move out 
of the run position and into accessory mode.
    GM wasn't alone in examining problems with the Cobalt. The 
lead government safety regulator, the National Highway Traffic 
Safety Administration, was also evaluating concerns with the 
Cobalt.
    But NHTSA didn't look at the ignition switch problem, just 
airbag non-deployment.
    In 2007, 3 years after the Cobalt's release, the chief of 
NHTSA's Defects Assessment Division proposed that the agency 
investigate the Cobalt because he spotted a ``pattern of non-
deployments'' in Cobalt airbags that didn't exist with similar 
sedans.
    An internal NHTSA presentation 1A\1\ noted a spike in 
warranty claims for Cobalt airbags: a total of 29 crashes 
causing 25 injuries and four deaths; and 14 field reports. Yet, 
NHTSA ultimately decided not to investigate. Even when the 
issue was again raised 3 years later, in 2010, NHTSA again 
passed on investigating.
---------------------------------------------------------------------------
    \1\ 1A1 Office of NHTSA Defects Investigation panel to the Defects 
Assessment Division
---------------------------------------------------------------------------
    GM was also looking into the airbag non-deployments. As 
early as 2007, GM started tracking incidents where Cobalt 
airbags didn't deploy in car crashes. In 2011 and 2012, GM 
assigned at least two groups of engineers to examine the 
problem. According to GM's public statements, it wasn't until 
December 2013 that the company finally put the pieces together 
and linked the problems with the airbags with the faulty 
ignition switch--almost 10 years after customers first told GM 
the Cobalt ignition switch didn't work.
    We know this: the red flags were there for GM and NHTSA to 
take action--but they didn't.
    Why didn't GM and NHTSA put the pieces together for 10 
years? Why didn't anyone ask the critically important 
questions?
    Why did GM accept parts below their own company standards 
and specs?
    When GM decided to get a new ignition switch for the Cobalt 
in 2006, did GM do so because they recognized that the faulty 
switch posed a safety problem?
    Why did GM keep the old part number, leading to confusion?
    When GM replaced the ignition switch, did engineers also 
consider how the faulty ignition impacted other systems in the 
car like the airbags?
    Why did GM replace the ignition switch in new cars but not 
the older models?
    Why did GM think a memo about the size of keychains was 
enough to solve a problem?
    Why did NTSHA twice decide not to investigate the Cobalt?
    Why didn't NHTSA make the link between the keys being in 
the accessory position and airbags not deploying? Did anyone 
ask why?
    And for both GM and NHTSA: are people talking to one 
another? Do GM and NHTSA have a culture where people don't pass 
information up and down the chain of command?
    To borrow a phrase, ``what we have here is a failure to 
communicate''--and the results are deadly.
    A failure to communicate both between and within GM and 
NHTSA.
    Today we will ask what GM and NHTSA are doing--not just to 
fix the car--but to fix a culture within a business and 
government regulator that led to these problems. This is about 
restoring public trust--and giving the families of crash 
victims the truth about whether this tragedy could have been 
prevented and if future ones will be prevented.
    It is my hope and expectation that today we will not hear a 
blame game or finger pointing. All the brilliant engineers and 
workers in the world won't matter if the people don't think you 
care. As the old saying goes: ``People don't care that you 
know, until they know that you care.''
    This investigation is only 3 weeks old. We are determined 
to find the facts and identify the problems so a tragedy like 
this never happens again. This investigation is bipartisan and 
is a priority of all members on this committee.
    I thank GM Chief Executive Officer Mary Barra and NHTSA 
Acting Administrator David Friedman for appearing before the 
committee today to answer our questions. I thank Ranking 
Members Waxman, DeGette and Dingell for working with us.

    Mr. Burgess. I thank the chairman for yielding.
    I thank our witnesses for being here. I thank our witnesses 
for being so responsive to the committee staff request. We are 
here to examine a very important matter. The hearing is 
appropriately named. We do have questions for General Motors.
    We have questions for the National Highway Traffic Safety 
Administration. Two chances to open up formal investigations 
into the recalled General Motors cars: Both in 2007 and 2010, 
NHTSA initially examined problems with the vehicles and both 
times--both times--decided that no investigation was needed.
    We need to hear from NHTSA today how you intend to improve 
the process going forward, and we were just here 5 years ago 
with the Toyota investigation. We heard a lot of things out of 
NHTSA on those hearings. I would like to know how they have 
improved the process and how we can expect to have confidence 
in their ability going forward.
    I yield back.
    Mr. Murphy. I now recognize the ranking member of the 
committee, Ms. DeGette, of Colorado.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman.
    Like all of us, I am deeply troubled about what our 
investigation has revealed about GM's business practices and 
its commitment to safety.
    Here is what we know. We know that GM has recalled over 2.5 
million vehicles because of defective ignition switches. We 
know they should have done it much, much earlier. We know that 
GM failed to provide Federal regulators with key information, 
and sadly, we know that at least 13 people are dead. And there 
have been dozens of crashes because GM produced cars that had a 
deadly effect.
    Mr. Chairman, I have a copy of the ignition switch assembly 
for one of these vehicles, and this is it. A spring inside the 
switch, a piece that cost pennies, failed to provide enough 
force causing the switch to turn off when the car went over a 
bump.
    GM knew about this problem in 2001. They were warned again 
and again over the next decade, but they did nothing. And I 
just want to show how easy it is to turn this key in this 
switch. If you had a heavy key chain, like my long key chain, 
or if you were short and you bumped up against the ignition 
with your knee, it could cause this key to switch right off.
    Mr. Chairman, we now know that these switches were 
defective from the start. In February of 2002, GM's ignition 
switch supplier, Delphi, informed the company that the switch 
did not meet GM's minimum specifications, but GM approved it 
anyway.
    Now, yesterday, we sent Ms. Barra a letter about this 
decision. I would like unanimous consent to make that letter a 
part of the hearing record.
    Mr. Murphy. Without objection.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. Soon after this approval, the defective cars 
were on the road, and it didn't take long for problems to 
appear. In 2003, June 2003, the owner of a Saturn Ion with 
3,474 miles on the odometer made a warranty report that he or 
she, quote, ``bumped the key and the car shut off.'' GM would 
receive more than 130 similar warranty claims from owners about 
this problem over the next decade, but it never informed the 
public or reported the problem to Federal safety regulators.
    The minority staff conducted this warranty analysis, and 
again, we prepared a memo about these claims. I would also ask 
unanimous consent to put that in the record, Mr. Chairman.
    Mr. Murphy. Without objection.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. Initially, GM opened multiple investigations 
into the ignition switch issue, each which concluded the switch 
was bad; it didn't meet the minimums. In 2005, GM identified 
solutions to the problem but concluded that, quote, ``the 
tooling cost and piece price are too high... Thus none of the 
solutions represents an acceptable business case.''
    Documents provided by GM show that this unacceptable cost 
increase was only 57 cents.
    And Mr. Chairman, we have this document that we got from 
GM. Somehow it is not in the binder. I would ask unanimous 
consent to put this in the record as well.
    Mr. Murphy. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. Another technical investigation completed in 
2005 led GM to issue a technical service bulletin advising 
dealers to distribute key inserts to help reduce the problem. 
This was a simple fix to reduce the force on the switch.
    And Mr. Chairman, these are the keys of one of my staff 
members who actually owns one of these cars, and as you can 
see, there is a long, long insert. What the key inserts were 
supposed to do is go in the middle and just create a little 
hole so the key and the keys wouldn't go back and forth. 
Unfortunately, GM never made this bulletin public. More than 
500 people out of the thousands of drivers who had cars with 
faulty switches got the key insert, and GM knew it.
    Soon after this decision, company officials quietly 
redesigned the switch, but they never changed the part number, 
and astonishingly, this committee has learned that when GM 
approved a new switch in 2006, they did it still knowing that 
the new switch didn't meet specifications. The company even put 
more cars with bad switches on the road from 2008 until 2011, 
and we still don't know all the information about this.
    Between 2003 and 2014, GM learned hundreds of reports of 
ignition switch problems through customer complaints, warranty 
claims, lawsuits, press coverage, field reports and even more 
internal investigations, but time and time again, GM did 
nothing. The company continued to sell cars, knowing they were 
unsafe.
    I know we have a lot of family members here, Mr. Chairman, 
and I want to express my deepest sympathies to them, but I want 
to tell them something more. We are going to get to the bottom 
of this. We are going to figure out what happened, and we are 
going to make sure it doesn't happen again.
    Now, Mr. Chairman, I want to thank Ms. Barra for coming. 
She is brand new at the company. I believe she is committed to 
fixing this situation. We have a lot of questions to ask today, 
though, and I know every member of this committee is concerned 
about this. Thank you very much.
    Mr. Murphy. And the gentlelady's time expired.
    I now recognize the chairman of the full committee, Mr. 
Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    We know that with a 2-ton piece of high velocity machinery, 
there is in fact a zero margin for error. Product safety is 
indeed a life or death issue, but sadly, vehicle safety has 
fallen short, and it is not the first time.
    During the late summer of 2000, in this very room, I led 
the oversight hearings that examined the Ford-Firestone 
recalls, a tire malfunction was causing violent crashes, and 
Americans did not feel safe behind the wheel. We gathered 
testimony from the company and agency officials and reviewed 
thousands and thousands of pages of documents, and we found 
that the system indeed had failed. Information about the 
defective tires had been shared with the companies and with 
NHTSA, the parties failed to protect the public safety, and 
over 100 people died.
    After that investigation, I introduced the TREAD Act to 
correct many of the problems that contributed to the Ford-
Firestone tragedy. That bill was meant to ensure data about 
safety is reported so that defects can be quickly identified 
and fixed and lives ultimately saved. The TREAD Act has now 
been law since November of 2000, yet here we are investigating 
another safety failure. It is deja vu all over again.
    One month ago, GM issued a recall for an ignition switch 
defect in six vehicles, totalling 1.6 million cars. And last 
Friday, they called another 900,000 vehicles. GM acknowledges 
that a dozen people have died in automobile crashes associated 
with that defect. Two were teenagers from my own community.
    Testifying today are GM CEO Mary Barra and NHTSA Acting 
Administrator David Friedman, a first step in our quest to find 
out what went wrong.
    The committee's purpose is the same as it was in 2000, 
making sure that drivers and families are protected and cars 
are safe. And I will repeat what I said at the first oversight 
hearings on Firestone tires in 2000. Today's hearing is very 
personal to me because I come from Michigan, the auto State, 
the auto capital of the world. That is no less true today. 
Michigan is proud of its auto industry, and while Michigan 
citizens build cars, obviously, we drive them, too.
    Documents produced to the committee show that both NHTSA 
and GM received complaints and data about problems with 
ignition switches and air bags. These complaints go back at 
least a decade. NHTSA engineers did crash investigations as 
early as 2005 and twice examined whether complaints with air 
bags constituted a trend. GM submitted early warning reports to 
NHTSA, including data about crashes in the recalled cars. With 
all that information available, why did it take so long to 
issue the recall?
    In this case, just as it was with Ford-Firestone, it was 
news reports that brought the problem to the Nation's 
attention. This investigation of the recall is indeed 
bipartisan, as it should be. We will follow the facts wherever 
they lead us, and we are going to work until we have the 
answers and can assure the public that indeed they are safe. I 
would like to note that the chairman of our CMT subcommittee, 
Mr. Terry, will be joining us for questions this afternoon. 
With his subcommittee's record on motor vehicle safety issues, 
he will be watching closely as this investigation unfolds so 
that he can take our findings and determine whether and what 
changes may be needed to the laws designed to keep drivers safe 
on the road. After all, our goal on every issue follows the 
Dingell model: Identify the problem or abuse fully, and where 
needed, fix it with legislation so that it won't happen again.
    I yield to the vice chair of the committee, Mrs. Blackburn.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    With a two-ton piece of high-velocity machinery, there is 
zero margin for error; product safety is a life or death issue. 
But sadly, vehicle safety has fallen short. And it's not the 
first time. During the late summer of 2000, in this very room, 
I led the oversight hearings that examined the Ford-Firestone 
recalls. A tire malfunction was causing violent crashes, and 
Americans did not feel safe behind the wheel. We gathered 
testimony from company and agency officials and reviewed 
thousands of documents. And we found that the system had 
failed. Information about the defective tires had been shared 
with the companies and with NHTSA. The parties failed to 
protect the public's safety, and over 100 people died.
    After that investigation, I introduced the TREAD Act to 
correct many of the problems that contributed to the Ford-
Firestone tragedy. That bill was meant to ensure data about 
safety is reported so that defects can be quickly identified 
and fixed--and lives can be saved.
    The TREAD Act has been law since November 2000, yet here we 
are, investigating another safety failure. It's deja vu all 
over again. One month ago, GM issued a recall for an ignition 
switch defect in six vehicles, totaling 1.6 million cars. Last 
Friday, they recalled another 900,000 vehicles. GM acknowledges 
that 12 people have died in automobile crashes associated with 
this defect. Two were teenagers from southwest Michigan.
    Testifying today are GM CEO Mary Barra and NHTSA Acting 
Administrator David Friedman, a first step in our quest to find 
out what went wrong. The committee's purpose is the same as in 
2000: making sure drivers and families are protected and cars 
are safe.
    I will repeat what I said at the first oversight hearing on 
Firestone tires in 2000: ``today's hearing is very personal to 
me, because I come from Michigan, the auto state, the auto 
capital of the world.'' That is no less true today. Michigan is 
proud of its auto industry, and while Michigan citizens build 
cars, we drive them, too.
    Documents produced to the committee show that both NHTSA 
and GM received complaints and data about problems with 
ignition switches and airbags. These complaints go back at 
least 10 years. NHTSA engineers did crash investigations as 
early as 2005 and twice examined whether complaints with 
airbags constituted a trend. GM submitted Early Warning Reports 
to NHTSA, including data about crashes in the recalled cars. 
With all this information available, why did it take so long to 
issue the recall? In this case, just as it was with the Ford-
Firestone affair, it was news reports that brought the problem 
to the nation's attention.
    This investigation of the recall is bipartisan--as it 
should be. We will follow the facts where they lead us. And we 
will work until we have those answers, and can assure the 
public that they are safe.
    I'd like to note that the Chairman of our Commerce, 
Manufacturing, and Trade Subcommittee, Mr. Terry, will be 
joining us for questions this afternoon. With his 
subcommittee's record on motor vehicle safety issues, he will 
be watching closely as this investigation unfolds so that he 
can take our findings and determine whether and what changes 
may be needed to our laws designed to keep drivers safe on the 
road. After all, our goal on every issue follows the ``Dingell 
model''--identify the problem or abuse fully, and where needed, 
fix it with legislation so that it can't happen again.

    Mrs. Blackburn. Thank you, Mr. Chairman.
    And Ms. Barra, thank you very much for being here today. We 
really owe this hearing to the American people, to GM 
customers, and to the relatives of the 12 individuals that have 
lost their lives. And it is important that we get to the bottom 
of this and to see what the roles of GM and NHTSA were in this, 
figure out who is at fault, and we want to know who knew what 
when.
    And Ms. Barra, that includes you. We are going to want to 
know what your exposure was to this issue as you took the helm 
at GM as the CEO.
    You know, in my district, we have the GM plant. The Saturn 
Ion has been recalled. That was made at that plant there in 
Spring Hill, so this is something that is important to my 
constituents. Those that have worked with GM, I thank you for 
being here, and we look forward to the answers.
    I yield back.
    Mr. Murphy. Thank you. The gentlelady yields back.
    I now recognize the ranking member of the full committee, 
Mr. Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. I have a sad 
sense of deja vu as I sit here today. I was part of this 
committee when we held our Ford-Firestone hearings in 2000. I 
led the committee's hearings on Toyota's problems with 
unintended acceleration in 2010. Each time, we heard about how 
auto manufacturers knew about potential defects and about how 
Federal safety officials at the National Highway Traffic Safety 
Administration missed signals that should have alerted them to 
defective cars on the road, and here we are today under similar 
circumstances.
    Over the last month, the full dimensions of another auto 
safety disaster have unfolded. General Motors has recalled 2.5 
million vehicles due to a defective ignition switch, and the 
company has acknowledged that these cars have caused dozens of 
crashes and 13 fatalities.
    Mr. Chairman, I know the families of some of these victims 
are in the audience for today's hearing. I want to acknowledge 
them, thank them for coming. We owe it to them to find out what 
happened.
    The facts that we already know are hard to believe. GM has 
known for years about this safety defect and has failed to take 
appropriate action to fix the problem. The company installed an 
ignition switch it knew did not meet its own specifications. 
Numerous internal investigations resulted in nothing but a 
nonpublic technical service bulletin that partially fixed the 
problem for fewer than 500 drivers.
    A new analysis I released this morning revealed that over 
the last decade, GM received over 130 warranty claims from 
drivers and GM technicians who experienced and identified the 
defect. Drivers reported that their car shut off after hitting 
bumps or potholes at highway speeds when they did something as 
simple as brushing the ignition switch with their knee. One GM 
technician even identified the exact part causing the problem, 
a spring that would have caused at most as much as a few 
postage stamps, a couple of dollars.
    Because GM didn't implement this simple fix when it learned 
about the problem, at least a dozen people have died in 
defective GM vehicles. What is more, new information the 
committee received last week suggests that GM still has failed 
to fully own up to potential problems. GM finally modified the 
ignition switch for later model cars, but Delphi, the 
manufacturer of the ignition switch, told the committee that 
the switches installed in model year 2008 to 2011 vehicles 
still did not meet GM's own specifications. GM finally 
announced a recall of these vehicles last Friday but told the 
public that it was because of bad parts installed during 
repairs, not because of defective parts originally installed in 
the vehicles.
    There are legitimate questions we need to ask about whether 
NHTSA did enough to identify and uncover this problem. In 
retrospect, it is clear that the agency missed some red flags, 
but NHTSA was also laboring under a handicap. There appears to 
have been a lot of information that GM knew but they didn't 
share with the National Highway Traffic Safety Administration. 
We need to make sure that NHTSA and the public have access to 
the same information about safety as auto executives.
    That is why today I am introducing the Motor Vehicle Safety 
Act of 2014. This bill is modeled on the legislation that the 
committee passed in 2010 but was never enacted into law. It 
will make more information on defects available to the public, 
and it will increase NHTSA's funding and increase civil 
penalties for manufacturers when companies like GM fail to 
comply with the law.
    Mr. Chairman, we should learn as much as we can from this 
investigation. Then we should improve the law to make sure we 
are not here again after another auto safety tragedy in the 
near future. I want to yield back my time. Thank you.
    Mr. Murphy. The gentleman yields back.
    I would now like to introduce the witness on the first 
panel for today's hearing. Ms. Mary Barra is the chief 
executive officer of General Motors Company and has been in 
this role since January 15th, 2014, when she also became a 
member of its board of directors.
    She has held a number of positions in this company. From 
2008 to 2009, Ms. Barra served as vice president of global 
manufacturing engineering, and from 2005 to 2008, she was 
executive director of vehicle manufacturing engineering. She 
has also served as a plant manager and director of competitive 
operations engineering as well as numerous other positions.
    I will now swear in the witness.
    Ms. Barra, you are aware that the committee is holding an 
investigative hearing and, when doing so, has a practice of 
taking testimony under oath. Do you have any objections to 
testifying under oath?
    Ms. Barra. No.
    Mr. Murphy. The chair then advises you that under the Rules 
of the House and under the rules of the committee, you are 
entitled to be advised by counsel. Do you desire to be advised 
by counsel during today's hearing?
    Ms. Barra. No.
    Mr. Murphy. In that case, if you would please rise and 
raise your right hand, I will swear you in.
    [Witness sworn.]
    Mr. Murphy. Thank you. Ms. Barra, you are now under oath 
and subject to the penalties set forth in Title 18, Section 
1001 of the United States Code. You may now give a 5-minute 
summary of your written statement.

   STATEMENT OF MARY T. BARRA, CHIEF EXECUTIVE OFFICER, THE 
                     GENERAL MOTORS COMPANY

    Ms. Barra. Thank you, Mr. Chairman and committee members.
    Mr. Murphy. Please pull your microphone close to your mouth 
and make sure it is on. Thank you.
    Ms. Barra. Can you hear me? OK.
    Thank you, Mr. Chairman and committee members. My name is 
Mary Barra, and I am the chief executive officer of General 
Motors. I appreciate the opportunity to be here today. More 
than a decade ago, GM embarked on a small-car program. Sitting 
here today, I cannot tell you why it took so long for a safety 
defect to be announced for this program, but I can tell you we 
will find out.
    This is an extraordinary situation. It involves vehicles we 
no longer make, but it came to light on my watch, so I am 
responsible for resolving it.
    When we have answers, we will be fully transparent with 
you, with our regulators, and with our customers.
    While I cannot turn back the clock, as soon as I learned 
about the problem, we acted without hesitation. We told the 
world we had a problem that needed to be fixed. We did so 
because whatever mistakes were made in the past, we will not 
shirk from our responsibilities now or in the future.
    Today's GM will do the right thing. That begins with my 
sincere apologies to everyone who has been affected by this 
recall, especially the families and friends of those who lost 
their lives or were injured. I am deeply sorry.
    I have asked former U.S. Attorney Anton Valukas to conduct 
a thorough and unimpeded investigation of the actions of 
General Motors. I have received updates from him, and he tells 
me he is well along with his work. He has free rein to go where 
the facts take him, regardless of outcome. The facts will be 
the facts. Once they are in, my leadership team and I will do 
what is needed to help assure this does not happen again. We 
will hold ourselves fully accountable.
    However, I want to stress I am not waiting for his results 
to make changes. I have named a new vice president of global 
vehicle safety, a first for General Motors. Jeff Boyer's top 
priority is to quickly identify and resolve any and all product 
safety issues. He is not taking on this task alone. I stand 
with him, and my senior leadership team stands with him as 
well, and we will welcome input from outside of GM, from you, 
from NHTSA, from our customers, our dealers, and current and 
former employees.
    The latest round of recalls demonstrates just how serious 
we are about the way we want to do things at today's GM. We've 
identified these issues, and we brought them forward and we're 
fixing them. I have asked our team to keep stressing the system 
at GM and work with one thing in mind, the customer and their 
safety are at the center of everything we do. Our customers who 
have been affected by this recall are getting our full and 
undivided attention. We are talking directly to them through a 
dedicated Web site with constantly updated information and 
through social media platforms. We have trained and assigned 
more people, over 100, to our customer call centers, and wait 
times are down to seconds. And of course, we are sending 
customers written information through the mail.
    We have empowered our dealers to take extraordinary 
measures to treat each case specifically. If people do not want 
to drive a recalled vehicle before it is repaired, dealers can 
provide them with a loaner or a rental car free of charge. 
Today, we provided nearly 13,000 loaner vehicles. If a customer 
is already looking for another car, dealers are allowed to 
provide additional cash allowances for the purchase of a lease 
or new vehicle.
    Our supplier is manufacturing new replacement parts for the 
vehicles that are no longer in production. We have commissioned 
two lines and have asked for a third production line. And those 
parts will start being delivered to dealers next week. These 
measures are only the first in making things right and 
rebuilding trust with our customers. And as I have reminded our 
employees, getting the cars repaired is only the first step. 
Giving customers the best support possible throughout this 
process is how we will be judged.
    I would like this committee to know that all of our GM 
employees and I are determined to set a new standard. I am 
encouraged to say that everyone at GM, up to and including our 
board of directors, supports this. I am a second generation GM 
employee, and I am here as our CEO. But I am also here 
representing the men and women who are part of today's GM and 
are dedicated to putting the highest quality, safest vehicles 
on the road.
    I recently held a town hall meeting to formally introduce 
our new VP of safety. We met at our technical center in 
Michigan. This is one of the places where the men and women who 
engineer our vehicles work. They are the brains behind our 
cars, but they are also the heart of General Motors. It was a 
tough meeting. Like me, they are disappointed and upset. I 
could see it in their faces. I could hear it in their voices. 
They had many of the same questions that I suspect are on your 
mind. They want to make things better for our customers and, in 
that process, make GM better. They particularly wanted to know 
what we plan to do for those who have suffered the most from 
this tragedy.
    That is why I am pleased to announce that we have retained 
Kenneth Feinberg as a consultant to help us evaluate the 
situation and recommend the best path forward. I am sure this 
committee knows Mr. Feinberg is highly qualified and is very 
experienced in handling matters such as this. Having led the 
compensation efforts involved with 9/11, the BP oil spill, and 
the Boston marathon bombing, Mr. Feinberg brings expertise and 
objectivity to this effort.
    As I have said, I consider this to be an extraordinary 
event, and we are responding to it in an extraordinary way. As 
I see it, GM has civil responsibilities and legal 
responsibilities. We are thinking through exactly what those 
responsibilities are and how to balance them in an appropriate 
manner. Bringing on Mr. Feinberg is the first step.
    I would now be happy to answer your questions. Thank you.
    Mr. Murphy. Thank you, Ms. Barra.
    [The prepared statement of Ms. Barra follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
    
    Mr. Murphy. I also want to acknowledge all the families 
that are here today and know that we are aware and you have 
sympathies of all the committee here. One Kelly Erin Ruddy of 
Scranton, Pennsylvania, is one of those who we offer sympathy 
to the family, but we have all of your in our hearts.
    Ms. Barra, our committee reviewed more than 200,000 pages 
of documents. What we found is that as soon as the Cobalt hit 
the road in 2004, drivers began to immediately complain to 
General Motors that the car's ignition systems didn't work 
properly. You can imagine how frightening it is to drive a car 
that suddenly you lose your power steering and power brakes. 
When the switch for the Cobalt was being built back in 2002, GM 
knew the switch did not meet its specification for torque. Am I 
correct?
    Ms. Barra. Yes.
    Mr. Murphy. GM engineers began to look at the problem and 
try to figure out how to address it. GM understood the torque 
and the switch as measured below its own specifications. Is 
that right?
    Ms. Barra. Yes.
    Mr. Murphy. Is it common practice for GM to accept a part 
that does not meet GM specifications?
    Ms. Barra. No, but there is a difference between a part 
meeting or not meting specifications and a part being 
defective.
    Mr. Murphy. So under what scenario is accepting parts that 
don't meet GM specs allowable?
    Ms. Barra. An example of that would be when you are 
purchasing steel. You will set a specification for steel, but 
then because of the different suppliers and availability of 
steel to make products, you will assess the performance, the 
functionality, the durability, you know, the aspects of the 
part, or in this case, steel, that is necessary to live up to 
what the performance and the durability the safety needs to be.
    Mr. Murphy. Well, let's----
    Ms. Barra. So that is an example of when you would have a 
part or have material that doesn't meet the spec that was set 
out but is acceptable from a safety, from a functionality 
perspective, performance as well.
    Mr. Murphy. Is that switch acceptable?
    Ms. Barra. The switch--I am sorry, the switch.
    Mr. Murphy. Is the switch acceptable?
    Ms. Barra. At what timeframe, I am sorry?
    Mr. Murphy. Well, at the beginning. It didn't meet the 
specs for GM, so is that what you would consider acceptable?
    Ms. Barra. As we clearly know today, it is not.
    Mr. Murphy. So, in 2006, GM changed its ignition switch, 
and GM's switch supplier Delphi put in a new spring to increase 
the torque. Am I correct?
    Ms. Barra. I didn't hear the last part. I am sorry.
    Mr. Murphy. GM switch supplier Delphi put a new spring in 
to increase the torque. Is that correct?
    Ms. Barra. There was a new part.
    Mr. Murphy. Thank you. Now, in that binder next to you, if 
you would turn to tab 25. This is an e-mail exchange between 
Delphi employees in 2005 discussing the changes to the ignition 
switch. The e-mail notes that a GM engineer is asking for 
information about the ignition switch because, quote, ``Cobalt 
is blowing up in their face in regards to turning the car off 
with the driver's knee,'' unquote.
    If this was such a big problem, why didn't GM replace the 
ignition switch in the cars already on the road, the cars where 
the torque fell well below GM's specifications, instead of just 
the new cars, why?
    Ms. Barra. What you just said does not match under tab 25.
    Mr. Murphy. It is the bottom of the page; there should be 
something there. Well, just note that what I have said--I 
apologize for that.
    Ms. Barra. OK.
    Mr. Murphy. But there was a statement made, that Cobalt is 
blowing up in their face just by a bump of the driver's knee.
    Ms. Barra. Clearly, there were a lot of things that 
happened. There has been a lot of statements made as it 
relates. That is why we have hired Anton Valukas to do a 
complete investigation of this process. We are spanning over a 
decade of time.
    Mr. Murphy. But you don't know why they didn't just replace 
the switch on the old cars as well as the new cars?
    Ms. Barra. I do not know the answer to that, and that is 
why we are doing this investigation.
    Mr. Murphy. Well, given the number of complaints about 
ignitions turning off while driving, why wasn't this identified 
as a safety issue?
    Ms. Barra. Again, I can't answer specific questions at that 
point in time. That is why we are doing a full and complete 
investigation.
    Mr. Murphy. Well, then, another one, in the chronology GM 
submitted to NHTSA, GM states it didn't make the connection 
between the ignition switch problems and the air bag 
nondeployment problems until late 2013. So my question is, when 
GM decided to switch the ignition in 2006, did the company ever 
examine how a faulty ignition switch could affect other vehicle 
systems like the air bags?
    Ms. Barra. Again, that is part of the investigation.
    Mr. Murphy. Should they?
    Ms. Barra. Should we understand?
    Mr. Murphy. Should they look at how it affects other 
vehicle systems?
    Ms. Barra. Yes.
    Mr. Murphy. Let me ask another question then. So when GM 
concluded, and you heard from my opening statement, that the 
tooling cost and price pieces are too high, what does that 
mean?
    Ms. Barra. I find that statement to be very disturbing. As 
we do this investigation and understand it in the context of 
the whole timeline, if that was the reason the decision was 
made, that is unacceptable. That is not the way we do business 
in today's GM.
    Mr. Murphy. Well, how does GM balance cost and safety?
    Ms. Barra. We don't. Today, if there is a safety issue, we 
take action. If we know there is a defect in our vehicles, we 
do not look at the cost associated with it. We look at the 
speed in which we can fix the issue.
    Mr. Murphy. Was there a culture in GM at that time that 
they would have put cost over safety?
    Ms. Barra. Again, we are doing a complete investigation, 
but I would say, in general, we have moved from a cost culture 
after the bankruptcy to a customer culture. We have trained 
thousands of people on putting the customer first. We have 
actually gone with outside training. It is a part of our core 
values, and it is one of the most important cultural changes we 
are driving in General Motors today.
    Mr. Murphy. I understand today. We are asking about then.
    I am out of time.
    Ms. DeGette, you are recognized for 5 minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Ms. Barra, GM knew about the defect in the ignition 
switches as far back as 2001, 13 years before the recall. 
Correct? Yes or no will work.
    Ms. Barra. The investigation will tell us that.
    Ms. DeGette. You don't know when GM knew about the defect?
    Ms. Barra. I would like----
    Ms. DeGette. Take a look at tab 7 in your notebook, Ms. 
Barra. This is a GM document, and what this GM document talks 
about is this switch. It says, Tear down evaluation on the 
switch revealed two causes of failure, low contact force and 
low detent plunger force.
    Do you recognize that document, ma'am?
    Ms. Barra. This is the first I have seen this document.
    Ms. DeGette. OK. Well, so you don't know how long GM knew 
about this, right?
    Ms. Barra. And that is why--and that is why I am doing an 
investigation.
    Ms. DeGette. OK. In fact, Delphi, the manufacturer of the 
ignition switch, informed GM in 2002 that the switch was 
supposed to be 15 minimum torque specification, but in fact, 
these switches were between 4 and 10, didn't it?
    Ms. Barra. The specification is correct that it was 
supposed to be 20, plus or minus 5.
    Ms. DeGette. And these switches were between 4 and 10, 
correct? Yes or no will work.
    Ms. Barra. We know that now.
    Ms. DeGette. And GM was notified by Delphi of this, 
correct, yes or no?
    Ms. Barra. I am not aware of being notified.
    Ms. DeGette. OK. Then----
    Ms. Barra. Can I also correct I was not aware that----
    Ms. DeGette. I need a yes or no. I only have 5 minutes. I 
am sorry.
    So, as far back as 2004, 10 years ago, GM conducted a 
problem resolution tracking system inquiry after it learned of 
an incident where the key moved out of the run condition in a 
2005 Chevrolet Cobalt. Is this correct?
    Ms. Barra. Again, you are relating specific incidents that 
happened----
    Ms. DeGette. You don't know?
    Ms. Barra [continuing]. In our entire investigation.
    Ms. DeGette. You don't know about that? Take a look at tab 
8, please. And by the way, ma'am, I am getting this information 
from the chronology that GM provided to NHTSA.
    Ms. Barra. Right. And they are----
    Ms. DeGette. So, let me ask you again, as far back as 2004, 
GM conducted a problem resolution tracking system inquiry after 
it learned of an incident where the key moved out of the run 
condition. Is that correct?
    Ms. Barra. Yes.
    Ms. DeGette. Thank you.
    Now, after the PRTS inquiry, one engineer advised against 
further action because there was, quote, ``no acceptable 
business case to provide a resolution and the PRTS was 
closed.'' Is that correct?
    Ms. Barra. If that is true, that is a very disturbing fact.
    Ms. DeGette. Yes, it is.
    Ms. Barra. That is not the way we make decisions.
    Ms. DeGette. OK. Again in 2005, GM received more reports of 
engines stopping when the keys were jerked out of the run 
condition. Further investigations were conducted, and engineers 
proposed changes to the keys. Is that correct?
    Ms. Barra. It is part of our investigation to get that 
complete timeline.
    Ms. DeGette. Much of this I am taking from the timeline GM 
has already done.
    Ms. Barra. Which was a summary.
    Ms. DeGette. OK. So, as a result of the investigation, a 
technical service bulletin was issued to dealers that if car 
owners complained, they should be warned of this risk and 
advised to take unessential items from the key chain, but this 
recommendation was not made to the public. No public statements 
were issued. No recall sent. Is that correct?
    Ms. Barra. To my understanding, yes.
    Ms. DeGette. Thank you.
    In 2006, GM contracted with Delphi to redesign the ignition 
switch to use a new detent plunger and spring that would 
increase torque force in the switch. Is that correct?
    Ms. Barra. Yes.
    Ms. DeGette. And for some reason, though, the new switch 
was not given a part number and instead shared a number with 
the original defective switch. Is that correct?
    Ms. Barra. Yes.
    Ms. DeGette. Now, this new switch also did not meet GM's 
minimum torque specifications either. This one, Delphi said, 
was in the range of 10 to 15, and it really should have been 15 
at a minimum. Is that correct?
    Ms. Barra. I have not seen the test results from that.
    Ms. DeGette. You don't know that. OK.
    Now, despite these facts, GM continued to manufacture its 
car with these same ignition switches for the model years 2008 
to 2011. Is that correct?
    Ms. Barra. Yes.
    Ms. DeGette. And between 2004 and 2014, no public notices 
were issued as a result of GM's knowledge of these facts and no 
recalls were issued for the over 2.5 million vehicles 
manufactured with these defective ignition switches. Is that 
correct?
    Ms. Barra. Yes.
    Ms. DeGette. And finally, three recalls were made this 
year, 2014, two in February, and one just last Friday. Is that 
right?
    Ms. Barra. Related to this ignition switch?
    Ms. DeGette. Now, I have just a couple of more questions.
    The first question I have, Ms. Barra, GM is intending to 
replace all the switches for those cars beginning on April 7th. 
Is that right?
    Ms. Barra. We will begin shipping material or new parts 
this week.
    Ms. DeGette. Now, are you going to put a completely 
redesigned switch, or are you going to put the old switches 
from 2006 into those cars?
    Ms. Barra. It is going to be a switch that meets the----
    Ms. DeGette. Is it going to be a newly designed switch or 
is it going to be the old switch from 2006?
    Ms. Barra. It is the old design that meets the performance 
that is required to operate safely.
    Ms. DeGette. OK. I have more questions, Mr. Chairman. 
Perhaps we can do another round. Thank you.
    Mr. Murphy. But an important part, a follow up of several 
members being concerned about this, too. You are saying that 
there is an ongoing investigation; you cannot comment on these 
yet. Are you getting updates on a regular basis as this is 
going on?
    Ms. Barra. From Mr. Valukas?
    Mr. Murphy. From anybody in the company regarding these 
proceedings, are you getting updates?
    Ms. Barra. Yes, I am.
    Mr. Murphy. Thank you.
    Now go to the chairman of the full committee, Mr. Upton for 
5 minutes.
    Mr. Upton. Thanks, again, Ms. Barra, for being here this 
afternoon. I want to make sure that we ask similar questions of 
both you and of NHTSA. We want to learn about the documents 
that were submitted on a timely and appropriate basis to NHTSA, 
and in fact, what did they do with that information.
    The documents that we have looked at as produced show that 
GM received complaints about its Cobalt ignition switches for 
about 2 years that ultimately resulted in a redesigned ignition 
switch in 2006. Who within GM would have known about those 
specific complaints? What was the process back then?
    Ms. Barra. I was not a part of that organization at the 
time. That is why I am doing the investigation to understand 
that.
    Mr. Upton. So you don't know the folks that it would have 
been reported to at this point. Is that right?
    Ms. Barra. I don't know the people who would have been 
handling this issue at that point.
    Mr. Upton. But you are getting updates, and what is 
supposed to happen? Looking back, what should have happened 
when these reports came in?
    Ms. Barra. In general, when you have an issue, a product 
issue, a safety issue, a field incident, any type of issue that 
comes in, you have a team of engineers that are the most 
knowledgeable that work on that. If they see there is an issue, 
they elevate it to a cross-functional team that looks at it, 
and then it goes to a group for decision.
    Mr. Upton. Now, we know that the ignition switch was in 
fact redesigned because it didn't meet the specs that were 
there. Is that right?
    Ms. Barra. Yes.
    Mr. Upton. Now, I would guess engineering 101 would 
normally require that when you assign a new part or replace a 
new part or replace a part with a new part, that that newly 
redesigned part, in fact, should have a different number on it. 
Is that right?
    Ms. Barra. That is correct.
    Mr. Upton. And that didn't happen, right, did not happen?
    Ms. Barra. That is correct.
    Mr. Upton. Who within GM made the decision to move forward 
with that redesigned switch without a new part number? Do you 
know who that is?
    Ms. Barra. I do not know the name of the individual.
    Mr. Upton. Are you going to be able to find that out for 
us?
    Ms. Barra. Yes, I will.
    Mr. Upton. And will you give that name to our committee?
    Ms. Barra. And provide that.
    Mr. Upton. Is it likely that that same person was the one 
that decided not to recall the defective version? Where in the 
timeline is that?
    Ms. Barra. I don't know, but that is part of the 
investigation that we are doing.
    Mr. Upton. Do you know when it was that it was discovered, 
what year, where in the timeline that it was discovered that in 
fact a new part number was not assigned?
    Ms. Barra. I became aware of that after we did the recall 
and the timeline was put together.
    Mr. Upton. So that was just in the last month or so. Is 
that right?
    Ms. Barra. That is when I became aware.
    Mr. Upton. But when did GM realize that no new part number 
had been assigned?
    Ms. Barra. Again, that is part of our investigation. I want 
to know that just as much as you because that is an 
unacceptable practice. It is not the way we do business.
    Mr. Upton. So, you stated publicly that something went 
wrong with our process. How is the process supposed to work? 
How are you redesigning the process to ensure that in fact it 
should work the way that it needs to work?
    Ms. Barra. Well, one of things we are doing is the 
investigation by Mr. Valukas. I have some early findings from 
Mr. Valukas. As we look across the company, it appears at this 
time there was information in one part of the company, and 
another part of the company didn't have access to that. At 
times, they didn't share information just by course of process 
or they didn't recognize that the information would be valuable 
to another area of the company. We have fixed that. We have 
announced a new position. Jeff Boyer, who is the vice president 
of Global Vehicle Safety, all of this we will report to him. He 
will have additional staff and will have the ability to cut 
across the organization and will also have the right functional 
leadership that understands what is going on in the different 
areas, so that is a fix we have already made, and he is 
operating that way today.
    Mr. Upton. So, when GM received complaints about the 
ignition switches for a number of years and ended up resulting 
in the redesigned ignition switch in 2006, when was it that 
anyone linked up the ignition switch problems to look at the 
Cobalt's air bags not deploying? Was that at about the same 
time? Was that later? What is the timeline on that?
    Ms. Barra. That is something I very much want to understand 
and know, but again, we are doing an investigation that spans 
over a decade, and it is very important, because designing a 
vehicle is a very complex process, that we get a detailed 
understanding of exactly what happened because that is the only 
way we can know that we can fix processes and make sure it 
never happens again.
    Mr. Upton. When was it that GM informed NHTSA that in fact 
a redesigned--did in fact GM inform NHTSA that the ignition 
switch had been redesigned?
    Ms. Barra. I don't know that.
    Mr. Upton. I yield back.
    Mr. Murphy. The gentleman yields back.
    I now recognize the ranking member of the full committee, 
Mr. Waxman, for 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    Ms. Barra, we heard about how in 2002, GM approved the use 
of faulty ignition switches in Cobalts, Ions, and other cars. 
That is what caused many of the problems that led to the recall 
of the cars from model years 2003 to 2007. So new ignition 
switches were designed and approved by General Motors. These 
were switches that were in use in the model years 2008 to 2010. 
Does that all sound right to you? Am I correct in what I am 
saying?
    Ms. Barra. There are a couple of statements you made at the 
beginning that I don't know to be true.
    Mr. Waxman. Well, in 2002 GM approved the use of what 
turned out to be faulty ignition switches in several of these 
cars.
    Ms. Barra. They were actually in--they were parts that went 
into a 2003 was the earliest model.
    Mr. Waxman. Well, the tests were done in 2002, but the cars 
were 2003 to 2007, so we had a recall of those cars.
    Ms. Barra. Right.
    Mr. Waxman. And then there was a new switch, new ignition 
switch designed and approved by GM, and these new switches were 
in use in the model years 2008 to 2010 Cobalts and Ions. Is 
that----
    Ms. Barra. To the best of my knowledge, that's correct.
    Mr. Waxman. OK. But in a briefing last week, Delphi told 
committee staff that these new switches also did not meet GM 
specifications. They told us the force required to turn these 
switches was about two-thirds of what GM said it should be, and 
documents that were provided to the committee also confirmed 
that top GM officials were aware of the out-of-spec switches in 
2008 to 2010 vehicles in December 2013.
    So, there's a document, if you want to look it up, it's tab 
39, page 6 of your binder. There was a December presentation 
for GM's high level executive field action decision committee, 
at that meeting they show that the performance measurement for 
almost half of the 2008, so you go to 2008-2010 model year 
vehicles, ignition switches were below the minimum GM required 
specifications. My question to you is, are you concerned that 
many 2008 to 2010 model year cars have switches that do not 
meet the company specifications?
    Ms. Barra. As we assess the situation, my understanding 
that there was work going on to look at the switches again, 
looking at just because a switch, or a part, any generic part 
doesn't meet specifications does not necessarily mean it is a 
defective part. As that analysis was going on, at the same time 
we were doing the look across to make sure we could get all of 
the spare parts, and when we recognized that spare parts might 
have been sold through third parties that have no tracking to 
know which VIN, we made the decision to recall all of those 
vehicles.
    Mr. Waxman. Well, your own executives were informed that a 
lot of these cars, that those model years had switches that 
were just as defective as the 2003 to 2007 cars, that--those 
cars were recalled, but you didn't recall the model year 2008 
to 2011 vehicles until a month later on March 28th. Why did the 
company delay in recalling these newer vehicles?
    Ms. Barra. The company was looking--my understanding is the 
company was assessing those switches, but again, at the same 
time, in parallel, they were looking at the spare parts issue, 
and the spare parts issue became very clear we needed to go and 
get all of those vehicles because we couldn't identify which 
vehicles may have had a spare part put in them, and we then 
recalled the entire population.
    Mr. Waxman. But you recalled those vehicles. You recalled 
them later.
    Ms. Barra. Yes, we did.
    Mr. Waxman. But not when you knew there was a problem.
    Ms. Barra. Well, we recall them----
    Mr. Waxman. Your recall of these later vehicles did not 
mention the faulty switches that were originally installed in 
the cars. They mention only, quote, ``faulty switches may have 
been used to repair the vehicles.''
    Why did the company not announce that subpar switches may 
have been installed in those vehicles in the first place?
    Ms. Barra. Again, there was an assessment going on to 
understand if the specification--the parts performance was 
adequate.
    Mr. Waxman. Well, wasn't it misleading to say that that 
company didn't tell them sub par switches may have been 
installed in the first place? What if I owned a later model car 
with its original ignition switch? Your recall implies that I 
don't have to do anything, but my car might still have a sub 
par switch. Will your company conduct a detailed analysis of 
these late model vehicles to determine if they are safe and 
will you provide the committee with warranty reports and other 
information so we can do our own analysis?
    Ms. Barra. I believe we're recalling all of those parts. 
All of those vehicles are being recalled.
    Mr. Waxman. They are all being recalled.
    Well, I must say, in conclusion, Mr. Chairman, I am 
concerned. I know you have taken this job in an auspicious 
time; you are trying to clean up a mess that was left behind 
for you by your predecessors, but I have one last question. How 
can GM assure its customers that new switches being installed 
beginning April 7 will finally meet GM's requirements?
    Mr. Murphy. Thank you.
    Ms. Barra. We are working very closely with our supplier. 
Our executive director responsible for switches is personally 
looking at the performance of the new switches. We will do 100 
percent end-of-line testing to make sure that the performance, 
the safety, the functionality of these switches are safe.
    Mr. Murphy. Thank you. Gentleman's time expired.
    Ms. Barra, you are being asked a number of questions. I 
just want to be clear. Did you review the documents that GM 
submitted to the committee?
    Ms. Barra. No, I did not. There was over 200,000 pages, my 
understanding.
    Mr. Murphy. How about the document Mr. Waxman was talking 
about? Did you review that?
    Ms. Barra. This page right here?
    Mr. Murphy. Yes.
    Ms. Barra. I actually saw this for the first time I think a 
day ago.
    Mr. Murphy. Thank you.
    I now recognize Mrs. Blackburn for 5 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    Ms. Barra, you've mentioned several times in your comments 
``today's GM,'' so my assumption is that you are going to run 
GM in a different manner than it has been run in the past.
    Ms. Barra. That is correct.
    Mrs. Blackburn. And that you are making some changes.
    I want to ask you just a little bit about timeline, helping 
us to get our hands around this because this is the first 
investigation we are going to do. We are going to have others 
and continue to look at this to get answers and figure out what 
has happened here between you all and NHTSA and also within 
what happened at GM.
    So you mentioned in your testimony that this came to light 
on your watch, so I am assuming that there was no widespread 
knowledge in GM about this issue until you became CEO. Am I 
correct on that?
    Ms. Barra. At the senior level of the company, we learned 
of this after the recall decision was made on January 31st. I 
was aware in late December there was analysis going on on a 
Cobalt issue, but I had no more information than that. But I 
can assure you, as soon as we understood, the senior leadership 
understood this issue and that a recall decision had been made, 
we acted without hesitation.
    Ms. Blackburn. OK. Then, how did you find out about it? Was 
it through someone bringing the issue to you to say, ``Ms. 
Barra, we have a real problem here'' or, in doing your due 
diligence, did you find out about it?
    Ms. Barra. The leadership committee responsible for making 
recall decisions made a decision on January 31. They notified 
Mark Royse, who immediately picked up the phone and called me.
    Ms. Blackburn. OK. And could you submit to us the members 
of that leadership committee that makes those recommendations.
    Ms. Barra. Yes.
    Ms. Blackburn. Thank you.
    And then was Mr. Akerson, your predecessor, was he aware of 
this issue?
    Ms. Barra. Not to my knowledge.
    Ms. Blackburn. He was not.
    Are any of the members of the leadership committee also--
were they a part of his leadership committee?
    Ms. Barra. There are members of today's team that were also 
members of Mr. Akerson's leadership team. And, to my knowledge, 
they were not aware.
    Ms. Blackburn. Do you think there was a coverup or it was 
sloppy work?
    Ms. Barra. That is the question I have asked Mr. Valukus to 
uncover, and I am anxiously awaiting the results from his 
study.
    Ms. Blackburn. OK. Do you think it had anything to do with 
the auto bailout?
    Ms. Barra. I am sorry?
    Ms. Blackburn. With the auto bailout. Do you think it had 
any----
    Ms. Barra. Again, I need to get the results of the study to 
make all determinations.
    Ms. Blackburn. And going back to what Mr. Upton said, you 
are going to be sharing that information with us?
    Ms. Barra. Yes. We will be transparent.
    Ms. Blackburn. OK. The engineers that were responsible for 
this, have you brought them into the process? I know this is 
something that the part was actually created by Delphi. 
Correct?
    Ms. Barra. Correct.
    Ms. Blackburn. And they have an engineering team that was 
working on that; so, they have a shared responsibility and 
liability in this entire issue.
    Have you met with them and with the engineering team that 
was responsible for this switch?
    Ms. Barra. I have not met with the specific engineering 
team that is responsible, but I am speaking to leadership. And 
those individuals are being interviewed as part of the 
investigation conducted by Mr. Valukus.
    Ms. Blackburn. OK. Now, going back, did you say that this 
was a defective part when you talked about it earlier?
    Ms. Barra. We have learned when we knew--when the recall 
decision was made and we later went back and looked at the 
chronology, there are points that suggest, and that is why we 
are doing the investigation.
    Ms. Blackburn. OK. All right. Now, I think that you are 
going to hear from more than one of us about not having a new 
part number assigned.
    Who made that decision? Was that strictly a Delphi decision 
or did that come into the GM supply chain for that decision to 
be made as to how that part number would be coded?
    Ms. Barra. At a general level, General Motors is 
responsible for General Motors' parts numbers. But, again, that 
is part of the investigation, to understand how that happened.
    Ms. Blackburn. OK. Does that seem inconceivable to you?
    Ms. Barra. Yes. It is inconceivable. It is not our process, 
and it is not acceptable.
    Ms. Blackburn. OK. I would think that it probably is not.
    Have you asked Delphi if you can have access to their 
documentation and their e-mail chain dealing with this issue?
    Ms. Barra. I have not. And, again, Mr. Valukus will go--as 
the investigation takes him to get the information he needs to 
make a complete and accurate account of what happened.
    Ms. Blackburn. My time has expired.
    Thank you, Mr. Chairman. I yield back.
    Mr. Murphy. Just for clarification, Ms. Blackburn, we have 
asked for that e-mail chain from Delphi and we will let you 
know when we get that.
    Now recognize Chairman Emeritus of the committee, Mr. 
Dingell, for 5 minutes.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy.
    I begin by telling the families of those who were injured 
or killed by the defective General Motors' vehicles they have 
our sympathy, and we believe the events here are tragic, 
indeed. And I join everyone in expressing my condolences to the 
families who were killed or injured in those crashes.
    Now it is incumbent upon the Congress, Federal regulators, 
and General Motors to determine how these deaths could have 
happened and to take reasonable steps to ensure that the safety 
of American motorists and their families are moving forward. I 
expect that this investigation will be thorough. And I counsel 
all the stakeholders to be unabashedly forthright.
    Now, Ms. Barra, I would like to build on Chairman Murphy's 
line of questioning. And all of my questions will require 
``yes'' or ``no'' answers. If you cannot answer some of my 
questions, I expect that you will submit responses for the 
record and all available relevant supporting materials.
    Now, Ms. Barra, is it correct that GM has now recalled 
approximately 2.5 million small cars in the United States due 
to defective ignition switches? Yes or no?
    Ms. Barra. Yes.
    Mr. Dingell. Now, Ms. Barra, is it correct that GM recently 
expanded its recall of small cars because it was possible that 
defective ignition switches may have been installed as 
replacement parts? Yes or no?
    Ms. Barra. Yes.
    Mr. Dingell. Ms. Barra, is it correct that the ignition 
switch in question was originally developed in the late 1990s 
and approved by General Motors in February of 2002? Yes or no?
    Ms. Barra. Yes.
    Mr. Dingell. Ms. Barra, is it correct that General Motors' 
own design specifications for such ignition switch required 20 
plus or minus 5 newton centimeters of torque to move the switch 
from the accessory position to the run position? Yes or no?
    Ms. Barra. Yes.
    Mr. Dingell. Ms. Barra, is it correct that General Motors 
approved production of such ignition switch despite test 
results by Delphi during the production part approval process, 
or PPAP, showing that the switch did not meet GM's torque 
requirement? Yes or no?
    Ms. Barra. It is not clear to me.
    Mr. Dingell. Now, Ms. Barra, is it correct that General 
Motors approved a redesign of the ignition switch used in the 
presently recalled vehicles in April of 2006?
    Ms. Barra. Yes.
    Mr. Dingell. Ms. Barra, is it correct that GM's torque 
requirement for the redesigned switch remained the same as for 
the original ignition switch? Yes or no?
    Ms. Barra. It is not clear to me. And that is why we are 
focusing the investigation on that area specifically.
    Mr. Dingell. When that information becomes available, would 
you submit it to the committee, please?
    Ms. Barra. Yes, I will.
    Mr. Dingell. Ms. Barra, to your knowledge, did the 
redesigned ignition switch meet GM's torque requirements? Yes 
or no?
    Ms. Barra. I----
    Mr. Dingell. Want me to say it again?
    To your knowledge, did the redesigned ignition switch meet 
GM's torque requirement? Yes or no?
    Ms. Barra. It is part of the investigation.
    Mr. Dingell. Ms. Barra, will you please submit for the 
record an explanation of the factors that GM takes into 
consideration when approving a part for production. Are there 
circumstances where GM may approve parts for production when 
such parts do not make such design specifications? Yes or no?
    Ms. Barra. Yes.
    Mr. Dingell. If so, could you please submit materials for 
the record explaining when and why that might occur.
    Ms. Barra. Yes.
    Mr. Dingell. Ms. Barra, I appreciate the lengths to which 
GM, under your leadership, is going to recall the vehicles and 
ensure that they are safe to drive.
    GM's cooperation with the committee is necessary in order 
to understand the process by which--and the reasons decisions 
were made leading up to the 2014 recall. You may have so far 
done so, and I expect that you will continue to do so.
    Thank you for your courtesy, Mr. Chairman.
    Thank you, Ms. Barra.
    I yield back the balance of my time.
    Mr. Murphy. The gentleman yields back.
    I now recognize the Chairman Emeritus of the majority, Mr. 
Barton of Texas, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman.
    Before I ask my questions, I want to make just a general 
observation. This is probably the last major investigation that 
this subcommittee and full committee is going to conduct where 
we have the services of Mr. Dingell and Mr. Waxman.
    We have had a history on this committee and this 
subcommittee going back at least 40 to 50 years that, when we 
have major issues, we try to approach them on behalf of the 
American people in a non-partisan, very open way. And it 
certainly appears that we are going to continue that tradition 
today.
    So I hope that we can show the best to the American people, 
that the Congress at its best gets the facts, presents the 
facts, and does so in a way that in the future we protect the 
public health and safety for the American people.
    Now, with that caveat, I do have a few questions.
    A number of congressmen so far have made the point that 
these ignition switches didn't appear to meet specifications.
    And my assumption is that you have agreed that they did not 
meet specifications. Is that correct?
    Ms. Barra. We have learned that as we did the recall.
    Mr. Barton. Now, I am an industrial engineer. I used to be 
a registered professional engineer. I am not currently 
registered, but I have been in the past.
    Why in the world would a company with the stellar 
reputation of General Motors purchase a part that did not meet 
its own specifications?
    Ms. Barra. I want to know that as much as you do. It is not 
the way we do business today. It is not the way we want to 
design and engineer vehicles for our customers.
    Mr. Barton. I mean, I just don't understand that. I have 
never worked in an auto assembly environment. I have worked in 
a defense plant, an aircraft plant. I was plant manager of a 
printing plant.
    I have done very limited consulting in the oil and gas 
industry, but I have never been a part of an organization that 
said, ``We set the specs. When a part doesn't meet the specs, 
we go ahead and buy it anyway.''
    You know, you are currently the CEO, but at one time, I 
think, before you became CEO, you were the vice president for 
Global Product Development, purchasing and supply chain.
    Is it your position now that General Motors will not accept 
parts that don't meet specifications?
    Ms. Barra. We will not accept parts that don't meet our 
performance, safety, functionality, durability requirements. As 
I mentioned before in the steel example, there will be times 
where there will be a material or a part that doesn't meet the 
exact specification, but after analysis and looking at the 
performance, the safety, the durability, the reliability, the 
functionality, it will be OKed. That happens very often as we 
buy steel to make the bodies of the vehicles.
    Mr. Barton. Well, then, you don't need specifications--with 
all respect----
    Ms. Barra. No. But----
    Mr. Barton [continuing]. What you just answered is 
gobbledygook. It is your own specification. It is your 
company's specification.
    If a part doesn't meet the specification, why in the world 
would you not refuse it and only accept a part that meets the 
specification?
    Ms. Barra. There needs to be a well-documented process if 
you accept a part that doesn't meet the original 
specifications.
    Ms. DeGette. Would the gentleman yield?
    Mr. Barton. Briefly, yes.
    Ms. DeGette. Do you have that information?
    Ms. Barra. On steel?
    Ms. DeGette. No. On starters.
    Ms. Barra. On the ignition switch----
    Ms. DeGette. Yes.
    If it didn't meet specifications, do you have the 
information on these starters that it met all those other 
criteria?
    Ms. Barra. That is part of the investigation. But, clearly, 
by the fact that we made a recall, it did not meet the 
performance specifications.
    Mr. Barton. We have the advantage, as a subcommittee, that 
we know now what happened in the past. We know now that there 
is a real problem. We know now that a number of young people 
have lost their lives apparently because of this defect.
    So we have the advantage of hindsight. So I understand 
that. But as Ms. DeGette just said and a number of others, 
there is no reason to have specifications if you don't enforce 
them.
    This next question is not a trick question, but it is an 
important question. Right now, how many parts are being used in 
General Motors' products that don't meet your own company's 
specifications?
    Ms. Barra. I don't have that exact number. But I can tell 
you the parts that we are using today meet the performance and 
the reliability, the safety, that they need to. If we find we 
have a part that is defective, that doesn't meet the 
requirements, we then do a recall.
    Mr. Barton. Well, again, with due--that is not an 
acceptable answer, I think, to the American people.
    We are not telling you the specifications to set. Now, 
there are some safety specifications that--by law and NHTSA, by 
regulation, sets, but there shouldn't be a part used in any GM 
product or, for that matter, any other automobile product that 
is sold in the United States that doesn't meet the 
specifications.
    At what level was the decision made to override and to use 
this part even though it didn't meet specification? Was that 
made at the manufacturing level, at the executive level, or 
even at some subcomponent purchasing level? Do you know that 
right now?
    Ms. Barra. That is part of our investigation to answer that 
question.
    Mr. Barton. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Murphy. Thank you. The gentleman's time has expired.
    I now recognize Mr. Braley for 5 minutes.
    Mr. Braley. Thank you, Mr. Chairman.
    Ms. Barra, we have had different perspectives during this 
hearing. You have been appropriately focusing your attention on 
the members of this committee and answering our questions.
    I have been staring at these photographs on the back wall. 
And I see young women the same age as my daughter. I see young 
men the same age as my two sons. My son Paul owns one of your 
Cobalts.
    I see a young Marine in his dress blues, and I am reminded 
of the photograph I have in my office upstairs of my father at 
the age of 18 in his dress blues at Camp Pendleton.
    And the focus of this hearing so far has been on GM's 
commitment to safety, which I think we all agree on is an 
important topic for this hearing.
    You testified in your opening--and I think I am quoting--
``Our customers and their safety are at the center of 
everything we do.''
    And you responded to a question from Ms. Blackburn and told 
us that you were going to run GM differently than it has been 
run in the past.
    And I have a copy of GM's March 18 press release announcing 
Jeff Boyer as your new vice president of Global Vehicle Safety.
    And in this press release he is quoted as saying, ``Nothing 
is more important than the safety of our customers and the 
vehicles they drive. Today's GM is committed to this, and I am 
ready to take on this assignment.''
    Twenty years before this hearing an Iowa family harmed by 
another defective GM vehicle gave me this promotional 
screwdriver set that they got from their local GM dealer. And 
if you look at it, on the outside it has a slogan, ``Safety 
comes first at GM.''
    So my question for you and I think the question that these 
families back here want to know is: What has changed at GM? 
Isn't it true that, throughout its corporate history, GM has 
represented to the driving public that safety has always been 
their number one priority?
    Ms. Barra. I can't speak to the statements that were made 
in the past. All I can tell you is the way we are working now, 
the training that we have done, we have changed our core 
values, the decisionmaking we are leading, we are leading by 
example.
    One of the process changes that we have also made is, in 
addition to when the technical community makes their decision 
about a safety recall or a recall, we are going to be reviewing 
it, Mark Royce, the head of Global Product Development, and 
myself, to see if there is more that we want to do.
    Mr. Braley. Haven't the core values of General Motors 
always been that safety comes first?
    Ms. Barra. I have never seen that part before.
    Mr. Braley. Isn't it true that throughout the history of 
the company, it has made representations like this to the 
driving public as a way of inducing them to buy your vehicles?
    Ms. Barra. Today's General Motors--all I can tell you is 
today's General Motors, we are focused or safety. We have over 
18 vehicles that have a five-star crash rating. Our entire 
Buick lineup meets that requirement. We take it very seriously.
    Mr. Braley. But we are talking about these vehicles and 
what has changed.
    Have you had a chance to read this article in the Saturday 
New York Times, ``A Florida Engineer's Eureka Moment With a 
Deadly G.M. Flaw?''
    Ms. Barra. I believe I read a portion of that article.
    Mr. Braley. This is an article by a writer named Bill 
Vlasic. And he wrote in here about an engineer named Mark Hood 
who is ``at a loss to explain why the engine in Brooke Melton's 
Cobalt had suddenly shut off, causing her fatal accident in 
2010 in Georgia.''
    Then he bought a replacement for $30 from a local G.M. 
Dealership, and the mystery quickly unraveled. For the first 
time, someone outside G.M., even by the company's own account, 
had figured out a problem that it had known about for a decade, 
and is now linked to 12 deaths.
    Even though the new switch had the same identification 
number, Mr. Hood found big differences.
    And then the article continues, ``So began the discovery 
that would set in motion G.M.'s worldwide recall of 2.6 million 
Cobalts and other cars, and one of the gravest safety crises in 
the company's history.''
    Do you agree with the author that this is a grave safety 
crisis in the history of General Motors?
    Ms. Barra. I have said that this incident took way too 
long, it is not acceptable, and that is why we are making a 
radical change to the entire process, adding more resources, 
naming a vice president of Global Vehicle Safety who is 
tremendously experienced and of the highest integrity, and we 
will continue to make process changes and people changes as we 
get the results of the Mr. Valukus investigation, and we will 
take all of those recommendations and we will make changes.
    Mr. Braley. Before I yield back, Mr. Chairman, I would like 
to ask unanimous consent to have this article added to the 
record for the hearing, if it is not already a part of the 
record.
    Mr. Murphy. Without objection.
    [The information appears at the conclusion of the hearing.]
    Ms. Blackburn. If the gentleman would yield his remaining 
second, Ms. Barra said they had changed their core values. I 
think it would be great if she could submit to us what those 
new core values for GM are so we would have those for the 
record.
    Mr. Murphy. We will ask that for the record.
    Mr. Braley. I would also like to have any prior statement 
of core values from General Motors over the last 20 years so 
that we can see what has changed, Mr. Chairman.
    Mr. Murphy. We will be asking members for several questions 
to submit to GM for the record.
    Now recognize the vice chair of the subcommittee, Dr. 
Burgess, for 5 minutes.
    Mr. Burgess. I thank the chairman.
    And thank the witness for spending so much time with us 
this afternoon.
    You mentioned, Ms. Barra, at the start of your written 
testimony that, over a decade ago, General Motors embarked upon 
a small car program.
    Do you recall why that was?
    Ms. Barra. I am sorry?
    Mr. Burgess. Why did GM embark upon a small car program 10 
years ago, over a decade ago?
    Ms. Barra. To have a complete portfolio, I believe.
    Mr. Burgess. But the mission--or the type of car that was 
manufactured by GM previously had not fit that model; so, this 
was an entirely new business line that GM was undertaking?
    Ms. Barra. The Cobalt--and there are several products. But 
if you are speaking specifically about the Cobalt, it was 
following a previous small car, but it was an all-new program 
architecture, et cetera.
    Mr. Burgess. Was any part of this done because of the CAFE 
standards that were changing? Was any of this done because of 
congressional action that had occurred previously?
    Ms. Barra. I cannot answer that question. I wasn't in on 
decisionmaking at that point.
    Mr. Burgess. Let me ask you this. When Mr. Waxman was 
giving his opening statement, he said it was a shame that the 
National Highway Traffic Safety Administration did not have 
access to the same information that General Motors had.
    Do you think that was a fair statement for him to have 
made?
    Ms. Barra. As part of the investigation we are doing, I am 
looking at what information was provided and when.
    Mr. Burgess. And that becomes, then, the troubling part of 
all of this.
    I think Ranking Member DeGette had you look at tab 8 in the 
information binder, and this was talking about the ignition key 
cylinder assembly. And the date of the PDF that I have is 
January 1 of 2005. Again, you will find that under tab 8.
    But later on in the same document it says, ``We are closing 
this with no action. The main reasons are all possible 
solutions were presented. The lead time for solutions is too 
long. The tooling costs and piece price are too high, and none 
of the solution seems to fully countermeasure the possibility 
of the key being turned off.''
    So that was all in January of 2005. And then, you know, as 
part of our document evaluation for getting ready for this 
hearing, there were several accident reports that were supplied 
to us. And one of those occurred not too far away in Maryland 
in the middle of the summer of 2005.
    And in that accident sequence, a Cobalt hit a series of 
trees at the end of a cul-de-sac. The driver was fatally 
injured during that. She wasn't wearing a seatbelt. She wasn't 
a terribly large individual. She weighed about 100 pounds.
    Because the air bag did not deploy, though--or it would be 
my--well, you just have to wonder. Had the air bag deployed, 
would her small frame have been protected?
    I mean, she broke the rim off the steering wheel because of 
the impact of the collision, her body with the steering wheel 
and steering column.
    Of course, the steering wheel, being somewhat indented 
toward the driver--the lower part of the driver's body, hit her 
under the ribcage, apparently resulting in a liver laceration, 
which resulted in the exsanguination and the time sequence to 
get her out of the crash and get her to the hospital.
    You can't help but wonder--because the other injuries that 
were reported with that crash are really fairly mild. You have 
got to believe the air bag would have made a difference there.
    I just can't help but think that the people evaluating this 
must have asked themselves why no air bag went off with this 
type of crash. She was going 70 miles an hour and hit an oak 
tree.
    Wouldn't that be a logical place for an air bag to deploy?
    Ms. Barra. First of all, it is a very tragic situation. 
Some of the fatalities in these vehicles, again, we see as a 
tragedy, and we have apologized.
    As I read the document that you asked me, I find that 
unacceptable, that any engineer would stop at that point if 
there was an issue that they felt was a safety defect.
    That is why we are doing the investigation, again, to put a 
complete timeline together. And I commit to you, we will take 
action. We have made process changes. We will fix the process. 
Our goal is to have a world-class safety process.
    Mr. Burgess. And I respect you for being here and answering 
that way.
    One of the other accidents that is recorded in our binder 
under tab 20 was a head-on collision that occurred, I believe, 
in Pennsylvania where the Cobalt was not at fault.
    Another car went over the center line, and there was a 
head-on impact. Again the Cobalt air bags did not deploy. The 
driver of the other vehicle--the air bag did deploy.
    I mean, it seems to me this should be a red flag to the 
people who investigate air bag non-deployments as an occurrence 
or as an issue.
    In fairness, let me just state that all of the front-seat 
occupants of both vehicles were deceased as a result of that 
accident; so, the deployment of the air bag in that situation 
did not protect, preserve the life of the driver.
    But, still, you would have to ask the question. You have a 
Cobalt and a Hyundai meeting head on. Why did the Cobalt's air 
bags not deploy?
    It was the exact same force for both vehicles. There was no 
intercedent jarring of the vehicle. They didn't run off the 
curb. They didn't run over another tree first. So the air bag 
did not deploy.
    Why would that have been the case in that particular 
accident?
    Ms. Barra. Again, it is a tragic situation anytime there is 
a loss of life in a traffic situation. Again, this is not an 
investigation that was done by GM. I can't answer your 
questions because it is usually very complex as they look at 
that. So I can't comment on this particular study.
    Mr. Burgess. If that is part of your internal 
investigation, though, I would like for you to make that 
information available to the committee staff and to the 
committee.
    Ms. Barra. We will make whatever information we have 
available.
    Mr. Burgess. Thank you. And thanks for being here.
    Mr. Murphy. The gentleman's time is expired.
    I will now recognize Ms. Schakowsky for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Mr. Braley talked about the pictures in the back, and I 
think that what must make it even more painful is that these 
deaths were needless.
    So I want to ask you about something a little bit more than 
an apology. One of the many questions raised about GM is how 
you will handle accidents that happened prior to the company's 
bankruptcy.
    GM filed for bankruptcy in June 2009, emerging as new GM 
about 6 weeks later. So that means that new GM, the company as 
it exists today, I have been told, may not be liable for 
accidents that occurred prior to July 2009.
    Is that your understanding, Ms. Barra?
    Ms. Barra. We at General Motors want to do the right thing 
for our customers, and that is why we feel this is an 
extraordinary situation, as I have said.
    It took too long to get to the answers and the 
understandings about this part. That is why we have hired Mr. 
Feinberg.
    We feel Mr. Feinberg has had extensive experience and he 
will bring his experience and objectivity to assess what are 
the appropriate next steps, because we do understand that we 
have civic responsibilities as well as legal responsibilities.
    Ms. Schakowsky. Are you saying that the hiring of Mr. 
Feinberg indicates that GM will give some kind of settlement to 
the families whose loved ones lost their lives?
    Ms. Barra. We have just begun to work with Mr. Feinberg. In 
fact, our first meeting will be on Friday. It will take 
probably 30 to 60 days to evaluate the situation. So we have 
not made any decisions. We have just started this process with 
Mr. Feinberg.
    Ms. Schakowsky. And that might include people who have been 
injured as well?
    Ms. Barra. Again, we have not made any decisions.
    Ms. Schakowsky. Let me ask you this: During GM's 
restructuring, did the company disclose what it knew about this 
ignition switch defect? By 2009, there is no doubt that 
officials in GM were aware of this problem.
    Ms. Barra. I was not aware of this issue. I can't speak to 
what was disclosed. So, again, our investigation will cover if 
there was any information. But, to my knowledge, it was not 
known at the senior leadership of the company.
    Ms. Schakowsky. So does GM accept responsibility for the 
accidents caused by the company's defective vehicles?
    Ms. Barra. First of all, I again want to reiterate we think 
the situation is tragic and we apologize for what has happened 
and we are doing a full investigation to understand----
    Ms. Schakowsky. I am talking about responsibility and even 
liability.
    Ms. Barra. Responsibility--I am sorry. I don't understand 
your question.
    Ms. Schakowsky. And even liability.
    Do you take responsibility? Is the company responsible? The 
new GM, is it responsible?
    Ms. Barra. We will make the best decisions for our 
customers, recognizing that we have legal obligations and 
responsibilities as well as moral obligations. We are committed 
to our customers, and we are going to work very hard to do the 
right thing for our customers.
    Ms. Schakowsky. I hope that you do do the right thing.
    Let me ask you about some of the people who potentially 
knew about this.
    So you have appointed for the first time a president of 
Global Vehicle Safety. I have to tell you I am underwhelmed by 
that, thinking that it is such an obvious thing to have someone 
high up that would, in fact, be able to connect the departments 
so everybody knew. I guess it is a good thing, however, that it 
is finally done.
    So we know that Ray DeGiorgio was the GM engineer who 
approved the ignition switch redesign in 2006. Is he still an 
employee of your company?
    Ms. Barra. I believe he is.
    Ms. Schakowsky. Do you know who signed off on the initial 
faulty ignition switch that did not meet your specifications?
    Ms. Barra. I don't. But that is what I will learn with the 
investigation. And after we have a complete investigation from 
a very complex process, we will take action.
    We will change process, and we will deal with any people 
issues. I think we demonstrated in the issues we learned in 
India with the Tavera about a year ago, we will take serious 
steps and hold people accountable.
    Ms. Schakowsky. So no one right now has lost their job as a 
result of this knowledge about this defective part?
    Ms. Barra. We are just a few weeks into the investigation 
by Mr. Valukus. We have already made process changes.
    And as I return to the office after this, we will begin to 
look at the implications, now that we have more data coming 
from the investigation, and take the appropriate steps.
    Ms. Schakowsky. Thank you.
    I yield back.
    Mr. Murphy. Gentlelady yields back.
    Now recognize the gentleman from Georgia, Dr. Gingrey, for 
5 minutes.
    Mr. Gingrey. Mr. Chairman, thank you very much.
    This hearing is much appreciated, pretty poignant to me, 
since Brooke Melton lived in my congressional district at the 
time.
    And had it not been for an outstanding plaintiff's attorney 
in the Cobb Judicial District of Georgia in bringing this 
case--I am sure it was against a local dealership--resulted in 
a settlement, but it brought to light what is going on now and 
the purpose. And, hopefully, some good can come from this 
hearing.
    And I want to thank Chairman Murphy for holding it and 
investigating the root cause of the General Motors recall of 
over 2.6 million vehicles linked to these ignition defects. 
Unfortunately, Ms. Barra, I heard just yesterday that the 
recall now includes 6.3 million vehicles.
    And I do want to speak a little about this young lady named 
Brooke Melton, a nurse in Paulding County, Georgia, which, at 
the time, was in the district I represent.
    And she was, as you know, tragically killed March the 10th, 
2010, on her 29th birthday in a horrific side-impact accident 
on Highway 92, and the ignition switch in the accessory 
position.
    Just the day before, just the day before, her death, she 
took her 2005 Chevy Cobalt into the dealership for service, and 
the service report stated, ``Customer states engine shut off 
while driving. Please check.''
    Despite the fact that a service bulletin was issued from 
General Motors for faulty ignition switches back in 2005 for 
that make and that model, the on-site mechanic cleaned the fuel 
line, cleaned the fuel injection, told her to come pick up her 
car, which she did.
    Brooke Melton's tragic death is not acknowledged as part of 
this recall because it involved a side impact instead of a 
front impact. Ms. Melton's parents, Ken and Beth--they are not 
here today, I don't think, but they deserve answers.
    Ms. Barra, is Brooke Melton included in General Motors' 
death count? Yes or no?
    Ms. Barra. To my knowledge, no.
    Mr. Gingrey. No?
    Ms. Barra. Because it was a side impact and we----
    Mr. Gingrey. Right.
    Why did General Motors not include the non-deployment of 
air bags from side-impact accidents resulting in loss of life 
or injury in this recall?
    Ms. Barra. As you look at a frontal collision and the way 
the air bag is to operate, I believe the assessment was made 
that would potentially be related to the switch.
    Mr. Gingrey. Yes. But, Ms. Barra, if you connect the dots--
I mean, the ignition gets knocked over to the accessory 
position. There was a problem using faulty, even by your own 
standards, equipment.
    And so maybe what happened was that all of a sudden the car 
stalls. She is driving perfectly, trying to control without any 
power steering, without any power brakes, and may very well 
have--and I don't know the details of that accident--but may 
very well have run through a four-way or a red light and was 
slammed into from the side.
    Whether it was a head-on collision or a side collision, it 
was for the same reason, and she is dead. And that was almost 4 
years ago.
    I don't understand why General Motors does not include the 
non-deployment of air bags from side-impact accidents resulting 
in loss of life or injury in this recall. Can you explain that 
to us.
    Ms. Barra. Well, first of all, all of the accidents and 
fatalities are very tragic, as you have indicated, and we are 
deeply sorry for those.
    We have been very clear of the number that we put forward. 
There has been a lot of analysis that has gone on to look at 
potential incidents and----
    Mr. Gingrey. Well, did General Motors investigate or do you 
plan to investigate whether this condition relates to the non-
deployment of air bags in side-impact crashes?
    Ms. Barra. We have individuals that are looking at the 
available information from accidents----
    Mr. Dingell. You told us about your recent hire, and I 
hope--well, lastly, Ms. Barra, to what extent did GM regularly 
inform dealerships, like the dealership, obviously, in Cobb 
County, of its 2005 technical service bulletin on faulty 
ignition switches so that these service technicians, these 
young guys, maybe working there 6 months to a year, that they 
could properly address a customer complaint like Brooke had the 
day before her death?
    Ms. Barra. I am sorry. Was your question how do we 
communicate service bulletins?
    Mr. Gingrey. How do you make sure that these dealerships 
all across the country and their service departments are making 
sure that their technicians are getting and receiving the 
instruction?
    Ms. Barra. We can provide details on exactly how we 
communicate service bulletins and how that is rolled out to 
each of our dealerships across the country.
    Mr. Gingrey. I hope you will. Thank you, Ms. Barra.
    And, Mr. Chairman, I yield back.
    Mr. Murphy. Ms. Barra, related to his questions, with all 
these cars in recall and waiting for parts, what are drivers 
supposed to do in the meantime while their cars sit in the 
driveway?
    Ms. Barra. We have communicated and we have done extensive 
testing that, if you have just the ignition key with the ring 
or just the ignition key, the vehicle is safe to drive.
    If people are not comfortable with that, we are making 
loaners or rentals available. They can go to their dealer. We 
have over 13,000 customers that have these vehicles in rentals 
or loaners right now.
    Mr. Murphy. And you are assuring people that it is safe to 
drive if they just take the other things off the key?
    Ms. Barra. There has been extensive testing done by the 
engineering team. And with just the key and the ring or just 
the key, we believe it is safe based on our testing.
    Mr. Murphy. Recognize Mr.----
    Ms. DeGette. Excuse me, Mr. Chairman.
    Is that true of the earlier ignitions as well as the 2006, 
all of them? All these cars, that's true?
    Ms. Barra. Yes.
    Ms. DeGette. Thank you.
    Mr. Murphy. Mr. Tonko, you are recognized for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Ms. Barra, thank you for appearing before the committee.
    And I have to believe, for the family members and friends 
of the victims of this tragic outcome, it must be a very 
painful process to sit here and listen to the exchange.
    Just a comment at first. We are hearing a lot about 
information that will come post the investigation or the 
review.
    However, I hold in my hands a February report and a March 
report to NHTSA on behalf of GM under your watch that provides 
detailed timelines with a whole bit of knowledge exchanged.
    And I am confused somewhat about that fair amount of 
knowledge that has been formally exchanged to NHTSA and, at the 
same time, we are hearing, ``Well, we don't know until the 
investigation is complete.''
    So there is a conflict that I think is brought to bear here 
in terms of an exchange that has been detailed in the last few 
weeks under the watch of the new General Motors, today's GM.
    And at the same time, when I was listening to our 
representative from Illinois ask about the corporate chart and 
the changes, no changes have been made. We are waiting for that 
pending the investigation. But at the same time, we have 
characterized--or relabeled it as today's General Motors.
    So while we are all products of the environment that 
produces us, the cultural impact of GM seems to still be in 
play with a number of people who have perhaps shifted 
positions, but are all part of that organization.
    So comfort me by telling me that there is a new thinking, 
there is a new culture, that has beset GM while all the players 
are there in the corporate chart. Tell me how the company has 
restructured and reorganized so as to bring comfort to the 
consumer.
    Ms. Barra. First, there are many new people in the company 
as well as people who have experience across the company. There 
is a new structure. For instance, in Global Product 
Development, we have streamlined, eliminated bureaucracy.
    We took out an entire layer of management in the product 
development. We have completely redone the quality processes 
over the last--it started in the 2011-2012 time frame.
    We have changed our test procedure. We have added 
additional validation. So there has been a complete remake of 
the way we drive quality. We test to failure instead of testing 
to a standard. That is just one example.
    And we have looked across the entire organization. We have 
rebuilt our supplier quality organization, adding over 100 
resources just in this country alone.
    So systematically we have gone across the company and we 
are making changes, even in the chronologies which I think you 
held up.
    Those are the most detailed chronologies that we have ever 
provided, sharing, again, in a summary fashion, the information 
we have now, but then we are conducting an investigation with 
Mr. Valukus.
    We have also rolled out new values with the customer as our 
compass, relationships matter and individual excellence. We 
have trained thousands of people.
    But, most importantly, it is leadership at the top. It is 
the leadership of how we behave, of how we demonstrate when we 
make decisions, and that we make decisions that focus on the 
customer, focus on safety, focus on quality. And I can tell 
you, from my leadership team and the next layer, we continue to 
drive that every day.
    We recognize culture change doesn't happen in a year or 
two, but we are well on that journey, and we are dedicated to 
it and we very clearly want to have the safest vehicles on the 
road.
    Mr. Tonko. And will you make that list public from the 
report that you are anticipating?
    Ms. Barra. I am sorry?
    Mr. Tonko. Will you make the list that will be coming forth 
public? Will you share it?
    Ms. Barra. That's the list of? I am sorry.
    Mr. Tonko. The full report coming from Mr. Valukus.
    Ms. Barra. Mr. Valukus will give us findings and we will 
make the appropriate findings available to this body, to our 
customers, and to our employees.
    Mr. Tonko. The appropriate findings.
    What about the full report?
    Ms. Barra. I don't know if he will give a report or if he 
will share findings.
    Mr. Tonko. If he does, will you share the full report?
    Ms. Barra. We will share the appropriate information.
    Mr. Tonko. Not the full report?
    Ms. Barra. Again, I don't know if there will be a full 
report. But we will share----
    Mr. Tonko. If there will be a full report, will you share 
it?
    Ms. Barra. I commit that we will be very transparent and we 
will share what's appropriate.
    Mr. Tonko. So, in other words, there is no commitment to 
share the full report?
    Ms. Barra. I am saying I will share what is appropriate.
    Mr. Tonko. I hear the answer.
    Mr. Chair, I yield back.
    Mr. Murphy. Gentleman yields back.
    Recognize the gentleman from Louisiana, Mr. Scalise, for 5 
minutes.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate you 
having this hearing.
    Ms. Barra, I thank you for being here.
    Let me say first my prayers are with all the families of 
those who lost their lives and others who have been impacted by 
this. I want to thank you all for being here in this room as 
well.
    Obviously, the questions we have are even more pertinent to 
the families that are here, and that is why it is important 
that we ask the questions and get answers.
    And if we are going to make sure that we can prevent 
something like this from happening again, we have got to get 
into the real details of what went on during that period of 
years, unfortunately, years, where it seemed somewhere inside 
of General Motors there was knowledge that this was a problem 
before it got to the level of recall.
    I want to first take you, Ms. Barra, to the tab you have 
got there, Number 38. Tab 38 is the signoff. This is what is 
called a General Motors commodity validation signoff. This is 
the actual sheet that the engineer signed off on that approved 
the design change in the faulty ignition switch.
    Have you seen that document before?
    Ms. Barra. This is the first time I have seen this document 
that is labeled ``Delphi.''
    Mr. Scalise. Now, what we are talking about here--how long 
have you been aware of the problem with these faulty ignition 
switches?
    Ms. Barra. I was aware that there was a faulty ignition 
switch on January 31.
    Mr. Scalise. Of this year?
    Ms. Barra. Of this year.
    Mr. Scalise. OK. So as you are going through--I'm sure some 
of the questions you have and are asking and maybe some of the 
ones we are having--the first question you would want to ask 
is: What did we know about it? When did we know? Did we know 
well in advance? And why didn't we prevent it from happening?
    The first thing we all are talking about is when was this 
found out within GM to the point where they actually made a 
change. I mean, you all made a design change.
    The letter I have got here, this form, is dated April 25 of 
2006. So 2006 is when your engineers--and there is a name on 
this sheet. There is an actual engineer who you just said under 
oath earlier is still employed with GM.
    There is an engineer that actually signed this document 
requesting--not requesting--approving a change in this ignition 
switch, in fact, with the part number. The part number is on 
here.
    To your knowledge, has anyone in GM taken this--he is an 
employee of yours. You can just pull him aside right now and 
ask him, ``When you signed off on this in 2006, number one, why 
didn't you change the part number? And, number two, why did you 
approve a change in the ignition switch and not bring it to the 
level of recall?''
    In 2006--clearly people lost their lives after this was 
signed off on. So do you know right now--and you are under 
oath--do you know of anyone that has asked the person that 
signed this--that signed off on this--have any of you all asked 
him those basic questions?
    Ms. Barra. I know this is part of the Anton Valukus 
investigation. And I want to know the answers to the questions 
you are asking as well as you.
    Mr. Scalise. Do you know of anyone that's asked him that 
question? I mean, he's an employee of yours right now. You can 
pull him aside right when you leave here today and ask him 
these questions.
    Ms. Barra. I think it is very important as we do an 
independent investigation that we let Mr. Valukus go do a 
thorough investigation, talk to people, that there are not a 
lot of side investigations going on. He is the one standard 
that we are going to use in this investigation. He brings the 
objectivity to it.
    Mr. Scalise. Clearly, there--I mean, you talk about a new 
culture.
    Has anyone been held accountable as of now for what's 
happened?
    Ms. Barra. Again, we learned of this on January 31.
    Mr. Scalise. Well, again, you have a design change in 2006 
related to what we are talking about. This is not a 2014 issue.
    The recall was issued in 2014, but the product, the faulty 
ignition switch we are talking about, was redesigned in 2006 by 
one of your engineers who's still an employee of General 
Motors.
    If you can't get me that information--and if you do find 
that information out, by the way, would you get that to the 
committee?
    Ms. Barra. It will be part of the investigation and we will 
share that.
    Mr. Scalise. The other question I want to ask you--because 
later on we are going to have the acting administrator of the 
National Highway Traffic Safety Administration.
    Some of the things he says in his testimony--before you 
leave, I would like to get at least some responses. He says, 
number one, ``We are pursuing an investigation of whether GM 
met its timeliness responsibilities to report and address this 
defect under Federal law.''
    Are you aware of whether or not GM has met its obligations 
of timeliness?
    Ms. Barra. That will be part of the investigation that we 
are doing.
    Mr. Scalise. But you are not aware at this time, though. I 
mean, if you are aware of something, that would be a violation 
of Federal law.
    If you are aware of that already, can you share that with 
us?
    Ms. Barra. I am aware of the findings that I have already 
shared from Mr. Valukus today.
    Mr. Scalise. And another question he asks--in the brief 
time I have left, he says, ``GM had critical information that 
would have helped identify this defect.''
    That's the gentleman that's testifying right after you. You 
don't have the opportunity to come behind him and respond. He 
is going to be saying this. He is writing this in his 
testimony.
    What would you say in response to his statement that GM had 
critical information that would have helped identify this 
defect?
    Ms. Barra. As I have already said, we have already learned 
through Mr. Valukus's investigation that there were points in 
time where one part of the organization had information that 
wasn't shared across to the other side of the organization. You 
can call it a silo.
    At some point, they didn't understand that the information 
would be valuable to another party. So I have already shared 
that we have found that to be true and we have already made 
changes to the structure and to the responsibilities of people. 
So that won't happen again.
    Mr. Scalise. We appreciate getting the full range of 
answers to all these questions.
    And, with that, I yield back the balance of my time. Thank 
you, Mr. Chairman.
    Mr. Murphy. Time is expired.
    I now recognize Mr. Green for 5 minutes, of Texas.
    Mr. Green. Thank you, Mr. Chairman.
    Ms. Barra, first of all, congratulations on being the CEO 
of General Motors. Like a lot of my constituents, I have been a 
customer of GM. In fact, I can't list the number of vehicles I 
think I have owned. Although my wife drives a Tahoe, I lease a 
Malibu. I have a Blazer. And, you know, we keep them for a long 
time. So I appreciate GM products.
    And you have heard the questioning today, and it seems like 
on a bipartisan basis we are trying to find out what is 
happening, although--Mr. Chairman, I know you heard it--I was 
surprised because Dr. Gingrey is a good friend of mine and a 
physician and, to say he thanked a plaintiff's lawyer for 
something, you have at least gotten Republicans and Democrats 
on the same side on something. Phil's not here now, but there 
is a reason we have a civil bar.
    You have gone down the litany with the other questions of 
the problems that were happening. In 2002, the switch was 
acknowledged it was below specs. In 2005, the dealers were 
notified of a problem, but it was because of heavier key rings.
    And I thought about my wife's key ring that she uses. It 
has everything in the world on that key ring. So I couldn't 
imagine that would be an issue.
    But, I guess, getting down to the concern I have--and in 
2007 you modified the switch ignition for future models, but--
though the switch ignition still fell below the initial torque 
standards by GM.
    Let me give you an example of what this has caused. I have 
a constituent who I talked to yesterday before I left Houston 
whose mother, Lois, owns a 2003 Regal, which is 10 years old. 
And she has owned GM products, like I guess I have, for many 
years.
    But the Regal began stalling and turning off in February of 
2013 and even the car had less than 50,000 miles. Since she's 
owned the car, it's gone to the GM dealer six times.
    The battery has been replaced, and each time the dealer did 
not fix the problem. She ended up finding--and I quote Mrs. 
Knutson who told it to me--she finally found a shade tree 
mechanic who actually fixed it.
    And I guess what bothers me, if you go back to the dealer 
this many times--and I hold the dealers' repair shops to a 
higher level simply because they know the product--that what 
has happened--can you confidently say that these stalling 
issues are limited only to the Cobalt, the HHR, the Pontiac G5, 
the Solstice and Saturn Ion, and the Sky models of vehicles or 
is it other ones like the Regal or maybe like the Malibu I 
drive?
    Ms. Barra. Again, I am not aware of any other stalling 
issues. If we have an issue, we put it into our recall process 
and make decisions. So if there is a defect that you are aware 
of, I would appreciate the information, and I will definitely 
look into it.
    Mr. Green. Well, we will get you that information.
    I have a couple minutes left. But I represent a very 
industrial area. We have refineries and chemical plants. What 
we do is inherently dangerous. And so you have to take extra 
concern about it.
    It looks like in the last 10 years GM has not--somewhere 
along that line, the culture of the company is not there to 
deal with that. And, as the new CEO, I would hope you would 
make sure it happens.
    And I have said this many times. When I have a chemical 
plant or a refinery that has an accident and somebody dies 
and--we have been able to pinpoint sometimes with civil 
justice, but sometimes through Chemical Safety Board, on what 
decision was made that they didn't do that caused people to 
die.
    That is what happened here. And General Motors is a much 
greater company than to do that, and I would hope the culture 
of your corporation would be better so it would continue to 
earn the respect that both this lady and I have.
    But that is your job now as CEO, but you need to fix it and 
fix it as quick as you can because it is going to cause 
problems, obviously.
    Ms. Barra. I agree with you. It is completely my 
responsibility, and I will work day and night. We have already 
made tremendous change at General Motors. We will continue to 
do that, and I recognize it is my responsibility.
    Mr. Green. The last thing in my 30 seconds is: Should my 
constituent--should she have her mother in Phoenix take that 
Regal back and have it checked by a dealer now and see what 
happened?
    Ms. Barra. Yes. And I wish you would send a note to me, and 
I will----
    Mr. Green. I will get you that information.
    Ms. Barra. Thank you.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Murphy. I now recognize Mr. Griffith for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    Ms. Barra, you have indicated that not having a new part 
number when the part was changed in 2006 is not acceptable. Is 
that correct?
    Ms. Barra. That is correct. Yes.
    Mr. Griffith. And I guess it is hard to figure that 
somebody would have just done that by accident and that there 
had to be a reason.
    Because that was a breach of protocol, wasn't it?
    Ms. Barra. I don't think there is an acceptable reason to 
do that.
    Mr. Griffith. OK. And while there may not be an acceptable 
reason, you would have to acknowledge that a reason in 
somebody's mind, while not acceptable, might be that it is 
actually harder to track the problem with the old part when you 
have an improved new part that is put in its place. Isn't that 
correct? Yes or no?
    Ms. Barra. Yes.
    Mr. Griffith. And while you have indicated that you did not 
know the individual name of the person who made that decision, 
do you know whose job title it was or in whose chain of command 
it was to make the decision not to create a new part number for 
that part?
    Ms. Barra. I don't. It would be within the engineering 
organization, but I will learn that from the investigation and 
we will take appropriate action.
    Mr. Griffith. And would that engineering department have 
been under your chain of command at some point in your tenure 
with GM?
    Ms. Barra. Since February of 2011.
    Mr. Griffith. But it never got to you? Nobody ever brought 
this to your attention?
    Ms. Barra. No, it did not.
    Mr. Griffith. I appreciate that.
    I do have this question, and I think that the answer 
probably is that your investigation will reveal this.
    But it is somewhat concerning that, while the trial lawyer 
that uncovered this may be very savvy and his expert might be 
pretty sharp, you all have sharp people working at GM as well; 
do you not?
    Ms. Barra. I believe we do.
    Mr. Griffith. It is one of those questions that I am sure 
your investigation will uncover. But why didn't your team of 
engineers connect the dots and figure out that, when the 
ignition slips into that auxiliary position, the air bags won't 
function properly?
    Ms. Barra. Congressman, those are the questions I want to 
answer and, as I have said, it has taken way too long. And we 
will learn from this and we will make changes and we will hold 
people accountable.
    Mr. Griffith. And not only holding people accountable, but 
you were asked earlier--and I know you are in a tough spot on 
that--as to what kind of liability GM will end up accepting 
because there is legal liability and moral liability. And you 
have said that.
    One of the questions that I would have--it would have been 
a whole lot easier just to have actually listed these 
liabilities in the bankruptcy; would it not? It would have been 
easier to do it in the bankruptcy instead of having to come out 
now, wouldn't it?
    Ms. Barra. The best thing in the world would be, as soon as 
we find a problem, we fix it and it doesn't exist in the 
marketplace and doesn't affect our customers and doesn't create 
tragedies.
    Mr. Griffith. And here is one of the things that concerns 
me. Have you been given any estimates yet by Mr. Feinberg or 
others as to what a best-case or worst-case scenario is on your 
civil liabilities?
    Ms. Barra. We have just been in initial conversations with 
Mr. Feinberg. I believe we will work through him to evaluate 
the situation over the next 30 to 60 days.
    Mr. Griffith. Has anybody else given you a best-case or 
worst-case scenario over liability issues related to this 
problem?
    Ms. Barra. There has been a lot of estimates done in the 
public, but none given specifically to me.
    Mr. Griffith. OK. Would those liability issues have 
negatively impacted the prospects of either a bailout by the 
Federal government, or prior to the bailout, the people who 
were lending you money to keep GM afloat with its heavy 
liabilities already existing, would not the additional 
liabilities that would have come forward by this problem have 
had the potential to dissuade private investors or the Federal 
government from giving cash to GM?
    Ms. Barra. As I look at it, as soon as we identify an issue 
and fix it, then there aren't liabilities or the liabilities 
are contained. As we look at problems as we go forward, we want 
to fix them as soon as we can. If there is a safety issue, we 
are going to make the change, make the right investment, and 
accept that.
    Mr. Griffith. But in the real world of business, if there 
is a new set of liabilities that come onto the page that 
weren't there before, it is harder to get money from both 
public and private sources; isn't that true?
    Ms. Barra. I think it depends on the situation. So it is a 
general question. I don't feel appropriate commenting.
    Mr. Griffith. I appreciate that.
    Let me ask this last question. When this issue first came 
up, the corresponding Problem Resolution Tracking System report 
document identified the issue of severity 3. What does that 
mean?
    Ms. Barra. I am sorry, I didn't hear you.
    Mr. Griffith. Severity 3. I am referencing back to some of 
the documents that you have given and your folks have given us. 
And it is initial assessment in 2004, 2005 when your Problem 
Resolution Tracking System report came out, it related this 
problem as being severity 3. What does that mean?
    Ms. Barra. I don't have a specific definition for that. I--
--
    Mr. Griffith. Can you get one for us?
    Ms. Barra. I can.
    Mr. Griffith. I appreciate that.
    And I yield back.
    Mr. Murphy. Can I ask a clarifying question to what Mr. 
Griffith was saying.
    Did GM purposely, willfully negotiate, during the 
bankruptcy issues or in the process of obtaining the loans, did 
they purposely withhold any information that they may have 
known about pending lawsuits or things that would be emerging 
in the future about the Cobalt or other cars?
    Ms. Barra. I am not aware. I personally did not withhold 
any information. I am not aware, but I can't speak to every 
single person.
    Mr. Murphy. Thank you.
    Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you.
    I have to congratulate General Motors for doing the 
impossible: You have got Republicans and Democrats working 
together. And I thank my colleagues for their focus on this 
hearing.
    Couple of things. How many cars have been recalled as of 
this date?
    Ms. Barra. Related to the ignition switch?
    Mr. Welch. Right.
    Ms. Barra. Over 2.5 million.
    Mr. Welch. Now, this ignition switch issue, it came to 
light in 2006; is that correct?
    Ms. Barra. Through our investigation, we will know when it 
came to light. It came to light to me on January 31st, 2014.
    Mr. Welch. That is totally irrelevant to the people who 
lost their lives.
    Ms. Barra. I understand.
    Mr. Welch. I mean, you are the current CEO, but that is not 
relevant to the question I asked.
    Ms. Barra. I'm sorry, I thought you asked when I became 
aware of it.
    Mr. Welch. No. GM.
    Ms. Barra. Again, that is what we will learn in our 
investigation.
    Mr. Welch. Well, you changed the switch after 2006. You 
began in 2007 changing the switch; right?
    Ms. Barra. Yes, there were changes made.
    Mr. Welch. So would it be a logical inference that somebody 
thought there was a reason to change the switch that had been 
in use in 2006 to 2007?
    Ms. Barra. As we do our internal investigation, I hope to 
get those answers.
    Mr. Welch. Wouldn't that be a starting point? Somebody for 
some reason decided to change the very critical part in the 
car, between 2006, 2007; correct?
    Ms. Barra. Correct.
    Mr. Welch. So let me ask you this: If you had recalled cars 
and acted on this aggressively in 2006, when you were making 
the decision that you had to change this--GM, not you.
    Ms. Barra. I am sorry.
    Mr. Welch. GM changed the switch, how many cars would you 
have had to recall had you acted in 2007 when you made the 
decision to change the switch?
    Ms. Barra. I can get you the exact number. But it would 
have been significantly less. I don't know.
    Mr. Welch. Give me an estimate. You can talk to your back 
row there if you want.
    Ms. Barra. Again, I will confirm with an answer, but I 
would assume it is something around more 1.2 million.
    Mr. Welch. Just from 2000--so you would have cut it down at 
least in half, and maybe more----
    Ms. Barra. Because, again, we are starting with vehicles 
that the Saturn Ion was in production in 2003.
    Mr. Welch. Let me just get a business-type question here. 
What do you estimate would have been the cost to GM of this 
recall had they done it in 2007?
    Ms. Barra. When we looked at the population from 2003 to 
2007, actually, if I look at all of the vehicles that had this, 
it would have been a higher number, I believe it was 1.8. And 
that would have probably--the estimated costs for those two 
pieces is something less than a hundred million.
    Mr. Welch. OK. And what do you estimate will be the cost of 
the recall now that it is being done 8 years later?
    Ms. Barra. Well, there is a larger population. We can 
provide the information.
    Mr. Welch. I want an estimate. I want people to be able to 
hear this. A decision delayed is money and lives at risk. So I 
am trying to get an opinion from you, and it is ballpark so it 
can be adjusted, as to what the costs would have been had you 
acted 8 years ago versus acting now. You, GM.
    Ms. Barra. Well, if we would have acted at that point we 
would have had a smaller population, as we talked about.
    Mr. Welch. I know that. That is obvious.
    Ms. Barra. I am sorry, I am not trying to be difficult. I 
don't understand your question.
    Mr. Welch. You know what? If I were on the board of 
directors and I had an obligation to shareholders, and I had a 
company that could have acted 8 years ago, to deal with a 
problem but by not acting let that problem increase in 
magnitude, do more damage to shareholders, do more damage to 
the bottom line, do enormous damage to the reputation of this 
company, and cause we don't know how much harm to citizens, I 
would want an answer to the question.
    Ms. Barra. I agree. It would have been substantially less 
at that time frame had we done it than what it will be now.
    Mr. Welch. GM was involved in litigation concerning 
allegations that this switch was defective and caused problems; 
correct?
    Ms. Barra. Yes.
    Mr. Welch. And GM settled some of these litigation matters; 
correct?
    Ms. Barra. Correct.
    Mr. Welch. After very aggressive defense. Those settlements 
were secret?
    Ms. Barra. They are confidential by both parties.
    Mr. Welch. By both parties--some of us have been in court. 
By ``both parties'' usually means by the request of the party 
that is paying the damages.
    Ms. Barra. I wasn't involved in those settlements. All I 
know is confidential was by both parties.
    Mr. Welch. OK. This is not good. You are the company right 
now. All right?
    Ms. Barra. I am.
    Mr. Welch. Let me ask this question. Do you believe that 
when a company that has been sued about a matter involving 
product safety, where a person has been seriously injured or 
has died, that the company that settles as a matter of policy, 
should be entitled to keep secret what that settlement was 
about?
    Ms. Barra. I am not--I think that there are issues 
associated with that that every settlement is unique and it is 
a decision that is agreed to by both parties. And I don't have 
any comment beyond that. Each one is unique.
    Mr. Welch. Let me ask you this: If a company, GM or any 
other company, settles litigation and pays a substantial amount 
of money pertaining to an allegation about serious bodily 
injury or death, should that company be permitted to keep 
secret that settlement from the governmental agency whose 
responsibility it is to protect the public safety?
    Ms. Barra. If that is information required by that 
government agency, then we would provide it if the two parties 
involved in the settlement agree to it, that is their 
agreement.
    Mr. Welch. So if you don't have to do it, you won't do it?
    Ms. Barra. If both parties want that. I am making the 
assumption that both parties agreed to it, which what is I have 
been told.
    Mr. Welch. I yield back.
    Thank you.
    Mr. Murphy. Gentleman's time has expired.
    Now recognize the gentleman from Missouri for 5 minutes, 
Mr. Long.
    Mr. Long. Thank you, Mr. Chairman.
    And thank you for being here, Ms. Barra.
    And I want to thank the families that are here today for 
keeping safety in the forefront of America's and Congress's 
consciousness when it comes to automobile safety. And we have 
heard about the same subcommittee in the past, dealing with the 
issue before I came to Congress, the Ford Explorer/ Firestone 
tire situation. We have heard about the Toyota accelerating car 
issue. And, like I say, I wasn't here, but I can imagine that 
the questions were similar: Who knew what when? Who was 
responsible? Did you know this person? Have you done anything 
about it?
    I want to take a little different tack with my line of 
questioning, as I normally do. And that is that, people ask me 
all the time, Do you think you make a difference? When you go 
to Congress, you are up here a few years, do you think you are 
making a difference? And that is hard to quantify, to explain 
to somebody whether you are making a difference or not. But 
today this is a day I want to look back on and say, you know, I 
think I made a difference. I think that we got some answers to 
questions in the future to prevent--I don't want to be here 
again and I don't want to have them say Ford Explorer/Firestone 
tire, Toyota accelerating, and you remember the GM faulty 
ignition switch. So that is what I would like to say, yes, we 
made a difference.
    And with that, like I say, I thank the families for being 
here and keeping it in the forefront of safety so there is not 
other people sitting in those same seats next time we approach 
an issue like this. Because hopefully there won't be a next 
time. And the finger pointing, the old analogy, when you are 
pointing your finger, you got three fingers pointing at 
yourself. There is going to be a lot of finger pointing in 
this.
    But I would really like to drill down on and get answers to 
is how the NHTSA, or whatever they are calling it, the National 
Transportation--National Highway Transportation--or excuse me, 
National Highway Traffic Safety Administration and you all, as 
an automobile manufacturer, if you can work to see that this 
doesn't happen again so that the two organizations can work 
together and drill down on these problems when we first learn 
them, whatever the next problem may be, that would be my goal 
for here today.
    In answer to one of Chairman Upton's, the Chairman of full 
committee's questions awhile ago, and I don't even know what he 
was asking about exactly. But you said ``I was not part of that 
organization at the time.''
    I am sure that was something within General Motors. Because 
you, like I, have a history that goes back I think to when you 
were 18 years old with General Motors. So you were there at the 
time as far as the overall organization but not whatever part 
he asked your father, I believe, worked 39 years for Pontiac. 
So you indeed go way back.
    I go back to 18 years old with General Motors too. When I 
was 18, my folks bought me a 1973 GM Jimmy. If you think of a 
big Suburban today, cut off two doors, and that was a Jimmy, or 
a Blazer; Chevrolet called theirs a Blazer. I was in the real 
estate and auction business for years, from 1973 to about 2005, 
I drove nothing but General Motors Suburbans. I remember times 
when the key would be in there and you would go to put your key 
in and it wouldn't work. Why wouldn't it work? Because I had a 
big key chain a big key ring. And it would vibrate. And it 
would tear the teeth off the keys to where the key no longer 
functioned.
    But never once did I have that shut off, never once did I 
have that fail to act or shut off in the middle of driving. So, 
to me, from 1973 to 2005, with my experience, they made pretty 
good ignition switches.
    Can you tell me how many models GM makes today?
    Ms. Barra. Oh, around the globe, over a hundred.
    Mr. Long. Hundred different models. Can you tell me how 
many ignition switches they make?
    Ms. Barra. Well, we sell over 8 million vehicles.
    Mr. Long. No, I mean how many per--if you have a hundred 
models, how many different ignition switches would there be?
    Ms. Barra. I can't answer that question. I don't know.
    Mr. Long. To me, GM has proven in the past, and other 
companies have, that you can--I just don't understand this 
reinventing the wheel, that every car has to have a different 
ignition switch with a different set of circumstances made by 
somebody down in Mexico to make sure that it meets the 
qualifications.
    So I would recommend two things: That you work hard with 
us. Our next witness from the National Highway Traffic Safety 
Administration says that a car, when it shuts off that the 
airbag will still deploy for 60 seconds. I can't imagine being 
in a cash that a car shut off and you continue for more and 60 
seconds. So that is a question that I am going to have for him.
    But I would ask that you reach out and work not only with 
your engineers, saying, hey, we have got some pretty good--why 
do we reinvent the wheel every time we go to invent a new 
ignition switch for all these different models? And also hope 
that you will reach out and work with the National Highway 
Traffic Safety Administration so.
    Ms. Barra. I would welcome the opportunity to have our 
technical experts look at how we can improve the way the system 
works. Because airbag deployment is part of the system, and I 
would welcome the opportunity if there are improvements that 
can be made, we would want to be in the forefront of making 
them.
    Mr. Long. In communication with NHTSA.
    Ms. Barra. And work closely with NHTSA----
    Mr. Long. I appreciate it. I thank the families.
    Mr. Chairman, I yield back.
    Mr. Murphy. Now recognize Mr. Yarmuth for 5 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I, at the outset, want to express my condolences to the 
family of the victims of this tragedy. And I know it must be 
frustrating to you to listen to this testimony. And you are 
looking for answers and so are we and so is GM right now. And I 
hope we do get answers because I was frustrated by the same 
questions that my colleague had just mentioned. I have been 
driving a long time, and this is a pretty well established 
technology, sticking a key into an ignition and turning it. Are 
you aware of any other ignition problems that have been 
discovered or--in GM or any other vehicle over the history of 
key ignition systems?
    Ms. Barra. I have not reviewed every incident we have ever 
had. But I--we do, as we find issues, we document them and take 
them through our process. And in this particular case it took 
way too long.
    Mr. Yarmuth. And there is a new technology. I have been 
driving a car for 4 \1/2\ years. I confess it is a Ford 
product, not a GM product, that has a push-button ignition. I 
was in a GM car last week, very nice one, by the way, which has 
a push-button ignition system.
    How do you make the judgment as to whether a car has a 
push-button ignition system and/or a key ignition system and 
what are the differences?
    First of all, in terms of safety, we know that this 
particular situation wouldn't occur with a push-button ignition 
system. But how do you make that decision as to what goes into 
which car?
    Ms. Barra. We evaluate. And actually the push-button start 
is something that we are evaluating putting across the 
portfolio. As you look at the specifics of a push-button start 
versus the traditional ignition, I would like our experts to 
provide that information. Because again--the ignition switch 
and how it is a component that operates as part of a system of 
the vehicle especially as it relates from a safety perspective. 
I think we would be better served to have our experts cover 
that.
    Mr. Yarmuth. But you are doing an analysis of whether a 
push-button ignition system is safer than a key ignition 
system?
    Ms. Barra. We can definitely do that. I think there has 
been work done that both can be designed to be safe. But we are 
looking because of the customer, it is a function, it is a 
delighter, usually when the vehicle has a push-button start, we 
have them on some of our vehicles. We continue to roll those 
out across our entire portfolio, and we are looking at doing it 
across the board.
    Mr. Yarmuth. I have no idea if there is a difference in the 
safety. There may be none. But it would be worth doing that 
analysis.
    One of my staff members has a 2005 Malibu that was recalled 
because of a power steering issue, and she called the 
dealership, and the dealership said that they didn't know how 
to fix it. So my question to you is, are you confident that GM 
knows how to fix the vehicles it recalls for the variety of 
problems that have----
    Ms. Barra. Well, first of all, if we find a situation that 
is not safe and we don't know how to fix it, we are still going 
to recall the vehicles and we will take those actions. In this 
case, there may be a communication lag, because there is a fix, 
whether it is a check or a replacement of the product. So that 
does exist for that specific vehicle.
    Mr. Yarmuth. So she is getting bad information from her 
dealership or they haven't been told yet?
    Ms. Barra. I would assume. I can follow up if you would 
like.
    Mr. Yarmuth. I mean, I think the public be would want to 
know that----
    Ms. Barra. Right.
    Mr. Yarmuth. Because you now have----
    Ms. Barra. Right. That there is----
    Mr. Yarmuth [continuing]. Millions of vehicles out there 
under recall. And she was told to go ahead and drive the 
vehicle if she felt safe. And I am not sure that every driver 
would know whether they should feel safe or not.
    I mean, some people, if the power steering goes out are 
strong people and maybe it has happened to them before and they 
know that it is going to take a little more effort to steer, 
other people might not. So, I mean, I don't even know how the 
average consumer is supposed to know whether they feel safe or 
not after a vehicle has been recalled.
    Doesn't the company have some disclosure responsibility to 
say these things, at least these things could happen?
    Ms. Barra. Yes, and we have done that, and that is a part 
of the letter that we send to the customer when we notify them 
of this issue, and then we provide information to the dealers 
as well.
    Mr. Yarmuth. OK. One final question.
    We talk about and we are going to have the NHTSA 
representative here later. One of the things that you are not 
required to do is to provide warranty data proactively to the 
National Highway Traffic Safety Administration. Do you think 
that that is something that ought to be considered, that might 
be helpful? In this case, maybe dots could have been connected 
sooner if all that data had been----
    Ms. Barra. I welcome the opportunity to look at what 
information that NHTSA would feel of value to submit.
    Mr. Yarmuth. Thank you. I yield back.
    Mr. Murphy. Thank you, the gentleman yields back.
    I will now recognize Mr. Harper for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman.
    And to the family members that are here, our hearts indeed 
go out to you. And we will continue to get to the bottom of 
this.
    And Ms. Barra, I know this is not the most enjoyable 
experience to go through this. But we are in a situation that, 
we don't trust the company right now. And we have to get to the 
bottom of this. And so we want to continue to ask some 
questions.
    If I can get you to refer to tab 28 in your binder. And I 
want to direct your attention to that e-mail that is found at 
tab 28. In September of 2005, a few months after General Motors 
decided that there was not an acceptable business case to 
implement changes to the ignition switch, an engineering group 
manager e-mailed Lori Queen and other GM personnel including 
Raymond DeGiorgio about proposed changes for model year 2008 
ignition switch.
    So this engineer obviously explains that a more robust 
ignition switch will not be implemented in model year 2008 
vehicles because it appears that piece cost could not be offset 
with warranty savings. In his e-mail he references ``piece 
cost.'' Is that just the ignition switch?
    Ms. Barra. Generally, when people refer to piece cost, they 
refer to the part.
    Mr. Harper. So he is just referring to that ignition 
switch. That is a yes?
    Ms. Barra. Again, I didn't write this note. But I am just 
telling you generally when people use the term ``piece cost,'' 
that is what it means.
    Mr. Harper. As he notes in that e-mail, an increase of 90 
cents; is that correct?
    Ms. Barra. I am sorry?
    Mr. Harper. Does the e-mail say there would be an increase 
of 90 cents?
    Ms. Barra. Yes, I see that.
    Mr. Harper. And since the warranty offset was only 10 cents 
to 15 cents, GM didn't make the change.
    Ms. Barra. And that is not something that I find 
acceptable. If there is a safety defect, there is not a 
business case, this analysis is inappropriate.
    Mr. Harper. And I appreciate that you don't find that 
acceptable. But that indeed is what happened here. Correct?
    Ms. Barra. And that is--exactly. And that is one piece of 
data as we go through the investigation as we put the pieces 
together we will take action. Because this is not the type of 
behavior that we want in our company today with our engineers 
today.
    Mr. Harper. And understand, we are trying to go back and 
figure out what happened and understand that so we can indeed 
make sure as you do that this never happens to anyone else 
again.
    Now Lori Queen, what was her position at the time?
    Ms. Barra. 2005, I believe she was a vehicle line 
executive. But I can go back and confirm that.
    Mr. Harper. If you would let us know, please.
    How does cost factor into decisions about safety?
    Ms. Barra. They don't.
    Mr. Harper. Has----
    Ms. Barra. But they----
    Mr. Harper. Go ahead.
    Ms. Barra. Again, I can only speak to the way that we are 
running the company. And if there is a safety issue, if there 
is a defect identified, we go fix the vehicle, fix the part, 
fix the system. It is not acceptable to have a cost put on a 
safety issue.
    Mr. Harper. And that is obviously your position and your 
goal and the way you want it to be now, but that is not the 
case of what we are going back and looking at.
    So you are telling us that General Motors has changed its 
position on how it handles costs and is safety issues. It 
hasn't been this way before, but this is how you want it now. 
Am I correct?
    Ms. Barra. This is how it is, I think we in the past had 
more of a cost culture, and we are going to a customer culture 
that focuses on safety and quality.
    Mr. Harper. When we go back and look at who first 
authorized the use of an ignition switch that did not meet 
specifications.
    Ms. Barra. And that is something we will learn in our 
investigation.
    Mr. Harper. Now, one of the things that concerns us, of 
course, is when General Motors filed bankruptcy in 2009, it 
wasn't an overnight problem with money or with the loss of 
profits or losing money each year. In 2005, I know General 
Motors lost 10.6 billion; jump to 2007, lost 38.7 billion, 
2008, lost 30.9 billion, and then filed for bankruptcy in 2009.
    The fact that General Motors was going through many years 
of financial issues, did that impact how this was categorized 
and was not dealt with at that time as it should have been?
    Ms. Barra. I can't answer that question. I want to know the 
answer to that question, and when I do, I will take action.
    Mr. Harper. You indicated earlier that a specific traffic 
death was not included in the count of fatalities that may have 
been associated with this issue, I would like to see other 
traffic deaths or serious injuries that were looked at but the 
determination was made that it was not part of this total. Can 
you get us that information?
    Ms. Barra. Through our TREAD information, yes.
    Mr. Harper. Will you get that for us?
    Ms. Barra. Yes.
    Mr. Harper. Thank you very much. I yield back.
    Mr. Murphy. Gentleman yields back.
    Now recognize Ms. Castor for 5 minutes.
    Ms. Castor. Thank you.
    Natasha Weigel, age 18, was killed October 24th, 2006 while 
riding in a 2005 Chevy Cobalt. Sarah Troutwine, age, 19 was 
killed on June 12th, 2009, after losing control of her 2005 
Chevy Cobalt, and Allen Ray Floyd, age 26, was killed on July 
3rd, 2009 after losing control of his 2006 Chevy Cobalt.
    I understand that Ms. Weigel's parents and Ms. Troutwine's 
family are in attendance at the hearing today. Others have been 
killed because of GM's defective ignition switch. The fact is, 
we do not know yet the full extent of the fatalities, injuries, 
and accidents. But evidence is growing through this 
investigation and that in the press and hopefully your own 
investigation, that the deaths could have been avoided if GM 
had addressed this issue long ago.
    We know that GM knew about this problem as far back as 
2001. The committee learned last week that the supplier of the 
faulty switch, Delphi, conducted tests, that year, 2001 which 
showed that the switch didn't meet GM's specifications. But GM 
used this switch in Cobalts and Ions and other vehicles anyway.
    Ms. Barra, the committee sent you a letter about this 
issue. And documents were received yesterday that show that 
these inadequate switches were approved by GM in May 2002. I 
have a document here and it has been placed before you and it 
is at tab 54 in the binder as well. This document shows that 
the force required to turn the ignition switch was too low. 
That specification is clearly marked ``not OK.'' Ms. Barra, 
does this document show that GM officials were aware that the 
ignition switch did not meet company standards in 2002?
    Ms. Barra. If this document was provided to the engineers, 
again, that is something I will learn in our investigation.
    Ms. Castor. Internally, GM knew there were problems. By 
2004, they are considering ways to fix the problem by 
redesigning the faulty switch.
    This document, which is also placed before you, this is at 
tab 8 in that notebook as well. From 2004, shows that GM did 
reject alternative designs. It mentions 1-year lead times and 
says, quote, the tooling costs and piece prices are too high. 
It concludes, ``Thus none of the solutions represents an 
acceptable business case.''
    Other documents present the piece-cost increase for a 
potential solution as 57 cents per unit. Ms. Barra, do you know 
who at GM would have made the decision about whether to make 
this change in 2004?
    Ms. Barra. Well, first of all, I find that decision 
unacceptable, as I have stated. If there is a safety defect, 
the cost is not the issue that we look at. We look at what is 
going to take the fix the problem and make the vehicle safe. As 
we go through our investigation, we will put all the pieces 
together of incidents and actions that were taken or not taken 
over a more than and decade period and make the appropriate 
process changes.
    Ms. Castor. So, in retrospect, do you think that a repair 
cost of 57 cents was too costly for GM to undertake?
    Ms. Barra. Again, if we are making a decision on safety, we 
don't even look at costs. We make the change.
    Ms. Castor. But there was a major disconnect between what 
GM told the public and what it knew in private. In private, GM 
approved the switch that it knew it was defective, and then the 
company appeared to reject other changes because of cost of 57 
cents per fix was too high a price to pay.
    Now also in 2005, the New York Times ran a review in which 
the author wrote about his wife encountering a problem with a 
Chevy Cobalt. He, quote, said, ``She was driving on a freeway 
when the car just went dead. The only other thing besides a key 
on the ring was a remote control fob provided by GM. The GM 
spokesman at that time, Allen Adler, issued a statement saying, 
In rare cases, when a combination of factors is present, a 
Chevrolet Cobalt driver can cut power to the engine by 
inadvertently bumping the ignition key to the accessory or off 
position while the car is running. When this happens, the 
Cobalt is still controllable.''
    So I find it baffling that not only did GM know about this 
serious problem over a decade ago but that it was discussed on 
the pages of the New York Times. And when GM responded 
publicly, it essentially told drivers, no big deal. Engines cut 
off all the time.
    When your engine suddenly cuts off when you are driving on 
the highway, would you consider this a safety issue?
    Ms. Barra. Yes.
    Ms. Castor. And you have indicated that you were not even 
aware that GM was investigating the Cobalts until December 
2013; is that correct?
    Ms. Barra. I was aware that there was analysis going on 
related to a Cobalt.
    Ms. Castor. But at the time the New York Times wrote their 
report in 2005, what was your position?
    Ms. Barra. In 2005, I believe I was in the manufacturing 
engineering organization of the company.
    Ms. Castor. So you were a high-level executive at GM 
responsible for vehicle manufacturing?
    Ms. Barra. The equipment that we use to build vehicles.
    Ms. Castor. And one of the Nation's largest newspapers 
raised the issue in this important new vehicle launch for GM 
and you did not know about it at the time?
    Ms. Barra. I don't have a recollection of that article.
    Ms. Castor. Do you recall it being a concern for GM?
    Ms. Barra. I was not aware that this was this issue until 
the recall was introduced on January 31st. I only knew at the 
end of December that there was an issue with the Cobalt. I did 
not know it was an ignition switch issue.
    Ms. Castor. Thank you, Mr. Chairman.
    Mr. Murphy. Thank you.
    That concludes our members, but I would like to see if Mr. 
Terry of Nebraska, who is the subcommittee chairman of 
Commerce, Manufacturing, and Trade would have an opportunity 
for 5 minutes. Is there any objection.
    Mr. Terry. Thank you.
    Mr. Murphy. Without objection, you may proceed Mr. Terry.
    Mr. Terry. Thank you.
    I appreciate this. And I am sorry for being late, but my 
plane was canceled for mechanical reasons, probably an ignition 
switch. USAir.
    So, getting back to NHTSA. I chair the subcommittee over 
jurisdiction with NHTSA and the TREAD Act. And the TREAD Act 
clearly requires manufacturers to inform NHTSA within 5 days of 
any, quote, ``noncompliance or defects that create an 
unreasonable risk of safety.''
    Did GM at any time contact or notice NHTSA of any 
noncompliance or defects regarding the ignition switch?
    Ms. Barra. That is something I hope to learn as we go 
through our investigation.
    Mr. Terry. OK. What is the difference between noncompliance 
and a defect?
    Ms. Barra. That is a very broad question.
    Mr. Terry. No. It is a very specific question.
    Ms. Barra. I think it depends on the specific situation 
that you are talking about.
    Mr. Terry. Regarding an ignition switch.
    Ms. Barra. So your question is what is a noncompliant----
    Mr. Terry. Yes, a noncompliant ignition switch.
    Ms. Barra. My understanding of when there is a 
noncompliance it is a very specific term used by NHTSA to 
standards.
    Mr. Terry. Right.
    Mr. Barra. But I can get you the specific definition of 
that, versus when we feel we have found a defect with one of 
our parts. That is my understanding.
    Mr. Terry. And that is why it is ``or.'' So when an 
ignition switch is substandard, it is noncompliant. And a 
defect, then, is a higher level. And I think that is what we 
are looking for here.
    Ms. Barra. Congressman, I think in the language that we use 
with NHTSA there are very specific definitions. And I would 
like to provide those to you as opposed too----
    Mr. Terry. I can get the definitions from NHTSA. I am not 
asking you to do that.
    Ms. Barra. You are asking a very specific question related 
to this, and I am trying to be truthful.
    Mr. Terry. OK. I am not trying to beat up on you here, but 
just repeating back NHTSA's definition I am asking specifically 
how it applies to the ignition switch. And NHTSA's going to 
testify there was no notice.
    Ms. Barra. I am sorry, I didn't hear. NHTSA is going----
    Mr. Terry. My understanding is that NHTSA said GM did not 
contact them of noncompliance.
    Ms. Barra. If I find through our investigation that we did 
not provide the appropriate information to NHTSA, that will be 
a very serious issue and we will take----
    Mr. Terry. OK.
    Ms. Barra [continuing]. Appropriate action with the 
individuals involved.
    Mr. Terry. All right, thank you.
    I yield back.
    Mr. Murphy. The gentleman yields back.
    I think there are no further questions.
    Although, Ms. DeGette, you had a clarifying question?
    Ms. DeGette. I just had two questions, Mr. Chairman. Thank 
you.
    The first one is, I have been sitting here thinking about 
these new ignition switches that you are putting into the 
recalled cars. They are based on the 2006 specs. But what you 
are saying, Ms. Barra, is that they are going to meet the 
highest safety standards when they are manufactured; is that 
right?
    Ms. Barra. Our engineering team is going through extensive 
validation testing to make sure that they meet the 
requirements.
    Ms. DeGette. And, on the component technical specification, 
it is tab 53 of your notebook, which was December 6, 2012, it 
says, The minimum torque required by the switch on the return 
side of the ignition switch, from crank to the run position 
must be 15 N-CM. So would that be the standard, then, since it 
says it must be that?
    Ms. Barra. From the position of run to accessory?
    Ms. DeGette. Yes.
    Ms. Barra. Fifteen is the minimum. The spec is 20 plus----
    Ms. GeGette. Right.
    Ms. Barra [continuing]. Or minus five.
    Ms. DeGette. But yes OK.
    And my final question is, I am impressed, this committee 
has had experience with Kenneth Feinberg before. Because he was 
appointed to help administer the fund that was set up by BP 
after Deepwater Horizon, which was this committee's 
investigation. He was also appointed to administer the fund 
after the Boston Marathon terrorist attacks.
    But I want to make sure that what you are doing when you 
hire him is you are really doing something. Because he is 
usually hired to sort out the value of people's claims. And 
then assign money. And I am assuming GM's hiring him to help 
identify the size of claims and then help compensate the 
victims; is that right? Is GM willing to put together some kind 
of a compensation fund for these victims that Mr. Feinberg will 
then administer? Is that why you have hired him?
    Ms. Barra. We have hired Mr. Feinberg to help us assess the 
situation. We understand----
    Ms. DeGette. So really there is no money involved in this 
at this point?
    Ms. Barra. We have just hired him and will begin work with 
him on Friday.
    Ms. DeGette. So really you hired him, you announced it 
today. But so far he has not being given any ability to 
compensate victims; is that what you are saying?
    Ms. Barra. We are going to work with him to determine what 
the right course of action is.
    Ms. DeGette. And might that include victim compensation 
here?
    Ms. Barra. We haven't made any decisions on that yet.
    Ms. DeGette. OK.
    Thank you so much, Mr. Chairman.
    Mr. Murphy. Thank you, Ms. Barra. We thank you for your 
time today. GM has cooperated with this investigation, and we 
expect your company will continue to cooperate. Let me make a 
couple requests. One is, members will have other questions for 
you, and we hope that you respond to those within a timely 
manner. We also plan to conduct further interviews with General 
Motors officials and employees involved in the recalled part 
and maybe requesting more records. Will you make sure you make 
those available to us?
    Ms. Barra. We will absolutely cooperate.
    Mr. Murphy. Thank you.
    And also on behalf of Chairman Upton and I, we would also 
like to be notified when you get your internal report and would 
like to discuss with you a chance to review that report as 
well.
    Ms. Barra. We will notify you.
    Mr. Murphy. Thank you very much.
    I thank you, Ms. Barra. You will be dismissed.
    But while this is taking place and waiting for Mr. Friedman 
to sit down, we are going to take a 5-minute break to allow Mr. 
Friedman to take his seat, and we will reconvene this hearing 
in 5 minutes. Thank you.
    [Recess.]
    Mr. Murphy. Thank you. This hearing of the Oversight and 
Investigations Subcommittee of Energy and Commerce will now 
continue with our second witness.
    Mr. David Friedman has served as the acting administrator 
of the National Highway Traffic Safety Administration since 
January 18th, 2014. He was sworn in as deputy administrator on 
May 15th, 2013. Before becoming NHTSA's, which is the National 
Highway Traffic Administration's, deputy administrator, Mr. 
Friedman worked for 12 years at the Union of Concerned 
Scientists as a Senior Engineer, Research Director, and as the 
Deputy Director of the Clean Vehicles Program.
    I'll now swear in the witness.
    Mr. Friedman, you are aware that the committee is holding 
an investigative hearing, and when doing so, has the practice 
of taking testimony under oath. Do you have any objections to 
testifying under oath?
    Mr. Friedman. I do not.
    Mr. Murphy. Thank you.
    The chair then advises you under that under the rules of 
the House and the rules of the committee, you are entitled to 
be advised by counsel. Do you desire to be advised by counsel 
during your testimony today?
    Mr. Friedman. I do not.
    Mr. Murphy. In that case, would you please rise and raise 
your right hand.
    [Witness sworn.]
    Mr. Murphy. Let the record show the witness is now under 
oath and subject to the penalties set forth on Title 18, 
Section 1001 of the United States Code.
    Mr. Friedman, you may now give a 5-minute summary of your 
written statement.

  TESTIMONY OF DAVID FRIEDMAN, ACTING ADMINISTRATOR, NATIONAL 
             HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Mr. Friedman. Chairman Murphy, Ranking Member DeGette, and 
members of the committee, thank you for the opportunity to 
testify before you today.
    To begin, I would like to say that on behalf of everyone at 
NHTSA, we are deeply saddened by the lives lost in crashes 
involving the General Motors' ignition switch defect. The 
victims' families and friends some of whom I believe are here 
today, have suffered greatly, and I am deeply sorry for their 
loss.
    Safety is NHTSA's top priority, and our employees go to 
work every day trying to prevent tragedies just like these. Our 
work reducing dangerous behaviors behind the wheel, improving 
the safety of vehicles, and addressing safety defects has 
helped reduce highway fatalities to historic lows not seen 
since 1950.
    In the case of the recently recalled General Motors 
vehicles, we are first, focused on ensuring that General Motors 
identifies all vehicles with a defective ignition switch, fixes 
the vehicles quickly, and is doing all it can to inform 
consumers on how to keep themselves safe.
    We are also investigating whether General Motors met its 
responsibilities to report and address this defect as required 
under federal law. If it failed to do so, we will hold General 
Motors accountable, as we have in other cases over the last 5 
years, which have led to record fines on automakers.
    Internally at NHTSA and the department, we have already 
begun a review of our actions and assumptions in this case to 
further our ability to address potential defects. Today I will 
share what I have learned so far.
    NHTSA used consumer complaints and early warning data, 
three special crash investigations on the Cobalt, industry Web 
sites, and agency expertise on airbag technology. Some of that 
information did raise concerns about airbag non-deployments. So 
in 2007, we convened an expert panel to review the data. Our 
consumer complaint data on injury crashes with airbag non-
deployments showed that neither the Cobalt nor the Ion stood 
out when compared to other vehicles.
    The two special crash investigation reports we reviewed at 
the time were inconclusive on the cause of non-deployment. The 
reports noted that the airbags did not deploy and the power 
mode was in accessory. But these crashes involved unbelted 
occupants and off-road conditions that began with relatively 
small collisions where, by design, airbags are less likely to 
deploy in order to avoid doing more harm than good. Further, 
power loss is not uncommon in crashes where airbags deploy and 
did not stand out as a reason for non-deployment. In light of 
these factors, NHTSA did not launch a formal investigation.
    We continued monitoring the data and in 2010 found that the 
related consumer complaint rate for the Cobalt had decreased by 
nearly half since the 2007 review. Based on our engineering 
expertise and our process, the data available to NHTSA at the 
time was not sufficient to warrant a formal investigation.
    So what does all this mean? It means that NHTSA was 
concerned and engaged on this issue. This was a difficult case 
where we used tools and expertise that over the last decade 
have successfully resulted in 1,299 recalls, including 35 
recalls on airbag non-deployments. These tools and expertise 
have served us well, and we will continue to rely on and 
improve them. For example, we have already invested in advanced 
computer tools to improve our ability to spot defects and 
trends, and we are planning to expand that effort. But what we 
know now, also means that we need to challenge our assumptions, 
we need to look at how we handle difficult cases like this 
going forward.
    So we are looking to better understand how manufacturers 
deal with power loss and airbags. We are also considering ways 
to improve the use of crash investigations in identifying 
defects. We are reviewing ways to address what appear to be 
remote defect possibilities. And we are evaluating our approach 
to engaging manufacturers in all stages of our defects process. 
Between these efforts and those of the department's inspector 
general, I know that we will continue to improve our ability to 
identify vehicle defects and ensure that they are fixed.
    But I want to close on one last important note. Our ability 
to find defects also requires automakers to act in good faith 
and to provide information on time. General Motors has now 
provided new information definitively linking airbag non-
deployment to faulty ignition switches. Identifying the parts 
change and indicating potentially critical supplier 
conversations on airbags. Had this information been available 
earlier, it would have likely changed NHTSA's approach to this 
issue. But let me be clear, both NHTSA and the auto industry as 
a whole must look to improve.
    Mr. Chairman, Ranking Member DeGette, I greatly appreciate 
the opportunity to testify before you today. Thank you.
    [The prepared statement of Mr. Friedman follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Murphy. Thank you.
    Now recognize myself for 5 minutes.
    Now Mr. Friedman, with the understanding you just got in 
this position of acting administrator just a couple months ago. 
And for the last 12 years, you were involved in other groups 
that focused on green energy and fuel cell technology. We 
understand if you are unable or uncomfortable answering 
specific questions about automobile engineering and safety, you 
are more than welcome to ask someone else, some of your support 
staff behind you.
    So, I wanted to find out how NHTSA is communicating to the 
public about this recall. And I believe I have a slide 
available, or I have a poster here. I went to your Web site to 
see what I could learn.
    And do we have that image available about this? And what it 
shows--this is all. This is all I could find on your Web site 
about the recall notice. No information about the broader 
recalls, about parts replacement, investigation, or anything. I 
can't even click on this. It simply says, get rid of your car 
key fobs. But there is nothing else a person could do.
    Can you fix the Web site so people could use to it get more 
useful information, please?
    Mr. Friedman. Congressman, if there is added information 
that should be on there to make sure that people can get to the 
information available on our Web site, we will take those 
steps. Right now, consumers can go to our Web site and get all 
of the details associated with this recall. If they go to that 
``search'' button and select the 2005 Cobalt.
    Mr. Murphy. Just to make it easier, because no one trusts 
government Web sites----
    Mr. Friedman [continuing]. Links right there, sir, 
absolutely.
    Mr. Murphy. In 2007, the chief of NHTSA's Defect Assessment 
Division proposed opening an investigation of airbag non-
deployment to the Chevy Cobalts. Am I correct about that date?
    Mr. Friedman. Yes.
    Mr. Murphy. Now, if you turn to tab 19 in your binder, it 
is labeled as the DAD Panel for November 15, 2007.
    This is the PowerPoint presentation made to the Defect 
Assessment Panel on November 15th. At Bates stamp 4474, those 
little numbers at the bottom of the page, the presentation 
states that there have been 29 complaints about the Cobalt 
airbags, four fatal crashes, and 14 field reports; is that 
correct?
    Mr. Friedman. That sounds correct.
    Mr. Murphy. At Bates stamp 4480, there is a chart of airbag 
warranty claims for Cobalt airbags as compared to other 
comparable vehicles. Do you agree that the number of warranty 
claims for Cobalt airbags is much higher than other cars?
    Mr. Friedman. Congressman, Mr. Chairman, that is one of the 
issues that did raise concerns on our part. What that chart 
shows is warranty claims, some of which are likely associated 
with airbag non-deployments, some of which may also and are 
very likely to be associated with warning lights on airbags or 
other potential problems.
    This is a gross look at the data, and important look at the 
data that is provided by our early warning data system that we 
use to decide whether or not we need to look further into one 
of these issues, which is what we did do in this case.
    Mr. Murphy. But still NHTSA panel decided there was not a 
trend here and decided not to investigate, despite the number 
of complaints, the fatal crashes, and the warranty claims. Why 
was NHTSA convinced that an investigation was not warranted? I 
believe this happened on two occasions.
    NHTSA decided twice, don't move forward with an 
investigation. What specific information did you have that said 
don't go forward?
    Mr. Friedman. Mr. Chairman, when we look at these cases and 
when they looked at this case at the time, they look at the 
whole body of information. You can't just rely necessarily on 
one piece of information. The core pieces of information that 
they relied on in the determination there wasn't sufficient 
enough information.
    First was an analysis of the complaints, the injury crash 
complaints associated with airbag non-deployment and the 
exposure, the number of those divided by the number of vehicles 
that were on the road and the number of years they were on the 
road. That gives you a sense of how large the problem is in 
comparison to other vehicles.
    When the team did that comparison, the Cobalt did not stand 
out. It was a little bit above average, but there were several 
vehicles that were significantly higher, there were some 
vehicles that----
    Mr. Murphy. I understand. But twice, employees of NHTSA, 
raised a red flag on this. It wasn't just once. A second time 
too they said something is not right here.
    So I am wondering if you did something different when that 
occurred the second time in reviewing it.
    And such as, did anybody ask questions of why an airbag 
doesn't deploy? I mean, I looked at the statements there and 
had a number of things about power losses or how much longer 
battery power would be involved on an airbag deployment in case 
of an accident.
    But did anybody ask a question, was there anything else, 
any other reason why an airbag wouldn't deploy, within NHTSA? 
Did anybody ask those questions.
    Mr. Friedman. Mr. Chairman, my understanding is folks were 
trying to understand why the airbags did not deploy. When they 
looked at the special crash investigations in 2007, as well as 
the data available, those special crash investigations were 
inconclusive. Why? Because they indicated that these crashes 
were happening in off-road conditions with unbelted occupants.
    Mr. Murphy. I understand. I am looking at reasons why 
airbags wouldn't deploy. And so you were talking among 
yourselves, according to what we understand, the PowerPoints.
    What specifically did NHTSA ask GM? For example, and this 
is very important: Did NHTSA raise a question with GM, tell us 
the reasons why an airbag would not deploy in one of your cars? 
Did you ask GM that question?
    Mr. Friedman. I don't have a record of that. I know our 
team did bring up concerns over this case to General Motors in 
a meeting, but I don't have records of us asking that specific 
question.
    Mr. Murphy. I mean, it is important, because you are saying 
GM didn't provide you information. But you are also saying you 
don't know if you asked them for the information. I mean, it is 
important for the families to know what happened and if this 
key government agency which is tasked with protecting the 
safety of the public. I just want to know if those kinds of 
questions get asked?
    Mr. Friedman. Mr. Chairman, those questions typically do 
get asked of the car companies when we move into the 
investigation phase.
    What this phase and where this was, was a phase where 
concerns are raised and it is discussed whether or not there is 
sufficient information to move to the point of asking those 
questions of automakers. Roughly in these defects panels, 
roughly half of the cases that are brought up are brought into 
investigations, roughly half are not.
    One of the things that we are looking at relative to this 
process going forward is, do we need to make any changes when 
it comes to how we present this information and when we present 
our concerns to automakers. I do believe that there are some 
changes that we can make to engage automakers earlier in the 
process to put them in the position of letting us know if our 
concerns are shared by them and if they----
    Mr. Murphy. Certainly I know the family members would want 
to know in retrospect what would you change in this whole 
process. But I am out of time.
    I now recognize Ms. DeGette for 5 minutes.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Friedman, NHTSA investigated airbag non-deployment. But 
as you talked about, it was never able to connect the dots 
between that problem and the defective ignition switch.
    So what I want to know is, if NHTSA had the relevant 
information it needed to make a fully informed determination 
and what the agency believed about the connection between the 
ignition switch position and airbag non-deployment during the 
time of its special crash investigations?
    In your written testimony, you know that when NHTSA was 
investigating the airbag non-deployment issue, the agency 
mistakenly believed based on GM's service literature that the 
airbags would function up to 60 seconds after the power cut 
off.
    Why did NHTSA think that?
    Mr. Friedman. Thank you, Ranking Member.
    That knowledge was actually based on years of experience 
and previous experience with earlier airbags where there was 
actually a problem, where airbags would go off long after the 
vehicle was turned off.
    Ms. DeGette. And----
    Mr. Friedman. Airbag systems have capacitors in them, and 
those capacitors are designed to store energy, so that if power 
is lost, the airbag can still deploy. Because power is often 
lost in some of these kinds of crashes.
    Ms. DeGette. But that is based on the GM service literature 
or the agency's experience or both?
    Mr. Friedman. That is a very important question.
    Ms. DeGette. Right.
    Mr. Friedman. My understanding is that was based on the 
agency's experience. My understanding is--and I apologize if I 
was not clear enough in my testimony. We have since, after 
General Motors made this recall, found that service information 
that confirmed our understanding at the time, which was that 
airbags are designed to be powered when the power is lost. So a 
power loss would not typically stand out----
    Ms. DeGette. So OK. So you were base--so NHTSA was base--
you weren't there--but NHTSA was basing its determination on 
its experience. How is that, then, that it failed to connect 
the dots between the airbag non-deployment problem and the 
ignition switch problem?
    Mr. Friedman. I believe there are two situations here.
    First of all, the information we had at the time indicated 
that, you know, there were two possibilities put in front us in 
one of the special crash investigation reports. One of them was 
that the ignition being off could have been a cause. Another 
one was that the circumstances of the crash could have been the 
cause.
    In those two cases, the more likely scenario was that the 
circumstances of the crash were more likely to yield to the 
airbags not deploying.
    Ms. DeGette. So you also said that GM had critical 
information that would have helped identify this defect that 
NHTSA didn't have. What information could GM have given you 
that the agency--that would have helped identify the real 
problem?
    Mr. Friedman. Well, I made that statement based on looking 
at the chronology that General Motors provided with this 
recall.
    Ms. DeGette. OK.
    Mr. Friedman. And there were at least a few things, in that 
chronology that raised serious concerns for me.
    Ms. DeGette. And what were those things?
    Mr. Friedman. The first was that there was a change in part 
number relative to the ignition switch, and we were never 
informed of that change.
    The second is that there were some conversations with 
suppliers about their control algorithm, the control systems 
for airbags. We were never informed of that conversation, to my 
knowledge. And we did not have the details on how those 
algorithms worked.
    Third, and most importantly, General Motors created a 
direct connection in their recall between the airbag non-
deployment and the ignition switch. If we had any of those 
pieces of information, I truly believe it would have changed 
the way NHTSA would have approached this.
    Ms. DeGette. Now, if GM is changing a part, are they 
legally required to inform NHTSA of that change?
    Mr. Friedman. It is not clear to me that that is a legal 
requirement. But I can get back to you to make sure.
    Ms. DeGette. I would appreciate it. Because it seems to me 
that is critical.
    Now, in your opening statement, you said that in order for 
NHTSA to be able to make a correct determination, you need all 
of the information, as you just said. And you need the company 
to be acting in good faith.
    Based on what you know now, do you think that at the time 
that all of this was happening GM was acting in good faith 
towards the agency?
    Mr. Friedman. Congresswoman, we have an open investigation 
to answer that exact question. And if we find out that they 
were not, we will hold them accountable.
    Ms. DeGette. And I would hope that you would inform this 
committee, irrespective of your determination, whether they did 
or didn't.
    Mr. Friedman. Absolutely.
    Ms. DeGette. When do you expect to finish that 
investigation?
    Mr. Friedman. I can't put an exact timeline on it. We are 
getting hundreds of thousands of documents from General Motors. 
The deadline is April 3rd for them to provide those documents. 
It is not clear that they will be able to provide all the 
documents at the time.
    But we have been making sure that they are continuously 
producing documents so that we can understand. As soon as my 
team is able to find information in those documents that 
indicate that General Motors had information that they should 
have acted on sooner, we will determine how to move forward to 
hold General Motors accountable; or, if we don't find that 
information, then we will also let you know.
    Ms. DeGette. Thank you.
    Mr. Murphy. The gentlelady yields back.
    With regard to Ms. DeGette's question about if there is a 
change in a part, do they need to notify you. Will you also let 
us know if they make a change in a part, do they also have to 
have a different part number? I don't know what NHTSA's 
requirements are on that. That is an issue. Just you can submit 
that for the record.
    Mr. Friedman. I will go back to you to be clear.
    Mr. Murphy. We also need to know what information you were 
reviewing with regard to these airbags, GM cars or specific to 
the Cobalt. And would you please provide that information to 
the committee.
    Mr. Friedman. Mr. Chairman, I believe we provided a 
significant amount of documentation, but we will continue to do 
so.
    Mr. Murphy. On this, we would like to know what you are 
viewing.
    We would like to know what you are reviewing.
    I now recognize the chairman of the full committee, Mr. 
Upton, 5 minutes.
    Mr. Upton. Well, thank you, Mr. Chairman, and I just want 
to--I know you are, as well as our committee, is literally, we 
are looking through boxes of information, thousands and 
thousands of pages. And that continues and looks like we will 
be getting some more down the road.
    Well, as you know, I wrote the TREAD Act, which passed 
unanimously in the Congress. President Clinton signed it into 
law, and the whole point or a major point of that law was that 
NHTSA would in fact get the information that it needed to 
detect a trend as quickly as they could. So when NHTSA 
considered whether to investigate the Cobalt for an air bag 
defect back in 2007, the early warning data was one of the 
factors that was cited in the Defect Assessment Division's 
recommendation to investigate it, correct?
    Mr. Friedman. That is correct.
    Mr. Upton. So looking back, what is the problem? Did GM not 
report the information that the law required? Or was NHTSA 
unable to sort through the information that it had to find the 
problem or both?
    Mr. Friedman. Congressman, we have an open investigation to 
determine whether or not General Motors failed in their 
responsibility to provide information, and we will definitely 
report to this committee the results of that effort.
    In terms of what our team did. Our team looked at all the 
available information using the approach that we have used 
successfully to lead to over 1,299 recalls influenced by NHTSA 
over the last 10 years. We use that process to look into the 
early warning data, to look at the consumer complaint data, to 
look at special crash investigations, and a variety of other 
information.
    We dug into that data. We analyzed it. We tried to see if 
there was a defect trend that stood out. The data didn't 
support that. It showed that the Cobalt did not stand out when 
it came to air bag nondeployments.
    We looked at the special crash investigations. Those 
available at the time were inconclusive. This was a case where 
the team worked very hard to try to understand what was 
happening and wasn't able to see a significant enough trend or 
a clear enough defect.
    What I am learning from this and where we have to go in the 
future is we need to look more carefully at remote defect 
possibilities. We need to reconsider the way we are using 
special crash investigations. We need to continue to invest in 
tools. We are already investing in computer tools basically 
grown out of the Watson IBM software to be able to more 
effectively, more efficiently use our resources to spot trends. 
We've got to put all these tools forward, and we've got to look 
for opportunities to make changes, look in better spots that--
--
    Mr. Upton. So, as you look to embark on an investigation, 
do you consider the number of deaths? I mean, is there some 
trigger that you use to warrrant further exploration, whether 
it is 1 death, 4 deaths, 10 deaths, 20, 100, I mean, is there 
some type of standard equation that you put into place?
    Mr. Friedman. Congressman, there is not. Our goal, what I 
would love to be able to do is to find each and every one of 
these defects before there's a single death. It is the 
manufacturer's responsibility to be reporting all of these 
defects and getting them fixed. When they do not, it is our job 
to try to find them. We don't have a simple rule-of-thumb 
because each case is different. In some cases, we have opened 
investigations after one incident where it was clear that it 
was a defect. In other cases, we have had to rely on the trend 
data that indicates that this stands out. I can't give you a 
specific----
    Mr. Upton. So let's play Monday morning quarterback. So, 
today is April 1st, 2014. These problems arose over the last 10 
years. What would you have liked to have had on your platter 
from GM specifically in terms of information today that you 
didn't have in the last 8 or 10 years?
    Mr. Friedman. Well, at a minimum, what I can tell you, 
based on their chronology, I would have liked to have had 
information that they had changed the parts on the ignition 
switch. I would have liked to have had information that they 
were talking to their suppliers, because they appear to have 
had concerns about the algorithm associated with air bag 
nondeployments. I would have certainly liked to have any 
information they had directly linking the ignition switch 
defect to air bag nondeployments. As we go through our 
investigation, I should be able to come back to you and let you 
know if there is additional information they should have had--
--
    Mr. Upton. And are you pretty certain that today that they 
did not provide that information to you?
    Mr. Friedman. It is my understanding that none of that 
information was available. We are continuing our efforts to try 
to make sure that we understand what happened, so I can't say 
that I can give you a comprehensive and definitive answer, but 
my understanding at this point is that, no, we did not have 
that information.
    Mr. Upton. I know Mr. Long wanted my last 15 seconds, so 
I--that is now gone.
    I yield back.
    Mr. Long. Thank you, Mr. Chairman.
    I will have my friend Mr. Terry here assist me, and the 
chairman of the subcommittee showed you this picture a while 
ago and said he couldn't navigate past this page, and you said 
that if any new information became available to you, that you 
would get that on the Web site.
    Something we learned in the first hearing that I think is 
very germane is that if you will take your car to General 
Motors, they will give you a loaner at no cost or a rental car 
at no cost. I would call that very germane. I would call it 
critical, and if somebody has got an 2005, 2006, 2007, I think 
it would be enticing to drive a 2014 for a little while they 
repair your car, so that would be a suggestion to put on there.
    I yield back.
    Mr. Murphy. Thank you.
    I might note to the gentleman, I received a call from one 
of my constituents who said he has tried to get a loaner car, 
and the dealer told him he couldn't have one, too.
    Ms. DeGette. One more thing, too, you could put on there is 
take all your keys off the key ring except for the ignition 
key. That is the other thing Ms. Barra said. Is that on there?
    Mr. Friedman. I believe that is very clearly on there. In 
fact, just to be clear, the reason why we did that is because 
safety is our top priority. We are all focused on investigating 
this case, but safety, safety is our top priority, which is why 
the first thing I wanted people to see when they came to that 
Web site was how to keep themselves safe. So I do just want to 
be clear, that is why we have that limited information there 
because I didn't want anyone out there who came to our Web site 
not to understand the steps how to keep themselves safe. I 
agree it is a good idea to put on there--I will have to see if 
we can fit it in the space we've got, or if there is another 
way to point people to it, but I agree it is a good idea to let 
them know that----
    Mr. Murphy. People need to know if it is safe to drive 
their current cars.
    Mr. Dingell, you are now recognized for 5 minutes.
    Mr. Dingell. Mr. Chairman, I thank you.
    Mr. Friedman, let's look at NHTSA's internal decisionmaking 
processes. These questions will require a yes or no answer.
    Is it correct that contractors for NHTSA's special crash 
investigations program conducted three separate investigations 
of Chevy Cobalt in 2005, 2006, and 2009 related to air bag 
nondeployment?
    Mr. Friedman. Yes, that is correct.
    Mr. Dingell. Now, is it correct that NHTSA's Office of 
Defects Investigation reviews early warning reporting data and 
consumer complaints in deciding whether to open a formal defect 
investigation?
    Mr. Friedman. Yes, those are parts of the process.
    Mr. Dingell. Now, is it correct that GM submitted EWR data 
to NHTSA concerning Chevrolet Cobalts, subject to NHTSA's 2005 
and 2006 special crash investigations? Yes, or no.
    Mr. Friedman. I'm sorry, sir. Could you repeat that, 
please?
    Mr. Dingell. I'll give it to you again. Is it correct that 
GM submitted EWR data to NHTSA concerning Chevrolet Cobalts, 
subject to NHTSA's 2005 and 2006 special crash investigations?
    Mr. Friedman. Yes, that's correct. Those are important bits 
of our investigation.
    Mr. Dingell. Now, is it correct that the Office of Defects 
Investigation, ODI, follows a multistep process in order to 
determine whether a defect exists in the vehicle? Yes or no.
    Mr. Friedman. Yes.
    Mr. Dingell. Now, and that process includes an initial 
evaluation, a preliminary evaluation, and an engineering 
analysis. Is that correct?
    Mr. Friedman. Yes, that is the standard process, but we 
will act earlier in that stage if we have compelling 
information that there's a defect. We do not wait necessarily 
to go through that whole process if we have sufficient 
information to act on.
    Mr. Dingell. All right. Now, let's clarify something. 
NHTSA's Special Crash Investigation program is something 
separate and distinct from the formal ODI investigations 
process. Is that correct?
    Mr. Friedman. That is correct
    Mr. Dingell. Now, is it correct that the Office of Defects 
Investigation convened an initial evaluation panel in 2007 to 
investigate the nondeployment of air bags in the 2003, 2006 
Chevy Cobalts and Ions, yes or no?
    Mr. Friedman. That is correct
    Mr. Dingell. Now, is it correct that the review was 
prompted by 29 consumer complaints, 4 fatal crashes, and 14 
field reports?
    Mr. Friedman. That was one of the reasons for the review. 
The additional----
    Mr. Dingell. What were the other reasons?
    Mr. Friedman. In addition, we were looking at consumer 
complaints. Those complaints raised concerns as well, and I can 
get back to you on the record with each of the pieces of 
information that were involved, but we do have a memo that was 
provided when it was proposed to potentially move this to a 
defect that lays out early warning data, consumer complaint 
data concerns on the record, special crash investigation----
    Mr. Dingell. Would you submit that for the record, please?
    Mr. Friedman. Yes.
    Mr. Dingell. Now, were there other things that triggered 
this review?
    Mr. Friedman. My understanding is that it was all of the 
items in that memo that triggered this review.
    Mr. Dingell. So there weren't other things.
    Now, is it correct that ODI decided not to elevate that 
review to a more formal investigation because there was a lack 
of discernible trend, yes or no?
    Mr. Friedman. Yes, that was one of the reasons.
    Mr. Dingell. What were the other reasons?
    Mr. Friedman. The other reason is that the crash 
investigation information we had was inconclusive and did not--
was not able to point to a specific defect.
    Mr. Dingell. All right. Now, to be clear, at the time of 
the 2000 initial evaluation, NHTSA had concluded that the Chevy 
Cobalt was not over representated compared to other peer 
vehicles with respect to injury crash incident rates. Is that 
correct?
    Mr. Friedman. That's correct.
    Mr. Dingell. Is there any other reason?
    Mr. Friedman. Was there any--the other----
    Mr. Dingell. Was there any other reason that you came to 
that conclusion?
    Mr. Friedman. In 2007.
    Mr. Dingell. Now, also to be clear, NHTSA did not have 
information at the time of the 2007 investigation that, for 
example, linked air bag nondeployment to ignition switch 
position. Is that correct?
    Mr. Friedman. We do not have any specific information that 
provided a direct link.
    Mr. Dingell. So you are agreeing?
    Mr. Friedman. I believe so.
    Mr. Dingell. OK. Now, Mr. Chairman, I am troubled here. It 
appears that we have a flaw in NHTSA's decisionmaking process 
which is related to defects and their inquiries into defects. I 
fully recognize, and I am like most of the members of this 
committee, I think, critical of the fact that NHTSA is short 
staffed and underfunded. At the same time, I am compelled to 
agree with Acting Administrator Friedman that Congress may need 
to examine the use of special crash investigations in the 
defect screening process, how best to get NHTSA the information 
it needs for that process, and how best to engage manufacturers 
around issue evaluations. In so doing, I think we will help to 
better ensure the safety of American motorists and their 
families.
    And I yield back the balance of my time.
    Mr. Murphy. The gentleman yields back.
    Now recognize Dr. Gingrey from Georgia for 5 minutes.
    Mr. Gingrey. Mr. Chairman, thank you.
    Mr. Friedman, in your written testimony, you suggested that 
NHTSA, your agency, did not pursue investigations into the 
issues with Cobalts and Ions because they were unaware of 
information developed by General Motors. In the years leading 
up to this recall, has NHTSA had any concerns with General 
Motors' responsiveness or lack thereof to safety defects and 
concerns?
    Mr. Friedman. Congressman, I would like to get back to you 
on the record with that just to defer.
    Mr. Gingrey. Let me do this. You may not have to do that. 
Just look at tab 34. It is right there in front of you. In July 
2013, the head of ODI e-mailed General Motors with a number of 
concerns. It is the second page, bottom of the second page, 
sent to Carmen. You see where I am--you with me?
    Mr. Friedman. I have not seen this before, but yes, I see 
it.
    Mr. Gingrey. OK. You want to read that first paragraph and 
then look up and I will know that you have read it?
    Mr. Friedman. Yes.
    Mr. Gingrey. He stated, The general perception is that 
General Motors is slow to communicate, slow to act and, at 
times, requires additional efforts of ODI that we do not feel 
is necessary with some of your peers. You read that, didn't 
you?
    Mr. Friedman. Yes.
    Mr. Gingrey. Were you aware of the concerns raised by ODI, 
and I guess that was July 2013?
    Mr. Friedman. I was not aware of this specific e-mail, but 
I have been in at least one meeting where we sat down with 
General Motors and made clear to them that they needed to make 
sure that they were following an effective process when it came 
to their recalls.
    Mr. Gingrey. So there was definitely some concern.
    Mr. Friedman. Well, with each and every automaker, we need 
to make sure that they have a good and effective process to 
quickly deal with this. This e-mail clearly indicates some very 
specific concerns.
    Mr. Gingrey. Did the agency have similar concerns in 2007, 
2010, when it declined to advance any investigations into 
nondeployment of air bags in these GM vehicles?
    Mr. Friedman. I don't know
    Mr. Gingrey. You weren't with NHTSA at the time?
    Mr. Friedman. No. I joined NHTSA back last year, I have 
been there for almost a year now.
    Mr. Gingrey. Do you think NHTSA did enough to get the 
information that it needed?
    Mr. Friedman. I believe in this case that the team looked 
very clearly and very carefully at the data. I believe that the 
reason why we didn't move forward was because the data 
indicated that the Cobalts didn't stand out and that we didn't 
have conclusive information as to a very specific intent.
    Mr. Gingrey. Well, in 2005, GM issued this technical 
services bulletin--and that's tab 12, if you want to flip 
quickly to tab 12 of your document binder--this technical 
service bulletin to its dealers, and it recommended a solution 
for complaints of this inadvertent key turn due to the low 
torque, particularly by these Chevrolet Cobalts. The technical 
service bulletin instructed the dealers exactly what to do to 
provide an insert that converted a key from a slot design to a 
hold design. I don't know exactly what that means, but they do. 
General Motors believed that this would help reduce the force 
exerted on the ignition while driving from maybe shaking of the 
keys or bumping it with your knee.
    In 2006, the technical services bulletin was expanded to 
include additional make and model years. Unfortunately, in the 
case of this young girl, 29-year old Brooke Melton, a nurse 
from my congressional district that was killed the day after 
she took her car in, saying, Hey, this engine is cutting off 
for no reason. And, you know, I know they must have gotten the 
technical service bulletin about this issue, but all they did 
was clean out a fuel line, gave her the car the next day, and 
led her to her death.
    Administrator Friedman, yes or no, was NHTSA aware of 
General Motors' 2005, 2006 technical service bulletins related 
to low ignition key cylinder torque effect?
    Mr. Friedman. Mr. Gingrey, first, if I may, Brooke's death 
was a tragedy. And it's a tragedy that we work each and every 
day to avoid. I do believe we were aware, as part of our 
efforts and as part of the special crash investigation, that we 
were aware of that technical service bulletin. At the time, 
that technical service bulletin would not have been seen as 
being associated with air bag nondeployment.
    Mr. Gingrey. Yes. Listen, I believe you, Mr. Friedman, I 
believe you, and obviously, when people are driving impaired or 
texting or e-mailing or whatever, they don't change the oil 
when they should and their tires are low and the brakes are 
worn out, there's some responsibility, some personal 
responsibility. But when they're doing everything the right way 
and they take their car in, and they trust the service 
department of the local dealership and they get a situation 
like this, you can understand why she's gone, but her parents, 
obviously--and all these parents, these families are just irate 
because the expectation, if they're doing the right thing, they 
ought to be safe.
    Mr. Friedman. Congressman, I completely understand, and I 
would actually argue that consumers should expect that their 
cars should function as they're designed no matter the cause of 
the crash.
    Mr. Gingrey. Absolutely. Thank you, Mr. Friedman.
    I yield back.
    Mr. Murphy. I venture to say that they would assume the car 
keys don't have to be monitored----
    Mr. Friedman. Correct.
    Mr. Murphy [continuing]. And checked.
    Mr. Murphy.  Mr. Green, you are recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Friedman, thank you for appearing today. NHTSA has a 
central role for consumer safety, and I would like to 
understand better how long it took for NHTSA to identify this 
fault. In your opinion, how did NHTSA not identify the deadly 
trend.
    Mr. Friedman. Congressman, when our team looked at the 
data, the trend did not--there was not a trend that stuck out. 
In fact, when it came to air bag nondeployments, the Cobalt was 
not an outlier.
    Mr. Green. Was GM forthcoming with their data?
    Mr. Friedman. Well, that's the exact question and that's 
the exact reason why we have an open investigation to them. I 
do have concerns about the parts change, about conversations 
they had with suppliers, and any of their information they may 
have had, which is exactly why we opened up an investigation to 
them, and if they did not follow the law in their requirements 
to get information to us and to respond quickly, we're going to 
hold them accountable as we have with many other automakers.
    Mr. Green. OK. Earlier this month, the New York Times 
reported on NHTSA's response to the consumer complaints over 
the years about ignition switch issues used for the recalled 
vehicles. According to the Times, many of the complaints 
detailed frightening scenes which moving cars suddenly stalled 
at high speeds on highways, in the middle of city traffic and 
while crossing railroad tracks. A number of the complaints 
warned of catastrophic consequences if something was not done. 
NHTSA received more than 260 of these consumer complaints over 
the past 11 years about GM vehicles suddenly turning off while 
driving, but it never once opened an effective investigation 
with the ignition switch issue. If consumers submitted these 
complaints to NHTSA, many were met with a quote of just 
silence.
    Mr. Friedman, Mary Ruddy's daughter died in a crash 
involving a 2005 Cobalt. Ms. Ruddy has repeatedly tried to 
contact NHTSA for information but has only received form 
letters. She told the New York Times that, quote, I just want 
someone to hear from me. We've had no closure. We still have no 
answers. Ms. Ruddy was--I don't know if she's still here today, 
but she was in the audience. Has NHTSA been in contact with Ms. 
Ruddy?
    Mr. Friedman. Mr. Congressman, my understanding of what 
happened with Ms. Ruddy--well, first of all, Ms. Ruddy deserves 
answers, and that is exactly why we are looking into what GM 
did. That is exactly why we are making sure we understand what 
happened. What she has been through, it is a tragedy, and we've 
got to work to make sure that those don't happen again.
    In terms of my understanding of Ms. Ruddy's contacts with 
NHTSA, those contacts were made through our complaint system. 
In those complaint systems, as we do note on the Web site, we 
do not necessarily respond to all of those complaints because 
what we are doing with those complaints is we are looking for 
potential problems, and if those complaints don't contain 
sufficient information, if we have questions about them, we do 
follow up with consumers. But if they have the information we 
need, we do not, because the goal of those complaint databases 
is to try to find problems.
    In this case, my understanding is Ms. Ruddy provided those 
complaints after being notified of a recall that NHTSA did 
influence. We got the Cobalt recalled.
    Mr. Green. I only have 5 minutes, but did NHTSA really 
receive 260 consumer complaints over 11 years about this 
automatic shutdown of your engines?
    Mr. Friedman. I don't have that exact number, but what I do 
know is that at NHTSA, human eyes look at every single one of 
these complaints to try to find out if there is something that 
stands out. My understanding of the complaints you are 
referencing are that they were for stalls and that only a very 
small number of them were related to air bag nondeployments. 
What we were looking for----
    Mr. Green. I know but 260 complaints on the car stopping.
    Mr. Friedman. Right.
    Mr. Green. On the freeway or wherever it's at. I don't know 
if that is a high number or a low number over 11 years, but you 
might need to have somebody or who actually looks at 
complaints, and I assume they come from different parts of the 
country, so somebody identifies and said, Hey, we need to focus 
on these 260 complaints.
    Mr. Friedman. Congressman, in this case, a human eye looked 
at each and every one of those, and whether that's a large or a 
small number based on the analysis that I've seen relative to 
the number of Cobalts that were out on the road, that was not a 
very large number compared to a lot of the other stall 
complaints that do happen for a variety of other vehicles that 
are out there.
    Mr. Green. Well, you told me about how NHTSA responds to 
consumer complaints, but it seems like in this case, NHTSA 
might look at how they respond to consumer complaints much 
better because I know as a Member of Congress, believe me, if 
we don't respond to e-mails and letters, we will hear about it, 
and if I get a number of e-mails on a certain subject, we 
obviously respond to it.
    So, Mr. Chairman, I know I'm almost out of time, and thank 
you for your courtesy.
    Mr. Murphy. The gentleman yields back.
    I now recognize the gentleman from Louisiana, Mr. Scalise, 
for 5 minutes
    Mr. Scalise. Thank you, Mr. Chairman.
    And Mr. Friedman, thank you for being with us and 
participating in this investigative hearing as well. I know 
earlier you had talked about the decision back in 2007 when the 
chief of Defect Assessment Division at your agency had 
suggested opening an investigation and then ultimately, some 
time after, it was decided not to open that investigation. When 
was the decision made not to open the investigation?
    Mr. Friedman. That was also made in 2007, and basically 
what the chief of the defect investment--sorry, Defects 
Assessment Division was doing was exactly what his job requires 
him to do. He is supposed to look for potential defect cases 
and bring those up to a panel where those are considered, where 
a broad set of evidence is considered.
    Mr. Scalise. Is that the trend in relation to peers, I 
think that's the language that you all were using when you're 
looking at, I guess, similar cars that were having similar 
problems with air bags?
    Mr. Friedman. That's one of the pieces of information 
that's used as well as crash investigations and other EWR data 
that is involved. About half of those that are brought up do 
not end up going to investigation, but we have designed our 
system to make sure that we have at least two teams always 
looking for potential problems. The Defects Assessment Division 
is always looking for potential problems and raising that 
question. That's what----
    Mr. Scalise. And then I'd be curious to get the information 
that you got within NHTSA that helped make that decision not to 
move forward with the investigation between September 2007, 
when the Defect Assessment Division decided--that suggested to 
go forward, and then when you subsequently, your agency 
subsequently decide not to because when you look at this chart 
we got from 2007, the Cobalt versus Peer crash rate, there is a 
chart, and you've got the other peers and you've got some 
fairly static numbers and then you've got the spike here in 
what's called exposure rate per population that seems to spike 
with the Cobalt, and so if the internal decision making was 
that they were similar to their peers, it doesn't seem to mesh 
from this chart from 2007. So if you can get me or get the 
committee whatever information you have on what decision making 
went into NHTSA's final call to reject what was a warning or so 
from the Defect Assessment Division, and can you get us that 
information?
    Mr. Friedman. Well, I believe we provided that information 
to the committee already, but if there is additional 
information, I'll make sure committee has----
    Mr. Scalise. And were you all----
    Mr. Friedman. I'm sorry, sir
    Mr. Scalise. You had something else you wanted to add to 
that?
    Mr. Friedman. Thank you, yes, I apologize. I just wanted to 
make clear about what the data shows. I believe you're 
referring to this chart. The bars here represent the defect, 
the potential defect, or really the complaint rate, and what 
you'll see with these bars is they're not spiking, they're not 
standing out in comparison to these others. The average is 
here, and they're just above average.
    Mr. Scalise. The blue line there on your chart.
    Mr. Friedman. Right. And that's what I was wondering if you 
were pointing to. The blue line is the volume of--I believe 
that's the volume of reports. No, that's the volume of sales, 
so that indicates how many vehicles were sold, but the 
complaint rate that's the important data that we're looking at 
are the bars.
    Mr. Scalise. OK. Did you take action on any of those other 
cars that are identified in that chart?
    Mr. Friedman. In some cases, we took action. In some cases, 
we did not.
    Mr. Scalise. So in some, you did. If you can get the 
committee the list of those cars where you did take action 
because clearly you made the choice not to take action in the 
case of the Cobalt, so we appreciate if you can get us that.
    I do want to ask a few other questions because in your 
testimony, you'd made a few, I don't know if you'd call them 
accusations, but I guess you could call them that. I mean, here 
you're saying we're pursuing an investigation of whether GM met 
its timeliness responsibilities to report and address this 
defect under Federal law. I know you addressed this a little 
bit earlier, but if you've got any specifics that you're 
referring to when you make that statement, can you get that to 
the committee?
    Mr. Friedman. Yes. Well, the specifics, I believe, are in 
my testimony that there are three things that I am concerned 
about based on their chronology. First and foremost is that 
they have identified that there's a link between the ignition 
switch and air bag nondeployment. Second is that they changed a 
part. And third is they appear to have had conversations with 
their suppliers about the air bag algorithm in relationship to 
the key----
    Mr. Scalise. Final question, and I know I am out time, GM 
had--this is your statement: GM had critical information that 
would have helped identify this defect. Have you gotten our 
staff that critical information already that you feel GM had 
that would have helped identify this defect?
    Mr. Friedman. So that information is the information that 
was referred to in General Motors' chronology. I believe the 
committee has asked for all that information.
    Mr. Scalise. So we don't yet have that, as far as you know?
    Mr. Friedman. I am not aware of exactly what documents you 
do or don't have, but if you don't have that information----
    Mr. Scalise. If you can make sure we get that information 
if you have it.
    Mr. Friedman. I also just wanted to clarify. We don't only 
look for trends. If there is a clear defect, we move forward 
into the investigation as well, I don't know the answer but on 
some of these cases, there may have not been as large of a 
trend, but if there was a clear defect, we would have 
investigated this----
    Mr. Scalise. Thanks for your testimony.
    And I yield back the balance of my time, Mr. Chairman.
    Mr. Murphy. I just want to make sure, so we're very clear 
on this, when he's referring to the information given this 
committee, if you could highlight very specifically the 
information you did not have that GM later gave you that would 
have changed your decision, you make sure the committee has 
that. I know you said it was a parts switch, and that's what we 
have.
    Mr. Friedman. Well, so, what I'm referring to, and I can 
highlight it in GM's chronology, is I'm referring to specific 
items that are identified in General Motors' chronology that 
brought concerns. We are getting that information from General 
Motors.
    Mr. Murphy. Thank you.
    I now recognize the gentlewoman from Florida, Ms. Castor, 
for 5 minutes.
    Ms. Castor. Thank you, Mr. Chairman.
    Administrator Friedman, GM has confirmed that it knew as 
early as 2001 that its ignition switches contained defects. And 
by 2004, GM had a body of consumer complaints that raised 
enough questions for them to open an internal engineering 
inquiry of the switches. Meanwhile, the National Highway 
Traffic Safety Administration, your agency, was beginning to 
receive its own body of consumer complaints of cars stalling 
and ignition switch failures, and in 2005, as your agency was 
monitoring air bag nondeployment issues, its special crash 
investigation of a 2005 Cobalt found that the ignition switch 
was in the accessory position when the air bags did not deploy. 
You said, At this point, it was not clear to the Highway 
Traffic Safety Administration what was happening.
    But then information came out subsequently that you can 
tell us, should this have pointed NHTSA in the right direction, 
in 2007 agency investigated a second crash of a 2005 Cobalt 
where the air bags did not deploy, I think you said, At this 
point, still, it did not stick out. And you've testified that 
you didn't see trends.
    The crash report found that the nondeployment could be the 
result of, quote, ``power loss due to movement of the ignition 
switch just prior to impact.'' But at this point, GM was also 
providing your agency with early warning reports in the third 
quarter of 2005, the fourth quarter of 2006, in addition to the 
special crash investigation, so we're all trying to figure out 
how it took so long for these defective ignition switches to 
trigger a recall at GM and then raise red flags at NHTSA and 
how the Highway Traffic Safety Administration could have 
noticed this issue sooner if GM had been more forthcoming.
    So the committee's investigation has revealed that GM 
approved switches for these cars that did not meet the company 
specifications in 2002 and again in 2006. Did GM ever inform 
the Highway Traffic Safety Administration of this fact?
    Mr. Friedman. Of which specific fact? I apologize.
    Ms. Castor. That the ignition switches did not meet the 
company specifications?
    Mr. Friedman. It's my understanding that we did not have 
that information.
    Ms. Castor. OK. The supplemental memo released this morning 
by the committee staff also reveals that GM had over 130 
warranty claims on the recalled vehicles that specifically 
referred to problems with the ignition switch turning the car 
off when going over bumps or when drivers accidentally hit the 
key with their knee or leg. Is it true that GM provided early 
warning reports aggregate data of the warranty information but 
not the specific warranty claims listed one by one in the 
comments from consumers?
    Mr. Friedman. What all car companies provide are aggregate 
numbers associated with warranties, and so we don't know when 
we get those counts what the reason for those warranties could 
be. For example, on the air bag side, I believe I mentioned 
before, the complaints could be because the air bag light was 
going off when they thought it shouldn't or because the 
passenger sensor was not working. So, when we have that count, 
we do not have the information as to the detail of exactly what 
each and every one of those warranty claims is.
    Ms. Castor. So if GM had shared the specific warranty 
claims, would that have been helpful to your agency?
    Mr. Friedman. The specific warranty claims I believe you're 
speaking of are related to the ignition switch itself?
    Ms. Castor. Yes, the 130 that have now come out due to the 
committee investigation.
    Mr. Friedman. And my honest answer is I don't know, and 
that is in part because at the time, we did not have the 
information we now have for General Motors directly connecting 
the ignition switch to the air bag recalls.
    Ms. Castor. So the state of the law currently is that in 
early warning reports on any type of vehicle problem, the car 
companies do not have to provide you the specific warranty 
claims?
    Mr. Friedman. I believe that's the case.
    Ms. Castor. They can give you a summary in general?
    Mr. Friedman. Yes, I believe that's the case.
    Ms. Castor. And that's true whether it is a warranty 
problem with the radio or a warranty problem that could be a 
serious safety defect?
    Mr. Friedman. I believe that's correct.
    Ms. Castor. Do you think it's time to look at the law if a 
car company has so many, here, 130 warranty claims that are 
specific and they relate to a serious safety defect, do you 
think that would be helpful to your agency, maybe change the 
law and say when a car company becomes aware that they have so 
many of these serious safety defects, they have to provide you 
the specific warranty complaints from the consumer?
    Mr. Friedman. Congresswoman, I have to look at the exact 
data before I would be able to tell you whether or not it would 
be valuable, but what I will----
    Ms. Castor. But certainly if a company had gathered a 
critical mass of serious safety defect complaints, that would 
be helpful----
    Mr. Friedman. Well----
    Ms. Castor [continuing]. Correct?
    Mr. Friedman [continuing]. If they have information 
regarding a defect, I believe that information they would, 
without a doubt, have to provide to us. I believe the 
information----
    Ms. Castor. But the law does not require that currently?
    Mr. Friedman. Well, if they have information about a 
defect, I believe the law does. I believe what you're referring 
to are warranty claims, which may or may not be associated with 
a defect.
    Ms. Castor. OK. Well, I think this is an important issue 
for the committee to look at. There might be some new line 
drawing or directions on what these early warning reports and 
if there is serious safety information that a car company has 
gleaned through their own internal investigation, it really 
needs to be provided to the agency.
    Mr. Murphy. Thank you.
    Mr. Friedman. And Congressman--Chairman----
    Mr. Murphy. Now recognize Dr. Burgess for 5 minutes. Thank 
you.
    Mr. Burgess. Thank you, Mr. Chairman.
    Thank you, Mr. Friedman, for being here with us. It's been 
a long afternoon. Now, your testimony, I think you stated that, 
in 2007 and 2010, there was not enough evidence to conduct a 
formal investigation into General Motors' Chevrolet Cobalt, 
despite the number of complaints and four fatal crashes that 
had already shown up, but in 2012, your agency, the National 
Highway Traffic Safety Administration opened an investigation 
into an air bag problem that some Hyundai models--my 
understanding is this was based on a single complaint, and that 
is OK. I think the air bag nondeployment is a serious issue, 
but why wasn't it a serious issue when the complaints were 
coming in about the Cobalt? Given the fact that you initiated 
the investigation with much less evidence in the case of 
Hyundai, how can you assert that there was not enough evidence 
to proceed with General Motors' case?
    Mr. Friedman. Congressman, safety is our priority, and air 
bag nondeployments is a serious issue and we treat them very, 
very seriously. I would have to get back to you on specifics of 
the Hyundai case, but it goes back to one of the points I made 
before, which is we are looking for two potential things. The 
best thing and the easiest ability--the best thing to be able 
to find and the clearest thing to be able find is when there's 
an obvious indication of a defect. All it takes is one if 
that's clear.
    Mr. Burgess. Yes. And I agree completely, and I don't 
know--you were not here when the CEO testified when we posed 
questions. One of questions I posed was for the accident that 
occurred in Maryland in July of 2005 where a Chevy Cobalt went 
down a street that ended in a cul-de-sac, maybe was driving too 
fast, a lot of problems that night, but the air bag didn't 
deploy when the car impacted some trees. And it was a pretty 
serious impact. In fact, it was so serious that the driver was 
then pushed up, compressed against the steering wheel with such 
force, I mean, she only weighed 106 pounds, and she broke the 
rim off the steering wheel, and that's a massive amount of 
force for a little 106-pound body to exhibit. So the air bag 
didn't deploy, I got your report here that it was in fact 
investigated in December of 2006, but that's a big deal that 
that air bag didn't deploy.
    Different from all of the other accidents that we were 
given information about, because of the nature of this person's 
injuries, because of the cause of her demise, I can't tell you 
that the air bag would have saved her life, but I know, without 
the air bag, there was no chance at all, and of course, that 
was proven that night. But an air bag might have made a 
difference because the steering wheel that she broke off 
actually compressed against the upper dome, just below the 
diaphragm, below the rib cage, and lacerated the liver, and 
over the course of the next hour and 45 minutes, small woman, 
small blood volume, she bled out. I mean, an air bag might have 
made a big difference that night.
    Now, contrasting that with another accident that occurred 
in Pennsylvania in 2009, where there was a head-on collision 
between a Hyundai and a Cobalt, and as I pointed out to the GM 
CEO, the Cobalt was not at fault, and that is, the driver of 
the Cobalt was not at fault. The Hyundai came over the center 
line, and there was a head-on collision. Closing speed was 
probably close to 100 miles an hour when you add the two speeds 
of the automobiles together. Everyone who was in the front seat 
of those vehicles died, but the Cobalt air bag did not deploy. 
The Hyundai did. Now, unfortunately, it didn't make any 
difference as to the overall fatality of that accident, but 
here you've got a side-by-side, identical speeds with which the 
impact occurred, the deceleration forces were identical in both 
automobiles. Hyundai deploys, Cobalt doesn't, this is a 
problem. Don't you agree?
    Mr. Friedman. Congressman, when air bags don't deploy, 
that's a serious issue. There's also a serious issue sometimes 
when air bags do deploy. Over 200 people died because air bags, 
earlier air bags, deployed when they shouldn't have or deployed 
too strongly when they shouldn't have. Part of the challenge 
with all this, part of the reason why this information ended up 
not being conclusive for us is because air bags are designed, 
even in some difficult crashes, to not go off because that's 
the safest thing, that's the best way to avoid potential harm.
    Mr. Burgess. Sir, in all due respect, I cannot imagine--and 
I'm not an engineer, and I'm not a lawyer, but I cannot imagine 
any circumstance where impacting an oak tree at 70 miles an 
hour or a head-on collision at 45 miles per hour per vehicle 
would not be a situation where you did not want the deployment 
of the air bag. I can't think of a single reason why the air 
bag deploying would add to the lethality of that accident 
sequence.
    Mr. Friedman. Congressman, I completely understand why--why 
you have--why you feel that and why you have that impression. 
In the case of the 2005 crash and in general with these air 
bags, if you have an unbelted occupant and a small strike 
first, the risk at play here is that the occupant may be moving 
forward during that crash. If you're moving forward during that 
crash and the air bag is opening, yes, it actually could cause 
more harm than good. When the air bag system is trying to 
decide whether or not to deploy----
    Mr. Burgess. It couldn't have possibly done more harm that 
night. I would just submit that first impact was with a 5-inch 
pine tree, and although the pine tree yielded to the Cobalt, it 
was still a pretty significant impact when that happened.
    Thank you, Mr. Chairman. I will yield back.
    Mr. Murphy. The gentleman's time is expired.
    I will now recognize Mr. Barton for 5 minutes.
    Mr. Barton. Thank you. And I want to apologize to the other 
members that are still here. I have been watching the hearing 
as I've been doing meetings, but I apologize for not being here 
physically to go ahead of some of you folks, and having said 
that, I'm going to go ahead.
    I have listened to most of what you said today on the 
television, and I think it's obvious that GM has some real 
questions that they've not done a very good answering today, 
but I also think, as the Federal regulator on the block, there 
are some valid questions for your agency to answer. My first 
question is, at what level of accidents or deaths or incidents 
of malfunction triggers more than normal NHTSA review, not 
necessarily a full fledged investigation, but in this case, we, 
in hindsight, have got 13 deaths that we feel are attributable 
to this ignition problem over a 10-year period. I don't know 
how many accidents, how many injuries, but when would NHTSA 
really start looking at something and say, there's an anomaly 
here, we need to check it out?
    Mr. Friedman. Congressman, first, I appreciate your 
question, and part of what you started with is there are 
important questions that NHTSA has to answer in addition to 
General Motors, and I think this is an incredibly important 
process because we have questions, you have questions. What my 
focus is in addition to the recall is making sure NHTSA does 
everything we can to improve the way we deal with these cases.
    When it comes to your question about, is there a specific 
level? Each case ends up being different. Ideally, what I would 
like to have happen, is that we find first, that automakers 
find and fix these defects right away. If they don't, ideally, 
I want to find and fix these defects----
    Mr. Barton. But there is some internal reporting system or 
monitoring system and like if a specific model started showing 
up, 100 accidents a month that were unexplainable, that would 
be a big enough blip that somebody at NHTSA would say, well, 
what's going on there. I mean, if you had a steering problem, 
if you had a brake problem, if you had a gasoline tank problem 
that kept exploding over and over again, not once every decade, 
but I mean, enough that you could see in your reporting, 
somebody at NHTSA would say, Hey, we need to check that out.
    Now, I am told that at the staff level, there were some 
internal NHTSA employees, some employees at NHTSA said, you 
know, before GM admitted that there was a problem, there were 
some NHTSA midlevel people that said we need to look at it and 
a decision was made within NHTSA that it wasn't at a level that 
was worthy of further investigation. Is that true?
    Mr. Friedman. Congressman, we have a process to do exactly 
what you just said. We have people who are reading every single 
one of the more than 45,000 complaints that come in. We have a 
team dedicated to do that. We have a team dedicated to looking 
at all the early warning data that comes in. In this case, 
redflags were raised. Concerns were raised, and it was 
proposed, because of that exact process, the exact process that 
you're talking about that we do have, concerns were raised. And 
this was brought to a panel. The job of that panel is to 
consider all of the evidence, the initial evidence as well as 
more detailed look at the data, whether or not there's a clear 
trend, whether or not there's enough information to have 
concern over a specific defect. The panel did that in this 
case. What I'm learning, what I'm seeing from all this is that 
we need to reconsider and look at, how do we deal with cases 
where there may be something that's considered a remote 
explanation? Should we change the way we follow up on it? 
Should we change the way we follow up on that with the car 
company? These are things that I think we're learning, lessons 
that----
    Mr. Barton. My time is just about out. I want to make one 
general comment and then one final question. You know, we 
pointed out to the GM executive that was here that their part 
didn't meet their own specifications, and it didn't just almost 
not meet them; it didn't meet them by a long way. I mean, like 
a third, it was like two-thirds off. It was way below, not just 
a little bit, and that's not NHTSA's problem, and the NHTSA 
people aren't expected to know things at that level. But on the 
general point that Dr. Burgess was asking about, when the air 
bag doesn't deploy when it runs into a tree at 40 or 50 miles 
an hour and the general response from NHTSA is that we didn't 
know how that particular air bag system was supposed to work, I 
don't think that's a very good answer. Isn't NHTSA supposed to 
know how the air bag systems work, and if they are not, if 
NHTSA doesn't know, aren't you, in your agency, supposed to 
find out?
    Mr. Friedman. Congressman, the circumstances of these 
crashes were much more complicated than that. We applied 
expertise, we applied our understanding, we applied a process 
that has worked to generate over 1,299 recalls over the last 
decade. Are there improvements that we need to make to that 
process based on what we've learned today? Yes, absolutely.
    Mr. Barton. OK.
    Mr. Friedman. And I'm committed to making sure that that 
happens, but I wish these crashes were as simple as they appear 
to be. I wish the connection was as direct as we now know it 
is. At the time and with the information that we had----
    Mr. Barton. Hindsight is always easier than current sight.
    Mr. Friedman. As before, hindsight is 20/20, and ideally, 
we----
    Mr. Barton. Thank you, Mr. Chairman.
    Mr. Murphy. The gentleman yields back.
    I'll recognize Mr. Griffith of Virginia for 5 minutes.
    Mr. Griffith. Thank you very much. I appreciate it. I 
appreciate you being here today, and I would ask several 
questions following up, you know, on why didn't NHTSA know, and 
it is true that hindsight is 20/20, but it appears that some of 
your folks were at least sent enough warning signals.
    I am looking at what I believe is tab 18, and the DAD, 
which is the Defects Assessment Division, and I know you know 
that, but not everybody watching on TV knows that, and so I 
want to make sure they know because I had to look it up, sent 
out and said in one of their e-mails in 2007, said, 
Notwithstanding GM's indications that they see no specific 
problem pattern, DAD perceives a pattern of nondeployments in 
these vehicles that does not exist in their peers and that 
their circumstances are such that in our engineering judgment 
merited a deployment and that such a deployment would have 
reduced injury level or saved lives.
    When you combine that flag with the flag I think you 
mentioned earlier in your testimony that you were getting a 
number, if I remember correctly, was about 200-and-some 
complaints on this particular Cobalt vehicle, that they were 
stalling out in the road or the engine was cutting off, and you 
start adding those together along with the fact that I believe 
you all knew that there were at least, I think it was three 
where the air bag didn't deploy and the ignition was in the 
accessory mode, it would seem that somebody ought to start an 
investigation that those coincidences might have been more than 
coincidences. And I would ask, I know you're trying to do 
things better, but apparently, the person who put all this 
together was an investigator for a one-man law firm. He did 
have somebody of counsel, but basically you've got a one man 
law firm with an engineering investigator who figures this out. 
So I would say to you, what can you do better and have you 
called on that investigator to come in and maybe train some of 
your folks to look at some of these coincidences because when 
you start seeing a series of negative things happen, that might 
be where you ought to be looking.
    Mr. Friedman. Congressman, our team was looking at this 
issue. The Defects Assessment Division was doing exactly their 
job. We have a system that is designed to raise those red 
flags. About half of the time, the recommendations of those 
Defects Assessment Division end up moving on to investigations. 
What I see in this case is one of the things I mentioned 
before, which is one of the things we need to look at is, how 
do we make connections between remote defect possibilities?
    In this case, you had one theory that was put forth, which 
was that the key being in the accessory position could have 
caused air bag nondeployments. In the crashes that we looked 
at, the circumstances of those crashes led the investigators to 
believe that it was much more likely that the air bags didn't 
go off because of the circumstances of that crash. I completely 
understand why it looks like----
    Mr. Griffith. Well, but let me----
    Mr. Friedman. It should have been clear, but it's clear now 
in part because we have that clear connection from General 
Motors.
    Mr. Griffith. Well, but let me raise this concern. This 
memo indicates that there's a reliance, and I'm implying this 
from the wording, notwithstanding GM's indication that they see 
no specific pattern problem. That statement shows a reliance on 
GM. Likewise, in your testimony, you state that this 
understanding was verified--talking about the power loss 
situation--by GM service literature during our due diligence 
effort.
    Now, if you've got a company that's got a car that is not 
functioning the way it is supposed to, I would like to think 
that with 51 employees versus that one-man law firm out of 
Georgia, that you would look at something other than the 
service literature and not necessarily rely on GM indications 
that they see no specific pattern or problem pattern. So, I am 
concerned that there may have been too much reliance on 
theinformation from GM, including their service--let me make 
sure I get the wording right--their service literature and what 
they saw as problem patterns when in fact I think that you all 
are supposed to be finding the problem patterns.
    Now, I understand it is easy, in hindsight, sitting up here 
to say that, but these are warning signs that go off to me as a 
legislator that maybe you all need to take a look at that, and 
you know, when you see problems, maybe the service literature 
of the company that you're looking at is not the best place to 
get your information.
    Mr. Friedman. Congressman, just to be clear, we did not 
rely on General Motors when it came to defects, whether or not 
there was a defect trend. We did our own analysis of the data, 
and our own analysis indicated that the Cobalt did stand out. I 
also wonder if I haven't been clear enough relative to that 
service bulletin. We did not rely on that service bulletin at 
the time. We did not rely on that information from General 
Motors. We relied on our expert's understanding of air bag 
systems.
    Mr. Griffith. But their understanding of the air bag system 
in the Cobalt was based on the service literature for the 
Cobalt, according to your written testimony. Am I not correct? 
Is that not what you said?
    Mr. Friedman. My testimony sounds like it was not clear 
enough. What happened was once we found out about this defect, 
we looked into the service literature to confirm our 
understanding at the time, and the service literature that we 
looked at this year for that vehicle confirmed our 
understanding at the time, which was that----
    Mr. Griffith. Your understanding at the time and the 
service literature were both wrong. Isn't that correct, yes or 
no?
    Mr. Friedman. Yes, that's correct.
    Mr. Griffith. Thank you.
    I yield back.
    Mr. Murphy. The gentleman yields back.
    Now recognize Mr. Long for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    I want to thank the chairman and the ranking member and all 
of the members on both sides that have been here today. We 
originally weren't scheduled to be in this soon, and so a lot 
of us had to change our travel plans to get in today, and a lot 
of us have been sitting here through the entire hearing today 
because it is a very, very important issue, of course, that 
we're discussing.
    And thank you, Mr. Friedman, for being here with us today 
with your testimony. When I think of NHTSA, I think of Number 
66 for the Green Bay Packer's linebacker Ray Nitschke, and all 
day we've been talking about NHTSA, NHTSA. Tell me what NHTSA 
is.
    Mr. Friedman. NHTSA is the National Highway Traffic Safety 
Administration. It's an organization of nearly 600 people, 
whose mission is to save lives and reduce injuries by 
addressing issues like drunk driving, unbelted occupants, 
vehicle safety, and the subject we're talking about today, 
which is finding vehicle defects when automakers don't find 
them themselves, which is their first and foremost 
responsibility.
    Mr. Long. I just wanted to get that out there on the 
record. I, of course, know what it is, but I think a lot of 
people when they hear that NHTSA, NHTSA, NHTSA all day, they're 
thinking, what exactly is this? So the next question I would 
have would be do you have any way to track consumer complaints 
to auto dealers short of waiting for them to reach out to you, 
not the dealers, but the consumers that are having a problem? 
Do you have any way to track people coming in and my car 
stopped, it died, it did this, it did that, do you have any way 
to track that, or do you have to wait for someone to contact 
you all?
    Mr. Friedman. We have early warning data which tracks the 
cases where warranty services are provided on vehicles
    Mr. Long. So anytime a warranty service is provided, you 
will be notified of that?
    Mr. Friedman. We're notified of a count. We have a total 
number--a count of the number of those and the part that that's 
associated with.
    Mr. Long. And how often----
    Mr. Friedman. Not the reason for the complaint.
    Mr. Long. Do you get that annually, semi-annually, 
quarterly, how often?
    Mr. Friedman. Once a quarter----
    Mr. Long. Once a quarter.
    Mr. Friedman [continuing]. Have the information we need, 
it's required once a quarter.
    Mr. Long. What kind of marketing do you do? How would a 
consumer learn about the National Highway Traffic Safety 
Administration? What kind of marketing do you do? If I took my 
car in, had a problem, it wouldn't pop into my head to call 
you, so how do you market yourself? How can we let the American 
public know if they do have an issue and they're not satisfied 
with their dealer, how can they contact you or what can we do 
to better augment that, I guess?
    Mr. Friedman. Well, some of the things that we're already 
looking at doing and we're already making sure that happens is 
on every single recall letter that goes out, both NHTSA's name 
is on that letter, even though it's sent from the automaker, 
and it's in clear red letters that this is important safety 
recall information. We also have apps that are available online 
that we try to make sure the consumers download. These apps 
allow people to lodge complaints directly to us. They allow 
them to track their recalls. We're also moving forward later on 
this year with a tool that will allow all consumers to come to 
our Web site, put in their VIN number to find out if there is a 
recall associated with their very specific vehicle that has yet 
to be addressed.
    We have additional efforts where we try to make sure that 
people are aware of who NHTSA is, but yes, I have seen the same 
data, and one of the things I've talked to any staff about is 
that I'm concerned that we are not at the top of the list when 
people have complaints, and we've been talking about ways to 
make sure that we have campaigns to make people aware that if 
you've got a complaint, if you've got a concern, come to NHTSA. 
We need that information. Consumer complaint data is one of the 
vital tools that we have to try to find these defects, and I 
would appreciate any help anyone can provide to make sure that 
people are aware, that people go to SaferCar.gov to report 
these defects.
    Mr. Long. Where tomorrow you're going to be able to see on 
there that you could take your car in and get a free loaner or 
a free rental, right?
    Mr. Friedman. Absolutely.
    Mr. Long. Very good. My last question. At what point is a 
consumer supposed to reach out to you?
    Mr. Friedman. At any point they have a concern. I mean, you 
know----
    Mr. Long. At what point is that, though? If I go home this 
evening, in the mail I get a recall on my vehicle, and they 
want me to bring it in and fix this switch or that doodad there 
or whatever, do I run to the phone or call you and say, Hey, 
I've got a recall? Or do I wait until I'm not satisfied with 
the dealer? At what point should consumers reach out to you?
    Mr. Friedman. Well, in that case, if you get a recall 
letter, the first thing you should do, without a doubt, is 
contact your dealer and get your vehicle fixed as soon as 
possible. These are----
    Mr. Long. Yes, but I'm talking about contacting you. At 
what point do I--if it's just a standard thing, I don't need to 
contact you on that?
    Mr. Friedman. If it's a standard recall and you're 
concerned and you want to reach out to us, absolutely, but 
typically, when we want people to contact us is well before 
there's a recall. We rely on and look at over 45,000 consumer 
complaints every single year to try to spot these trends, so I 
want someone to reach out to NHTSA the instant they have a 
serious concern about their vehicle and they feel that their 
safety is at risk so that we can have that information. Right 
now, we've got 45,000 complaints. I'd like to see that number 
get up to 50,000; 60,000; 75,000 complaints relative to safety 
issues so that we can have more information to be able to track 
down these problems.
    Mr. Long. OK. Mr. Chairman, I don't have any time left, but 
if I did, I'd sure yield back.
    Mr. Griffith [presiding]. Thank you.
    I thank the gentleman.
    The gentleman from Nebraska, Mr. Terry, 5 minutes.
    Mr. Terry. Thank you, Acting Chair.
    You had testified, Mr. Friedman, or in your testimony, you 
showed or testified that there were two SCI reports that showed 
indications of power loss and identified the vehicle power mode 
as accessory. I think one of these has been highlighted in 
several newspaper articles that the SCI noted during air bag 
investigation a problem with the accessory.
    So the question I have is, did these reports merely report 
the vehicle power mode as a fact, or did it report this and 
identify it as a potential contributing factor?
    Mr. Friedman. Well, the two reports handled the case 
differently. My understanding and my memory is that in one of 
the reports, it simply had an entry in the EDR data, in the 
event data recorder data, that indicated that the vehicle power 
mode was accessory. That's typically not reported. In the other 
case, it was included in the special crash investigation that 
there were two possible reasons why the air bag did not deploy. 
One possible reason was because of the ignition switch. The 
other possible reason was because the yielding nature of the 
trees wasn't sufficient.
    Mr. Terry. You mean, they're hard when they're hit?
    Mr. Friedman. I'm sorry?
    Mr. Terry. I'm being sarcastic. You said the yielding 
nature of the tree is kind of--they're hard and objects hit 
them and----
    Mr. Friedman. Well, different trees have different sizes. 
In this case----
    Mr. Terry. Well anyway, I don't want to get bogged down 
into the force of the impact of a tree, but the point is that 
they were noted in two SCI reports but not acted upon what is 
the communication process between the SCI and the ODI? Someone 
has got to take that up and say, Gee, there's a problem with an 
ignition switch that's been noted; maybe we should follow up on 
that. What's the process?
    Mr. Friedman. So the process, it depends on the 
circumstance. In some cases, our Office of Defects 
Investigation will actually ask the special crash investigators 
to go out and look at a crash so that they can seek new 
information. In other cases, when the special crash 
investigators follow up on a crash, they will bring it to the 
attention of the Office of Defects Investigation. So we try to 
make sure that both teams are talking to each other and sharing 
critical information.
    Mr. Terry. OK. So in these two SCI reports that were filed, 
did the SCI, the special crash investigator, communicate that 
there was a problem, other than noting it in those reports on 
those two occasions to the ODI?
    Mr. Friedman. I don't know if SCI specifically communicated 
the accessory issue, but when the team did look at especially 
the investigation that indicated that there were two possible 
reasons for that.
    Mr. Terry. Yes. So the ODI knew that there may have been, 
that the switch may have been part of the problem, let's say?
    Mr. Friedman. ODI would have been aware of exactly?
    Mr. Terry. So ODI was aware?
    Mr. Friedman. I believe so because my understanding is 
that----
    Mr. Terry. Because it looks like you have one group of 
people that's not talking to another group of people.
    Mr. Friedman. Our teams do talk to each other, but as 
you'll notice in my testimony, one of the things I do think we 
need to discuss is, are there ways that we can change the way 
these crash investigations are used in our defective products?
    But in this case, I do want to note that the draft version 
of this report that the team had at the time, at that moment, 
indicated that the crash investigators thought the more likely 
reason that the air bags did not go off was because of the 
circumstances.
    Mr. Terry. I would think if you note that there was a 
problem with the switch automatically turning to accessory, 
that that would be significant enough to just follow up on, 
whether or not it was deemed to be a contributing factor or the 
sole factor. I need to ask, though, on the early warning 
reports, you were receiving early warning reports from GM. 
Correct?
    Mr. Friedman. That's correct.
    Mr. Terry. In my question to the president of GM, she said 
that they were submitting those. Were they required, when they 
know or feel that there is a problem with a specific item in 
that car like the ignition, to report that? Or is that just one 
of the many items to be submitted within the EWR?
    Mr. Friedman. Well, my understanding is that if they're 
aware of a problem that relates to a safety defect, that that 
actually is not reported within EWR. That needs to be directly 
reported----
    Mr. Terry. Under the TREAD Act, they have to support that 
separately.
    Mr. Friedman. Well, under the TREAD Act, they're required 
to report warranty claims and a variety of other pieces of 
information to us. But if they saw a defect, then they needed 
to report that to us completely separate from, that's simply--
--
    Mr. Terry. What's noncompliance? I'm over my time, but I do 
need to get on the record, what is noncompliance versus defect? 
And you have 2 seconds.
    Mr. Friedman. Sure. Really quickly, noncompliance means you 
did not meet the standards that we have. A safety defect means 
that you may have met the standards, but there's something 
wrong with the vehicle that poses an unreasonable risk to 
safety.
    Mr. Griffith. I thank the gentleman.
    I would ask for unanimous consent that the members' written 
opening statements be introduced into the record.
    Without objection, the documents will be entered into the 
record. Hearing none.
    I will ask unanimous consent that the contents of the 
document binder be introduced into the record and to authorize 
staff to make appropriate redaction.
    Without objection, the documents will be entered into the 
record with any redactions that staff determines are 
appropriate. Hearing no objections. \1\
---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and is 
also available at http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=102033.
---------------------------------------------------------------------------
    Mr. Griffith. In conclusion, I would like to thank all the 
witnesses.
    Thank you, Mr. Friedman, and members that participated in 
today's hearing. I remind members that they have 10 business 
days to submit questions for the record, and I ask that the 
witnesses all agree to respond promptly to the questions.
    Anything else? Thank you very much. This hearing is 
adjourned.
    [Whereupon, at 6:07 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   

                                 [all]
</pre></body></html>
